<html>
<title> - SALAZAR NOMINATION</title>
<body><pre>[Senate Hearing 111-4]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 111-4
 
                           SALAZAR NOMINATION 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE NOMINATION OF KEN SALAZAR TO BE SECRETARY OF THE INTERIOR

                               __________

                            JANUARY 15, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-254 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


























               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel





















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Salazar, Hon. John T., U.S. Representative From Colorado.........     4
Salazar, Hon. Ken, U.S. Senator From Colorado....................     6
Udall, Hon. Mark, U.S. Senator From Colorado.....................     3

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    47

                              Appendix II

Additional material submitted for the record.....................    71


                           SALAZAR NOMINATION

                              ----------                              


                       THURSDAY, JANUARY 15, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SD-G50, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we get started. The committee meets 
this morning to consider the nomination of our good friend and 
colleague Senator Ken Salazar to be the Secretary of Interior. 
Senators and Representatives have been named Secretary of 
Interior before; I believe that this is the first time that a 
member of our committee, the Committee on Energy and Natural 
Resources, has been appointed as Secretary of Interior.
    In my view, President-elect Obama could not have chosen a 
better nominee. As a westerner who's farmed and ranched, who's 
practiced water law, who's served in State government and--
before coming to the Senate, clearly Senator Salazar 
understands the West and the special needs of the public-lands 
States. He's played an active role on this committee in helping 
to shape energy policy legislation in the last two Congresses. 
He understands the need to develop our oil and gas resources, 
but also the importance of balancing our energy needs with land 
conservation, outdoor recreation, and the environment. He's 
been a forceful advocate for clean, renewable energy 
technologies for outdoor recreation and for our rural 
communities.
    His service on this committee will serve Senator Salazar 
well in his new role. He will take with him to the Department 
both a keen appreciation for the Department's mission as the 
steward of our public lands and natural resources, but also a 
thorough understanding of the many challenges facing the 
Department. As a soon-to-be-former Senator, he will also 
appreciate the need to work with the committee and the 
Congress, generally, in trying to address these challenges. I'm 
sorry that we are losing Senator Salazar as a member of this 
committee and a member of the Senate, but I'm delighted by his 
nomination. He has my enthusiastic support, and I hope that we 
can confirm his nomination soon, in this next week.
    Let me defer to Senator Murkowski for her statement.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I, too, welcome my friend, my colleague, back to the 
committee, albeit on the other side of the table. But, we're 
pleased to have you before the Energy Committee this morning 
for the purposes of the nomination to be Secretary of the 
Interior. I appreciate the opportunity that you and I had to 
discuss some of the issues that will be in front of you. I 
think you realize what a large portfolio you will be taking on, 
but I know that your heart, as a person who cares for our land 
here in this country, will guide you.
    I am glad to say that Senator Salazar has had experience on 
all sides of the public-land debate, as a rancher and as both 
Colorado's attorney general and head of the Department of 
Natural Resources. Senator Salazar, of course, on the Federal 
side, covered through his service as a very distinguished 
member of this committee for these past 4 years.
    If confirmed, as I certainly expect that you will be, 
Senator Salazar, you will lead an agency of 73,000 people, with 
broad responsibilities for our Nation's Federal lands, national 
parks and offshore areas, our endangered species and water 
resources, and our Indian tribes.
    The Interior Department, as we discussed--as it relates to 
Alaska, Interior is the biggest landlord of public land in 
Alaska, with title to more than 200 million acres, is a full 60 
percent of the State of Alaska. Your experience as a westerner, 
including your various roles in government, certainly give you 
a thoughtful and a practical approach to very difficult and 
complex issues. But, I think that your reputation as a 
consensus-builder and a centrist will truly serve you well.
    Senator Salazar, I know that you are aware of my very 
intense interest of the committee and the decisions that you 
will be making. I look for your commitment to working closely 
with each of us as you consider and develop the Department's 
natural resources priorities. I look forward to the time when 
Senator Begich and I will are able to welcome you to the State 
of Alaska, hopefully with some of my colleagues here on this 
panel, so that you can have your eyes opened a little bit more 
to some of the issues that we face up north, and look forward 
to that time. But, at this point, this morning, again, I thank 
you for your willingness to serve in this capacity, and for the 
good work that you have done.
    Thank you, Mr. Chairman.
    The Chairman. All right. We have two of our colleagues here 
to introduce the nominee. We have Senator Mark Udall, from 
Colorado, and Representative John Salazar, from Colorado. Both 
of them are intimately acquainted with the nominee, and also 
with members of this committee, so we welcome them.
    Senator Udall, who is a member of our committee, we welcome 
you, and please make any statements you'd like in support of 
the nominee, and then we'll call on Representative Salazar.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Ranking Member Murkowski, and members of the 
committee. This is an exciting and, I dare say, a historic day 
for those of us from Colorado. I'm just very proud to sit here 
with my two brothers from the great and well-known Salazar 
family. It's been said, usually you have to have at least two 
Udalls to take on one Salazar, but today----
    [Laughter.]
    Senator Udall [continuing]. We've turned the tables. But, I 
can't tell you how exciting this is for all of us.
    As the soon-to-be-senior Senator from Colorado, I'm pleased 
to be here today to introduce my friend and----
    [Laughter.]
    Senator Udall [continuing]. Colleague, Senator Ken Salazar, 
as President-elect Obama's choice to lead the Department of 
Interior.
    For reasons I will explain shortly, I believe that this 
man, who's a fifth-generation son of the West, whose ancestors 
settled Santa Fe before America gained independence, is 
uniquely qualified and experienced to lead the U.S. Department 
of the Interior. He's an outstanding public servant, and he 
will make an outstanding Secretary of the Interior.
    This committee, as, Mr. Chairman, you and the ranking 
member pointed out, and our colleagues throughout the Senate, 
are well aware of Senator Salazar's excellent record of 
leadership. He's worked across the aisle and with diverse 
stakeholders on many issues, ranging from healthcare to 
national security. As a member of this committee, Ken has 
worked to extend critical renewable tax credits, protect our 
natural resources, and encourage environmentally responsible 
develop of domestic energy sources.
    I've been proud to work with him on a wide range of issues, 
including protection of our public lands and water resources in 
Colorado. I'm especially proud of our work together to pass 
legislation that allowed a lovely older woman, Betty Dick, to 
pass her final days in peace on land she treasured in the Rocky 
Mountain National Park that's so important to us in Colorado.
    Ken, I think Betty would be very proud of you today.
    Even before his time in the Senate, Ken has been a 
recognized leader in the West. As a farmer and a rancher, he's 
always had a close relationship with the land and with rural 
communities. He's spoken eloquently about what he calls ``The 
Forgotten America,'' and he has been a steadfast champion of 
the land, water, and people of the West.
    As the executive director of Colorado Department of Natural 
Resources, Ken used his unique background and experience to 
protect the environment and Colorado's communities, educate 
youth about our natural resources, and defend Colorado's water. 
He helped create Great Outdoors Colorado, and led it to become 
one of the most successful land conservation programs in the 
country.
    While serving as Colorado's attorney general, Ken worked to 
make our community safer and addressed gang violence. He also 
led efforts to preserve open space, and, during this two terms 
as attorney general, he was a well-known champion of the 
natural environment.
    Ken will bring, without question, his rural values--hard 
work, honesty, and integrity--to the Department of Interior, 
and help the Department face the many challenges that are in 
front of it. From addressing Interior's ethical lapses to 
tackling our country's lack of transmission infrastructure, Ken 
will work hard to put the Department of Interior back on the 
right track.
    Mr. Chairman, as I close, I would be remiss if I did not 
mention Senator Salazar's family; and, in particular, his 
mother, Emma. Like her sons, she is a remarkable Coloradan. I 
had the opportunity to visit her at the Salazar ranch, Los 
Rincones, last year. If her son, Ken, demonstrates the same 
indomitable spirit, strength of character, and wisdom of his 
mother--and I know he will--he should be an outstanding 
Secretary of Interior.
    Thank you.
    The Chairman. Thank you for your strong statement of 
support.
    Representative Salazar, you probably are in a better 
position to give us the real inside story on this nominee than 
anybody before the committee today. Please go right ahead.

  STATEMENT OF HON. JOHN T. SALAZAR, U.S. REPRESENTATIVE FROM 
                            COLORADO

    Mr. Salazar. Thank you, Mr. Chairman and members of this 
distinguished committee. It is an honor and a privilege to come 
before you today, feelings matched only by the pride I bring to 
this chamber as I introduce to you President-elect Obama's 
nominee for Secretary of the United States Department of 
Interior, my brother, Senator Ken Salazar.
    You're going to learn a lot about Senator Salazar today, 
both from himself and from others. I speak to you from a unique 
and blessed perspective of one who has not only worked with the 
Senator in the Halls of Congress, but toiled with him on the 
land that he has always fought to manage and protect. Although 
it feels like yesterday, it was many years ago when my brother 
and I worked and played in the fields of the ranch in--of our 
ranch in southern Colorado in the San Luis Valley. We didn't 
have electricity or television or many toys, but we found 
inspiration on the land that my mother and father and seven 
brothers and sisters worked in order to survive. It is this 
challenge to manage the land, so that it can provide 
prosperity, inspiration, and health, that faces the incoming 
Secretary of Interior, and there is no one stronger, more 
experienced, or better suited for that task than Senator Ken 
Salazar.
    The next Secretary of Interior is going to need to bring 
with them an abundance of selflessness and integrity, and 
Colorado's senior Senator has these qualities to spare. To me, 
he is one of the most selfless individuals that I have ever 
known. He champions the value of hard work, integrity, and 
honesty that our parents taught us on the farm. He has excelled 
in his career, not to further his agenda, but because when 
doors of opportunity have opened for him, he has never slammed 
those doors behind him; he's always held them open for others.
    We often hear the phrase ``the law of the land.'' Senator 
Salazar is the embodiment of that phrase. As a former Colorado 
State attorney general and director of the Colorado Department 
of Natural Resources, he brings a keen and precise 
understanding of the law and its application to administrative 
and public-lands issues. He brings with him a steady hand, one 
strengthened by his time on the land, to the task of overseeing 
the management of our public resources with honor.
    Senator Salazar is a testimony to our parents' lesson of 
standing up for what is right, even if you're standing alone. 
As he has always done, the Senator will not hesitate to put the 
needs of the Nation before the needs of himself and make those 
tough choices. He is a pragmatist who does not delineate by 
political orientation. He weighs the virtues of both sides of 
the issue, and ultimately makes the best decision for the 
greater good.
    Mr. Chairman and members of the committee, it is with great 
honor and pride and hope for the future of the lands which 
define the character and the spirit of this great Nation that I 
introduce to you U.S. Senator Ken Salazar, nominee for the 
Secretary of the Department of Interior.
    Thank you, Mr. Chairman.
    The Chairman. Thank you for your strong statement, as well.
    Ken, as you are well aware, the rules of the committee, 
that apply to all nominees, require that nominees be sworn, in 
connection with their testimony, so if you could stand and 
raise your right hand, please.
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Senator Salazar. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I will ask three questions 
that we address to each nominee before the committee.
    The first question: Will you be available to appear before 
the committee and other congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Senator Salazar. Yes.
    The Chairman. Second question: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest, or create the appearance of 
such a conflict, should you be confirmed and assume the office 
to which you've been nominated by the President?
    Senator Salazar. No.
    The Chairman. The third question: Are you involved or do 
you have any assets that are held in blind trust?
    Senator Salazar. No.
    The Chairman. At this point, our custom is for nominees to 
introduce any family members that are present. If you would 
like to do that, you're invited to do so.
    Senator Salazar. Mr. Chairman, with your permission, I 
would like to do that and give an opening statement----
    The Chairman. Why don't you go ahead with introductions, 
and then your statement. Please.

          TESTIMONY OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you, Mr. Chairman.
    Let me first say, Chairman Bingaman and Ranking Member 
Murkowski, Senator Dorgan, Senator Wyden, Senator Landrieu, 
Senator Shaheen, Senator Udall, Senator Sanders, and to all the 
great members of the committee and the staff, it is an absolute 
honor to be before you today, and I thank you for the work that 
we have done together for the last 4 years, and I very much 
look forward to the work that we have to do together in the 
future, because, in a way, it is a bittersweet reality that I 
leave the Senate, but there is also some goodness in that, in 
that I continue to work with the great members of this 
committee and the Members of the U.S. Congress.
    I want to thank the President-elect, Barack Obama. I think 
President-elect Obama brings the kind of change and hope to 
America that is of the kind that this country so needs. I liken 
it, always, to the election of Abraham Lincoln or to the 
election of Franklin Delano Roosevelt, for the kinds of 
challenges that we face in the future are going to take a 
herculean effort to resolve. I look forward to being a part of 
that team to bring about that change to America.
    I want to thank Congressman Salazar, my brother, John 
Salazar, who is the older brother, who, frankly, has been my 
brother and friend for more than 50 years. To Senator Mark 
Udall, we are brothers, and the Udall family has made its mark 
on the West, and we have been friends for a very long time, and 
we'll continue to work on so many issues, as we have over so 
many years in Colorado.
    I want to also thank the members of my family. You know, 
the--all of our family. My family is not able to be here today; 
they will be here for the inauguration. My wife, Hope, my 
daughters, Melinda and Andrea, my granddaughter, Mireya; all of 
them, who are probably watching this event at home in Colorado 
today, are the bedrock of my life, and I will not forget them, 
now or forever.
    I want to also thank my father and mother. Many of you on 
this committee know the history of my father and my mother. 
But, they are proud people, 12 generations on the soils of New 
Mexico and Colorado. My father, in World War II, was a soldier, 
a staff sergeant in the Army during that war and mother, at the 
age of 19, found her way across America to come and serve this 
great country, in what was then known as the War Department, 
for a period of 5 years. They instilled in us the values that I 
have brought to the U.S. Senate and to my public life. To them, 
I will be forever grateful, because they saw a dream in the 
future of America through their children. Though they were 
poor, though they did not have an opportunity to receive an 
education, all eight of their children became first-generation 
college graduates. I'm sure they could not have foreseen that 
someday they would have a son who would be a U.S. Senator and a 
Secretary-designee for the Department of Interior, nor could 
they have seen that, sitting to his left earlier this morning, 
there would be a member of the U.S. House of Representatives. 
But, what they could foresee was the fact that we are a 
humanity in progress, and America is the shining star that 
takes us forward as a beacon of hope and opportunity. It was 
that faith in the future that has me here today in front of 
this wonderful committee asking for your blessing as I move 
forward to serve this Nation as Secretary of Interior.
    Let me say just a few words about the Department of 
Interior and what some of my priorities will be as I move 
forward and implement President Obama's agenda within the 
Department of Interior.
    It is a big Department, and I know it covers, not only 
everything in the Outer Continental Shelf, but one-fifth of the 
land mass of the United States of America, deals with the 
issues of Native Americans, which are many, and we'll talk 
about those in a minute, but also deals with a whole host of 
other issues, from water, not only in the West, but our 
national monuments, historic preservation, and so many things.
    I want this Department to be America's Department. You 
know, I think, for far too long, the Department of Interior has 
been seen as a Department only of the West. The fact is that 
this Department of Interior touches, not only the 50 States, 
but the territories, our oceans; and, in fact, its footprint is 
global. It is with that kind of ambition that I approach this 
job, knowing that we can make the difference that will help 
change the world in a very good way for the people of America.
    My priorities, as I move forward within the Department of 
Interior, will be the following:
    The mess that exists in the Department of Interior. I do 
believe that Secretary Kempthorne has done some good things to 
try to right the ship of 6 years gone bad during the first 6 
years of the Bush Administration, but it is telling to me that 
the inspector general of the Department of Interior, in its 
report to Congress in 2006, basically said the following. The 
IG said, quote, ``Simply stated, short of a crime, anything 
goes at the highest levels of the Department of the Interior. 
Ethics failures on the part of senior Department officials have 
been routinely dismissed, with a promise not to do it again.''
    But, we know that, since those words were written to 
Congress by the inspector general, that even crime has been 
something that has happened within the Department of Interior. 
So, our first and foremost task will be to restore the 
integrity of the Department of Interior, and to bring the 
highest level of ethics back to the functions of this critical 
Department for our Nation's government.
    Second, I, in my own conversations with Senator--with 
President-elect Obama, decided that one of the things that we 
want to do is to make sure that we get to energy independence, 
that we take the moon shot to energy that we can take in the 
several years ahead, and that we really set America free, as so 
many of us who have been a part of that coalition have tried to 
do in our work in this committee, as well as in the U.S. 
Congress for the last 4 years. We will do it now. It is an 
inescapable reality. It is an imperative. It is something that 
we will not let go of.
    From my point of view, we need to build a house of energy 
independence for America. A house of energy independence will 
be based on four cornerstones.
    First, it will be based on conservation, because we all 
know that that is the low-hanging fruit as we deal with our 
efforts to move toward energy independence.
    Second, we will embrace the ethic of renewable energy, 
which this committee has helped lead on, with a new vigor and a 
new resolve within the Department of Interior. What that will 
mean is taking on issues, like the siting of solar facilities 
and wind farms and other kinds of renewable energy resources, 
including geothermal and some small hydro, for already-existing 
facilities, within the lands of America, so that we can help 
move forward toward energy independence.
    We also will deal with transmission, because it doesn't do 
any good to produce huge amounts of solar power within the San 
Luis Valley, in the southern part of my States, or within New 
Mexico, if we can't get the power that's generated from those 
solar power farms to the places where it is to be consumed.
    Third, technology. We know the importance of technology in 
this committee, and how that holds so much of a key to our 
energy independence. I will continue to be a keystone person, 
working on an energy team that will help us get to the energy 
independence with the new technology, whether it's for 
batteries, for hybrid electrics, or the other kinds of 
technologies that we have talked about so often here in this 
committee.
    Fourth, responsible development. I know that much of the 
fight within the Congress over the last 10 years has been about 
how we develop our natural resources. My own view, and that of 
Senator-elect--and that of President-elect Obama, is that we 
need to develop our resources, but we need to develop them in a 
thoughtful and responsible way. We can develop our oil and gas 
resources, but we can also make sure that we're taking care of 
the habitat that anglers and hunters are so endeared by and 
which provide so many economic benefits to much of the rural 
parts of America, to much of America. So, we will have a 
balanced approach to the development of our natural resources.
    So, energy will be a major issue, and one on which I intend 
to spend a very significant amount of my time during the time 
that I am at the Department of Interior.
    Third, I want to make sure that America's treasured 
landscapes are protected, preserved, and enhanced. That means a 
new and vigorous approach to our work with the national parks 
of America, our natural monuments, all of our public lands, our 
historic preservation. I also want to take on some new 
initiatives with respect to the Land and Water Conservation 
Fund and try to move forward with the protection of lands of 
national significance and to address the issues of the 
protection of farmlands and ranchlands across America.
    During my time as director of the Department of Natural 
Resources, and on my own time, I wrote the constitutional 
amendment that created Great Outdoors Colorado within my State. 
It avoided the conflict that often happens between 
condemnation, on the one side, for public purpose, and 
preservation, on the other hand. With the program that we've 
created in Colorado, we now have river restoration efforts in 
the Joaquin, the Colorado, the Platte, the Arkansas, the Cache 
La Poudre, and so many others, and have created community 
separators, so that places like Colorado Springs and Denver 
will never grow together as one chain of cities. So, we will 
move forward with an agenda on national parks and lands of 
national significance and sites of national significance also 
with a new vigor.
    Fourth, the water challenges of America are important to 
all of us. We know, especially in the arid West, where we say 
``whiskey is for drinking and water is for fighting,'' that 
people fight about something when it is so scarce. But, it is 
an issue that not only affects the West, it also affects all of 
America. The issues are complex, and, as Chairman Bingaman and 
Senator Dorgan would know, and Senator Murkowski, some of these 
issues are issues that have gone unresolved, sometimes for 
decades and decades and decades. We will bring the kind of 
expertise to the table to help resolve many of these 
outstanding conflicts that we have with respect to water, and 
also to address the water supply issues of our communities.
    Fifth, for far too long, the Native American communities, 
the first Americans of this country, have been left far behind; 
and they are, indeed, among the most vulnerable of our 
populations. They are recognized in our Constitution as being 
our partners, and they deserve to have the kind of respect and 
the kind of consultation with the United States of America that 
is deserving of the sovereigns of the Indian communities. 
Therefore, we will take on a new agenda as we deal with 
America's first people, and make sure that, as we deal with 
America's first people, that we are addressing the major 
challenges of our time for them, for all of us, which include 
economic development within the reservations, moving forward 
with education of a million-plus children, where we have 
dilapidated schools and an educational system that is not 
working for many of our Native American young people. We will 
move forward, with the leadership of people like Senator Dorgan 
and others, and make Indian healthcare a reality for the Native 
Americans of our reservations. We will end the criminality 
which has come to typify the reality for many Native American 
tribes and reservations across this land. It is time that we 
bring a new sense of law enforcement within the reservations, 
and to do that in a coordinated and collaborative way with law 
enforcement within the reservation.
    Sixth, our young people. Our young people are important to 
all of us. You know, I created a program in the State of 
Colorado called the Youth and Natural Resources Program. As I 
spoke to Senator Landrieu a few days ago, we were recounting 
what that program had done. But, we brought about 5,000 kids to 
work in the Parks and Wildlife facilities of my State, and 
those kids were exposed to higher education. Environmental 
education is key. I hope that we are able to move forward and 
to establish what will be a crown jewel of a national youth 
conservation program for the Nation through the Department of 
Interior.
    Finally, Mr. Chairman, let me just say that, when I ran for 
Colorado attorney general in 1997--and few people thought that 
I would win that race--and when I won--when I ran again, in 
2002, for reelection, and when I ran for U.S. Senate in 2004, I 
came up with a motto that said, ``Fighting for Colorado's land, 
water, and people.'' I didn't listen to my advisors and 
consultants. They thought it was a little bit crazy that I was 
coming up with that motto for my races, for my political races, 
``Fighting for Colorado's land, water, and people.'' But, I'm 
proud I did, because I won all three races by a good margin.
    Now it is my extreme privilege to have the full support of 
President-elect Obama as I move forward to fight for America's 
land, water, and people.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Salazar follows:]
    Prepared Statement of Hon. Ken Salazar, Nominee to be Secretary 
                            of the Interior
    Thank you, Mr. Chairman and distinguished members of the Committee. 
I am honored to appear before you today as President-elect Obama's 
nominee to be Secretary of the Interior.
    Before we begin, I want to thank my entire family, especially my 
wife, Hope, and my daughters Melinda and Andrea. Without their courage 
and unwavering support, and the support of all my seven brothers and 
sisters, I would not be here today.
    I want to thank my late father, Henry, and my mother, Emma. A 
soldier and a public servant in World War II, they instilled in me the 
values that enabled all of my siblings and me to achieve the American 
dream. I also want to thank my Senate staff, in Colorado and 
Washington, for their service.
    I have been blessed to represent the five million people of the 
State of Colorado in the United States Senate. I have come to know my 
colleagues, Democrats and Republicans, as good friends and dedicated 
public servants. I am grateful to have served on the Energy and Natural 
Resources Committee and to have worked with you all on many of the 
energy, environmental and lands issues facing our nation. If confirmed, 
I look forward to continuing our work together.
    My story in the West goes back 400 years, to when my ancestors 
helped found the city of Santa Fe-the city of Holy Faith-in New Mexico. 
I grew up in the San Luis Valley in southern Colorado, on lands my 
family has farmed and ranched for five generations.
    My family's livelihood depended on the health of our land. Our 
parents taught us, and their parents taught them, that we have a 
responsibility to be good stewards of the water, soil, and wildlife 
around us, so that we can preserve the balance that allows us to ranch 
and farm, generation after generation.
    This sense of stewardship is the foundation for my deep 
appreciation of our public lands, most of which are managed by the 
Interior Department. Our nation's parks, forests and seashores are 
national treasures.
    I also firmly believe that those who work in government must hold 
sacrosanct the trust of the public it serves. If confirmed, my first 
priority will be to lead the Interior Department with openness in 
decision-making, high ethical standards, and respect for scientific 
integrity. I will work to ensure that the Interior Department's 
decisions are based on sound science and the public interest, and not 
on the special interests. I want the public to be proud of the 
Department's work, and I want those who work for the Department to be 
proud of their service.
    If confirmed, I will remain committed to helping our nation reduce 
its dangerous dependence on foreign oil. President-Elect Obama 
believes, as I do, that our foreign oil dependence is a grave threat to 
our national security, our planet, and our economy.
    As part of the President-Elect's energy team, I will work to 
modernize our interstate electrical grid, expand the use of renewable 
energy like solar and wind on public lands, and help tribes develop 
renewable energy resources on their lands.
    We must also make wise use of our conventional natural resources, 
including coal, oil, and natural gas. We should promote responsible 
energy development in areas like the Alaska National Petroleum Reserve 
and prioritize the construction of the Alaska natural gas pipeline.
    But as we develop our natural resources, we must adhere to the 
principles of good stewardship, and we must protect some of our 
nation's most treasured landscapes.
    One of President-Elect Obama's top priorities is to protect our 
national parks, public lands, open spaces, and farms and ranchlands. It 
is a passion I share.
    As Executive Director of the Colorado Department of Natural 
Resources, I authored the Colorado constitutional amendment creating 
the Great Outdoors Colorado program and served as its first chairman. 
It has proven to be one of the most successful land conservation 
efforts in the United States. If confirmed, I look forward to building 
on these good ideas and to working tirelessly to protect and restore 
our national parks, wildlife refuges, and public lands across America 
for future generations to experience and enjoy.
    I also understand the water supply challenges our nation faces. I 
grew up on the back end of a ditch and the top end of a shovel, so I 
know the effects of a water crisis on communities, farmers and 
ranchers. I started working in water law a quarter-century ago. I have 
worked on scores of legal disputes over water in the private sector and 
as Colorado's Attorney General, and several of those cases went before 
the Colorado Supreme Court or the United States Supreme Court.
    President-Elect Obama believes, as I do, that we need to help local 
communities reduce water use by investing in new water conservation 
technology, while also encouraging innovative, market-based 
conservation programs such as voluntary water banks to help communities 
develop programs that work for them.
    Another top priority will be to support and serve Native American 
communities across the nation. If confirmed, I am committed to 
restoring the integrity of the nation-to-nation relationship with 
Indian tribes and to meaningful reform of the broken system that 
manages the trust lands and other trust assets.
    I believe the Interior Department should be a partner with tribal 
communities to advance sustainable economic development-this is 
fundamental to true self-determination. Education is the key to 
improving the lives of all children and empowering tribal nations to 
build a better future. President-Elect Obama is committed to repairing 
and building Indian schools, and increasing educational opportunities 
for Native American children.
    President-Elect Obama has a bold vision for youth programs across 
America, which I share. During my tenure at the Colorado Department of 
Natural Resources, I created the Youth in Natural Resources program to 
educate thousands of young people about Colorado's natural resources. I 
saw firsthand what a difference it made in their lives.
    A new national youth conversation corps program would introduce 
young Americans from all backgrounds to the beauty of our national 
parks and refuges and promote an ethic of volunteerism and conservation 
among our children and grandchildren.
    When I first entered elected office as Colorado's Attorney General, 
I pledged to ``Fight for Colorado's land, water and people,'' and it is 
a pledge I still live by today. If confirmed, I will continue to serve 
as a strong voice for our nation's land, water and people.
    Thank you, Mr. Chairman, and thank you, distinguished members of 
the Committee.

    The Chairman. Thank you for your very thorough statement.
    Let me start the questions and ask about this economic 
recovery bill that is currently being developed. I think, if 
we're successful, as I hope we are, in getting you confirmed 
for this new position next week, the first thing on your plate 
will be--as is the case with all of our nominees who are 
confirmed next week--will be participating in the development 
of this economic recovery plan that the President is urging the 
Congress to adopt. I think we're all familiar with the 
statistics, that we received, sort of, year after year from the 
Interior Department, that we have $9.5 billion of deferred 
maintenance backlog in the national parks, we have $5 billion 
of deferred backlog for road and trail maintenance in the 
national forests, we have 1.3-billion backlog for rural water 
projects, 3-billion backlog for aging water infrastructure. The 
concern I'm--I would like you to comment on is--the latest 
information I have is that the stimulus proposal that we're 
going to be presented with only contains $600 million of 
proposed spending for our national parks, compared to the 2.75 
billion that the Park Service estimates could be put to good 
use in the next 2 years. I'm also advised that the stimulus 
proposal will not contain any money for water projects. So, I 
guess the question would be: If confirmed, can you work with us 
to see that some of these legitimate needs of the parks and the 
forests and public lands are better addressed in this 
Administration economic recovery plan?
    Senator Salazar. Chairman Bingaman, the answer to that is 
yes, indeed, and I look forward to working with you and the 
Members of the Congress in fashioning a package that addresses 
the issues of energy, parks, Indian, and water issues. You 
know, the package is still in its formative stages, but I have 
let those people who are working on crafting the package 
understand the importance of those areas that you spoke about.
    At the end of the day, it seems to me that, if you take the 
National Parks Program for example, we know that there are over 
$2.5 billion of initiatives--projects ready to go across our 
national park systems. So, we hope to be able to address those 
in the economic recovery package.
    The Chairman. Let me just also ask your thoughts. One of 
the responsibilities of the Department of Interior is the BIA 
schools. Based on my experience here in the Senate, it seems to 
me that this is an area of Federal funding that is always 
shortchanged; there's never enough to build adequate facilities 
and adequately fund the needs of those BIA schools. I hope you 
can make this a priority, as well, in the budgets that come 
from the Administration, and perhaps as part of this economic 
recovery plan, as well.
    Senator Salazar. I'd hope that we are able to do that, as 
well, Mr. Chairman, and that the reconstruction of schools 
within Indian reservations will be part of what we might be 
able to address in this package.
    The Chairman. Let me just make one other comment, and then 
I'll defer to Senator Murkowski.
    I do think it's terrific that you are seeing the importance 
of having the Secretary of Interior intimately involved in the 
energy policy and the climate-change policy decisions of this 
new Administration. Those are issues that directly impact your 
Department, and that your Department has a great role in. We 
had a chance to talk about that before, and I'm very encouraged 
that you see this as one of the areas that you're going to be 
very active.
    So, let me stop with that and defer to Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Salazar, thank you for your comments. They are well 
spoken, and I appreciate them a great deal.
    We had an opportunity to talk a little bit yesterday about 
offshore Outer Continental Shelf development, and, in fact, 
this is an issue you were very involved with session--the 
Presidential moratorium that was in place, and then the 
congressional moratorium that was allowed to expire last year--
as Secretary of the Interior, would you support the 
reinstatement of either ban, either the congressional or the 
Presidential moratorium?
    Senator Salazar. As President-elect Obama has said--and I 
very much agree with him on this position--what we need to do 
is to look at the OCS in the context of a comprehensive energy 
plan that includes some of the components of the energy program 
that I outlined earlier. Development is part of that program. 
Within the OCS, given the opening up of the 5-year plan within 
the Department of Interior, it really is up to me, in 
consultation with you and, obviously, with President-elect 
Obama, about how we move forward on the OSC. But, we will have 
an open process with you and others as we decide how to move 
forward with that.
    The fact of the matter is that there are places in the OCS 
where it is appropriate for drilling, as this committee and as 
this Congress has done in places in the Gulf of Mexico and some 
places in Alaska, as well. There may be other places that are 
off-limits. But, I think what we need is to have a thoughtful 
process, as we go forward, to make sure that we're doing the 
right thing in the OSC, that can be done in an environmentally 
safe way, and, at the same time, make sure that we are 
protecting the needs and issues of local communities and 
States.
    I know there are members of this committee who have great 
concerns about opening up the OCS in certain areas. For 
example, Senator Martinez and Senator Menendez have talked to 
me about this issue, relative to their beaches and their 
economy. So, it is not an easy issue. But, I hope----
    Senator Murkowski. What about the aspect of Federal 
revenue-sharing that can go to the States, and the affected 
communities within those States?
    Senator Salazar. We don't have a position on that at this 
point in time. We look forward to consulting with this 
committee as we move forward on that issue. You know, it's been 
a difficult and contentious issue, even among this committee 
and in the Senate. You know, the different formulas that are 
used for in-land production and revenue-sharing there than what 
is used in Alaska, for example, and what is used in the Gulf. 
So, it's an issue of complexity that's going to require 
consultation and a lot of work to come up with a solution that 
hopefully will work for everybody.
    Senator Murkowski. One of the things that we would like to 
work with you on is how we handle, within the Department and 
the various agencies, the permitting of leases. What we're 
finding, up north, is, the number of permits that are involved, 
which you can appreciate, but the number of differing agencies 
that must move the permits through, and the level of complexity 
that we have; this process can truly take years. I'm wondering 
if you would be willing to at least discuss with us, or better 
understand what some of the complications are, to work to try 
to provide some coherency, some rationale, to the permitting 
process, and work to perhaps streamline in certain areas. It is 
something that we have learned, as we are attempting to provide 
for more access, at least in the northern part of the country, 
that the way we have our system set up is not conductive to an 
efficient process. So, I would just like your recognition that 
this is an area that we should be looking at and perhaps 
collaborating a bit more on.
    Senator Salazar. Senator Murkowski, I think that with--in 
all areas, where there is a process in place, if we can find 
ways of doing it better, we've got to do it. If we can 
streamline processes, we ought to do it. Your comment reminds 
me, as well, that, while the 2005 Energy Policy Act did a lot, 
in terms of setting up offices and providing some resources for 
oil and gas, we need to recognize that we are going to need the 
same kinds of processes, as we move forward, with energy from 
other areas, including renewable energy, the siting of solar 
power plants, the siting of transmission facilities; those are 
also going to take resources, and perhaps some streamlining, to 
get done.
    Senator Murkowski. Thank you, Mr. Chairman. I'll come back 
with extra questions.
    The Chairman. Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman. I appreciate my 
colleague, Senator Wyden, for allowing me to go first, because 
I've got a Homeland Security confirmation hearing, Senator, in 
just a few minutes.
    But, first of all, let me more than welcome you before this 
committee. It truly, in some ways, is a dream come true, for 
some of us, to have a person of your caliber and integrity and 
pureness of heart to run an agency that--and Department--that 
is truly in need of extraordinary reform, and a man who has in 
his heart the capacity and background to fight for the people, 
whose resources these are. For a long time, they've not been 
managed well, in many ways, and so, it testimony is an 
extraordinary opportunity, and I want to tell you, you will 
have my vote, you will have my support, and I'll do everything 
I can to help meet the vision--to help you with the vision that 
you've outlined, which I think is ambitious, but most certainly 
necessary.
    I want to associate myself with the remarks of the Chairman 
relative to the backlog of critical needs in this Nation, from 
water resources to our parks and public lands. Opportunities 
have been squandered for years, and it's time to get that 
fixed. How quickly we can fix it, I don't know, but I do want 
to associate myself with his remarks, as I hope that we can 
potentially push the stimulus package to be more reflective of 
that reality.
    No. 2, I'd like to associate myself with the remarks of the 
Ranking Member. She has been my partner, in many ways, on this 
committee, with you, to continue to put the OCS--Outer 
Continental Shelf, 200 miles out from the State boundaries that 
circle this Nation--to try to put it on the forefront of the 
agenda; because, I think, in large measure, these lands, 
perhaps because they lie under great depths of water, are not 
recognized as part of this agency's responsibility. But, as you 
so eloquently pointed out, not only are the lands on, you know, 
the 50 States, but surrounding our 50 States, very important.
    Which brings me to my fourth point, and then I'll get to 
one question. I'd like to mention two historical points 
quickly. When I saw Senator Udall sitting with you and your 
brother, I recalled that one of the great stretches of 
leadership in this country came from Stuart Udall, the 
Senator's uncle and the Congressman's father, if I have that 
right. Mark's uncle and Tom's father. He served as a Secretary 
from 1961 until 1969. In that term, I think he had a heart a 
lot like yours. He wanted to give the people some of the land 
that they actually owned, keep as much in private hands, of 
course, as possible, but for the public. He created, with the 
help of many, I think, a landmark piece of legislation, called 
the Land and Water Conservation Fund. He created it. He said 
that, ``At some point in our Nation's history, we need to start 
giving back to the land. We can't keep taking from it.'' So, he 
created a program that authorized $450 million for the Federal 
side and $450 million for the State side, distributed, in his 
vision, through Governors and mayors, to create parks, swimming 
holes where children can swim who sometimes can't even see the 
sunlight from where they live, places so that kids could 
understand the value of protecting nature, not just big parks 
in the West, but in places in crowded cities, from New York to 
New Jersey, to the South and to the West.
    Unfortunately, his vision, which I hope you can add to, was 
never funded. Not once in 65 years was the Land and Water 
Conservation Fund ever fully funded, either on the State or the 
Federal side. It's because it was created, but the money just 
never seemed to be there to do it. So, you and I passed a piece 
of legislation, with 70 other Senators, 2 years ago, to begin 
to try to recapture that great vision, with the Gulf of Mexico 
Energy Security Act, where some of the money that comes from 
the Outer Continental Shelf could be used to fund the Land and 
Water Conservation Fund, so we could really meet the 
obligations of an expanding and growing population, and take a 
portion of that and contribute to the coastal States that 
produce it, and not only fully fund the Land and Water 
Conservation Fund, but fully appreciate the role that those 
coastal States play in generating the $10 billion a year now 
that's being generated from offshore.
    So, I know my time is getting close, but I wanted just to 
refresh that and to ask you, Are you committed to work with us 
to find every way we can to fund the Land and Water 
Conservation Fund and continue the revenue-sharing partnership 
that will make so many of these good things a reality, 
including saving Louisiana's coast and wetlands restoration?
    Senator Salazar. Senator Landrieu, the--I've been an 
advocate, for a long time, for the full funding of the Land and 
Water Conservation Fund, and have joined many of you in getting 
the money that has gone into the Land and Water Conservation 
Fund for the last 4 years. We need to do everything we can to 
make sure that we achieve the vision of John Kennedy and Stuart 
Udall, because there's a lot that we could do if, in fact, we 
had the Land and Water Conservation Fund fully funded.
    Having said that, there are opportunities, as we develop 
our oil and gas resources around the country, to try to fund 
the Land and Water Conservation Fund. As you know, and 
everybody on this committee also knows, we are dealing with 
some difficult economic issues in our country which are going 
to affect our budget in numerous ways, and we're going to have 
to deal with those economic realities within the Federal 
Government and within our own budgets.
    But, having recognized that, I mean, part of my excitement 
to take on this job are the kinds of opportunities that we can 
create, hopefully through LWCF and some other programs that 
will do what we're able to do what we were able to do in 
Colorado. Perhaps as we look at how we are collecting 
royalties, doing royalty reform with MMS, and other kinds of 
things, if we do it right, that the money won't disappear into 
the dark hole of the Federal Treasury, but instead might come 
back to help us achieve the vision that we share with respect 
to the Land and Water Conservation Fund.
    Senator Landrieu. Coastal restoration would be included, as 
well?
    Senator Salazar. I understand the importance of coastal 
restoration and making sure that we have money available to 
address the issues of coastal restoration and to mitigate 
against the impacts, frankly, that have occurred in places like 
Louisiana and other places where you have oil and gas 
development offshore.
    Senator Landrieu. Thank you.
    The Chairman. Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    My dear friend, I'm so pleased to be here for you to, first 
of all, say congratulations and how proud of you I am for your 
appointment, and to tell you that we will sorely miss you here 
in the Senate. I was so proud to come to the Senate with you, 
become your friend, and I just wish you nothing but the best. I 
know how exciting this moment is for you. I loved and 
appreciated your statement; I thought it was terrific.
    Having had the experience of sitting where you sit today 
and then what is about to unfold in your life over the next 
several months, I know how tremendously exciting it is, the 
birth of a new Administration, and the hopes and opportunities 
that you'll bring to this very important assignment. So, I wish 
you my--the very, very best. I really will miss you here in the 
Senate, but I am delighted for you to move into an area that I 
know you have a great deal of passion for.
    I want to tell you, first of all, that you may be the first 
Secretary of Interior to have visited El Yunque, which is the 
rain forest in Puerto Rico that you and I had occasion to 
visit, so I hope you'll remember that little spot, where--it 
would be so easy to be forgotten, but that was a beautiful 
place that we both jointly visited. It actually is somewhat 
threatened by urban sprawl, as you recall. So, anyway, keep an 
eye on that for us.
    I also can't help but also want to encourage you to come to 
Florida to learn about our beautiful Everglades, the Everglades 
National Park and our National Wildlife Refuge down there. We 
really have a tremendous national treasure that, for you 
westerners, it's probably a little difficult to grasp the 
beauty and the importance of it, but I really want to help 
educate you with that. I think it would be a terrific 
opportunity for you to get to know a different and very diverse 
part of the State, but one that has tremendous importance to 
our environment and to our ecosystems in the State of Florida.
    Senator Salazar. I'll come if I get to wrestle an alligator 
as----
    Senator Martinez. We'll arrange that.
    [Laughter.]
    Senator Salazar. You can do that, right?
    Senator Martinez. You----
    Senator Salazar. We'll be there.
    Senator Martinez. You now have asked, so we will fulfill 
that request for sure.
    [Laughter.]
    Senator Martinez. The city of St. Augustine--and this is 
another one that I think you will have some interest in--the 
city of St. Augustine and Pensacola. St. Augustine, of course, 
is the oldest city in our country, much older than Jamestown 
and Williamsburg. It is, in fact, the birth of our modern 
culture and civilization in this continent. So, in the next few 
weeks and months we'll be celebrating the 450th anniversary of 
the Spanish coming to Florida, and--of course, in St. Augustine 
and Pensacola. I know of your own heritage, how proud you hold 
it, and I just hope that maybe we'll get an opportunity for you 
to participate in some of that as time goes on. It's going to 
be a terrific thing to be a part of.
    On more controversial policy issues, I love my dear Ranking 
Member, and we generally agree on the offshore issue, but there 
are some--you know, the devil is in the details. As it comes to 
the State of Florida, we really do have some concerns about 
offshore drilling. We want to make sure that States remain and 
are allowed to maintain an option of when and where drilling 
should take place, particularly if it may impact their 
environment, it may impact their way of life, it may impact 
their economies. So, I look forward to chatting with you more 
on that.
    In addition to the environmental issues and the economic 
issues, we have a very important military issue. As the 5-year 
plans are drawn, the military mission line, which was preserved 
to allow Eglin Air Force Base and NAS Pensacola to maintain 
their training mission over the Gulf of Mexico--these are 
terribly important issues for us in the State of Florida.
    I have no questions. I just want to tell you how much we're 
going to miss you and how proud I am of you, and delighted that 
we've had an opportunity to become friends here in the Senate. 
I look forward to continuing our relationship in your new 
assignment.
    Senator Salazar. If I may, Chairman Bingaman, just a 
personal point of privilege with Senator Martinez.
    I, too, recognize the historicity of our election in 2004 
and have very much appreciated the friendship that we have 
shared. I look forward to continuing our work together on a 
number of things in Florida. As I said earlier on the OSC, in 
some ways--and I know that's an issue that many of you are 
concerned about in this committee--we have a great opportunity 
in front of us, because, essentially, nothing has been written. 
If you look at the 5-year map that we have on OCS, you know, 
the frontier zones that have been described there really are a 
few places in Alaska and some off-coast in Virginia, but we 
need to take a look at the map, and we'll do that in 
consultation with all of you and with the local stakeholders 
and with the State, to see whether we can come up with 
something that makes common sense. I know the particular 
concerns of Florida and the military concerns with respect to 
Gulf Coast development off the west coast of Florida. So, I 
look forward to working with you on those revisions.
    Senator Martinez. Thank you. I appreciate your sensitivity 
to these issues. I think that the issue really is to work 
together on how we do it, because I think drilling in the Gulf 
of Mexico--and I know the Senator from Louisiana and I have 
worked together on compromises and reaching accommodations that 
can allow for drilling to take place in the Gulf, but it does 
it in a way that is compatible with what we need to preserve.
    Thank you very much.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Since this is on its way to being a full-fledged bouquet-
tossing contest----
    [Laughter.]
    Senator Wyden [continuing]. I just want to say how much I'm 
looking forward to such a good and decent man heading the 
Department of Interior as Ken Salazar.
    You have some very heavy lifting ahead. In the political 
suites at the Interior Department, they have regularly been 
trampling on good science. That's where Jack Abramoff went, 
that's where Steven Griles went, that's where Julie MacDonald 
worked. You now have to go in there and drain the swamp, and 
America has heard you say, this morning, to your credit, that 
that is priority No. 1.
    Now, let me start with Julie MacDonald. She was overseeing 
the Fish and Wildlife operation. It was clear she had a 
political agenda. She resigned, after I pushed for it, and we 
sought a review of the decisions she made that we knew were 
politically tainted. Regrettably, Secretary Kempthorne sought a 
review of only a modest number of those MacDonald decisions. I 
sought to almost double the number, and the inspector general 
found that almost double the number of decisions that Secretary 
Kempthorne sought to review were politically tainted.
    So, my first question to my friend is, since these 
decisions are being revised, but they're being used for a host 
of projects and land-management decisions now, how do you 
envision going in there and correcting those tainted decisions 
that have so much influence on public-lands policy?
    Senator Salazar. Thank you, Senator Wyden, and thank you 
for your kind words and your friendship over the years, and 
your guidance on so many different things over time.
    My response is twofold. First, we will review what 
decisions have been made and see whether there is action that 
is necessary in order to be able to correct the decisions to 
make sure that they're in compliance with the law and to make 
sure that they're in compliance with the science. There's no 
substitute for good science to guide the kinds of issues that 
you talk about with the Fish and Wildlife Service. So, we will 
make sure that that's what guides us as we move forward with 
decisionmaking. I will assure you that the people that we will 
bring in to oversee those efforts will be people who will make 
the calls based on the balls and strikes of science, not on the 
balls and strikes of politics.
    Senator Wyden. I'm encouraged, colleague, by some of the 
people you're talking about bringing in. If you could have them 
get back to me, and Senator Barrasso in particular--we chair 
that subcommittee--and, obviously, our chair and ranking 
minority member--with a timetable for correcting those 
MacDonald decisions--they have such an impact on lands policy, 
because, in effect, right now decisions are being made on the 
basis of those politically tainted judgments. So, I appreciate 
your answer there.
    Let me turn to one other important ethics area, and that's 
Minerals Management Service. The headlines recently, there--
I'll just quote--were ``Sex, Drug Use, and Graft,'' in effect, 
being what seemed to have occupied a substantial amount of time 
there at the Minerals Management Service. The Chairman has 
introduced, I think, a very thoughtful, long-term approach for 
dealing with it. Senator Barrasso and I have introduced a 
bipartisan reform effort to, again, get an ethical compass back 
at Minerals Management. What Senator Barrasso and I have called 
for in our legislation, for example, is to implement all of the 
Interior--excuse me--the Interior inspector general's 
recommendations for Minerals Management. We also seek to make 
the director there subject to Senate confirmation.
    Now, I'm sure you haven't had a chance to review the all-
important Barrasso-Wyden legislation, but your general thoughts 
on fixing Minerals Management, including implementing the 
inspector general's recommendations, and, in a general way, 
your thoughts about our legislation or other approaches.
    Senator Salazar. Thank you, Senator Wyden. I think you and 
Senator Barrasso have put your finger on an issue that 
obviously needs review. As the inspector general found, he had 
a number of recommendations. We will take a look at those 
recommendations. We'll take a look at your legislation, as well 
as the legislation of--that Senator Bingaman has introduced, 
and hopefully, in the months ahead, be able to move forward 
some kind of a royalty reform package that also will address 
MMS. You know, I'm aware of the fact that MMS does not have an 
organic statutory act for its basis, and so, I think it is 
prime time for us, as we look at all these minerals-management 
issues and trying to clean up the messes that MMS has been 
involved in, to move forward with a comprehensive approach. We 
will be working on that, beginning day one.
    Senator Wyden. Mr. Chairman, we have many colleagues here. 
I think, with your leave, if I could submit some additional 
questions in writing.
    The Chairman. We'll be glad to include those questions in 
writing.
    Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Ken, congratulations. Welcome. I think every member 
probably hopes that the Chairman will move your confirmation as 
expeditiously as we can, and I see no reason that that can't 
happen.
    I think Mel probably just left to go buy you flowers----
    [Laughter.]
    Senator Burr [continuing]. Given the exchange that I heard. 
But, I think most of us hold you in very high regard.
    The first observation I would make, Mr. Chairman, is, 
you're the nominee today; you can still back out and----
    [Laughter.]
    Senator Burr [continuing]. Stay in the Senate, and 
possibly--after all the questions that you hear and the 
magnitude of the challenges that Congress will pressure you to 
look at. At the end of the day, I realize that you'll be part 
of an Administration who has a President that will set the 
agenda; and a number of us have had conversations with him, and 
we feel very comfortable as to where he's headed. At the end of 
the day, it's your responsibility to carry out those wishes--
his wishes--and to hopefully work in coordination with the 
Congress. I have no doubts today that you will do that.
    As part of this process, though, it's important that we do 
ask some questions, and I want to ask you two very specific 
questions.
    In the EPAct of 2005, it established a national program to 
develop oil shale and oil sands, including a programmatic 
environmental impact assessment and other activities necessary 
for full-scale leasing of Federal lands. In December 2005, DOI 
issued five research-and-development demonstration leases on 
public lands--all of them in your State, if I remember, managed 
by BLM.
    Senator Salazar. Yes, I wish those oil shales were in your 
State, in the Carolinas.
    Senator Burr. I wish we had the oil shale.
    [Laughter.]
    Senator Burr. It's my understanding that the final 
commercial oil-shale leasing regulations for Federal lands 
will, in fact, take effect January 17. Under what circumstances 
are you willing to support commercial competitive leasing on 
public lands?
    Senator Salazar. Senator Burr, first of all, I appreciate 
the kind comments, and appreciate the work we've done on 
veterans affairs and other issues over the years, and look 
forward to continuing to work with you on many issues. On this 
specific issue with respect to oil shale, you know, my view has 
been that we need to look at it as part of a comprehensive 
energy plan, but we ought not to be reckless and thoughtless 
about how we move forward. The reality of it is, in my State of 
Colorado, where 80 percent of the oil shale reserves are 
located, the current director of Lands and Minerals, the 
assistant secretary, has said that he doesn't believe that 
there's going to be any commercial development until the year 
2016. The companies themselves have said the same thing. So, my 
question has become, Why do we need to move headlong with 
commercial oil shale leasing at this point, when I supported, 
as did this committee, in 2005 in the Energy Policy Act, the 
legislation that created the research-and-development program 
that will tell us whether or not we can, in fact, develop 
commercial oil shale? I mean, it is rock, rock, rock, and we 
don't have the answers to some very important questions, 
including how much water is it going to take, which is an 
important question for the West, places--Colorado, Utah, 
Wyoming; two, How much energy is going to be consumed to melt 
the oil from the rock? None of those answers have been given to 
us yet. That's why I think the research-and-development phase 
that has been underway is very important.
    Like with all other rules that have been issued in the last 
days by the Administration, we'll take a look at them and see 
what's workable and see what makes common sense as we move 
forward.
    Senator Burr. I appreciate the answer, and I know you 
understand that technology will only move so far if, in fact, 
they're not certain about what the future looks like. I think 
it's important to do exactly what you said, and that's to 
evaluate these preliminary steps, but let's make sure that 
they're evaluated fairly and not affected in any way by 
artificially suggesting there's not going to be a fair, open, 
competitive process for these lands in the future if the 
technology and the research proves itself.
    Last question. In April--last April--the Department 
proposed a rule to allow carry of firearms in national parks 
where it would be authorized by State law. Final rule was 
published in December and took effect last week. The change was 
proposed after 51 Senators signed letters to Secretary 
Kempthorne requesting that the Department revisit the issue in 
light of changes in State law over the last 25 years.
    Also last year, you joined a majority of the members of 
this committee in voting for the legislation to make such a 
change. Now two lawsuits have been filed to overturn the new 
rule.
    Do you commit, when sworn in, that you'll aggressively 
defend the rule against those lawsuits?
    Senator Salazar. Senator Burr, it's a very good question 
that you asked, and a very important one that I know many 
people are watching for in this hearing. Let me say, first, 
that the President-elect has a good respect for the Second 
Amendment and the articulation in the recent Supreme Court 
decision.
    Second, I grew up with a gun often next to me, either 
watching sheep out in the prairie or next to my bed at home for 
self-protection. So, I have my own sense of the importance of 
guns and gun ownership and what all that means.
    This particular rule that has issued is not one that I have 
yet reviewed. It is subject to litigation. We'll take a look at 
it, once we get to the Department, and see what makes the most 
sense in the context of national parks and also in the context 
of the second amendment.
    Senator Burr. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Sanders.
    Senator Sanders. Thank you very much, Mr. Chairman.
    The Chairman. I'm sorry. I guess Senator Menendez was 
prior; I didn't see him come back in.
    Senator Menendez. OK.
    The Chairman. OK. Go right ahead.
    Senator Sanders. Senator Salazar, welcome. You have an 
awesome responsibility on your shoulders, but I am confident 
that you're going to do a great job in taking on those 
challenges.
    I was very pleased to hear, in your remarks, your 
understanding about the crisis of global warming, your 
understanding about the absurdity of us spending many, many 
hundreds of billions of dollars every year importing foreign 
oil into this country, and the need to move toward energy 
efficiency and sustainable energy. I know that you believe that 
very much, and you're now in a position to make some of that 
happen.
    One of the concerns that I have is, the distance between 
Washington and the rest of the world and the rest of our 
country is just very, very far. We talk and talk and talk, and 
people don't see anything happen. I would hope very much, with 
your leadership, with President Obama's leadership, that we 
could bring some concrete--real, concrete changes so people 
understand what sustainable energy means, what energy 
conservation means. I suspect that, within the next few months, 
more money is going to come into those areas than probably in 
the whole history of our country. That's a great step forward, 
if we use that money wisely.
    One issue that I want to just briefly get your response to 
is, I believe that one of the technologies, of many that are 
out there, to move quickly to bring us clean, sustainable 
energy, is solar thermal power plants. This is a technology 
that, according to some experts, can take advantage of the fact 
that the Southwest has been called the ``Saudi Arabia of solar 
energy.'' It is sitting there waiting to happen. We have talked 
about it, and we have talked about it, and it still is not 
happening, and the crisis, in terms of credit right now, has 
made it that much more difficult.
    (A) What are your feelings about the potential of solar 
thermal power plants in the Southwest? What role can the 
Federal Government play, given the credit crisis right now, in 
pushing this technology forward, in your judgment?
    Senator Salazar. Senator Sanders, thank you, as well, for 
your friendship and your camaraderie and guidance and sharing 
advice over the years.
    Let me say, you know, I think solar has great potential. 
It's not just solar photovoltaic, but also the concentrated 
solar power that you speak about. The technologies there, as 
the National Renewable Energy Lab will tell you, is a 
technology that is moving quickly forward. But, we know that we 
are not in a place where we are simply striking out at 
something that is not proven. In my State alone, as we spoke 
yesterday, I spoke about the 10-megawatt power plant, in the 
San Luis Valley, which will grow to 100 megawatts. We both 
spoke about the 300-megawatt power plant in the deserts of 
Arizona, that Arizona Public Service Company is constructing, 
and others. So, I think there is huge potential. I think that 
solar has got to be one of the crown jewels, if you will, as we 
move forward, to creating this house of energy independence.
    I will be working on that agenda. It's an agenda that 
President-elect Obama and I very much share. Part of the 
challenge that we will face is how do we create all of this 
energy in places that are sun-drenched, like New Mexico, 
Arizona, the San Luis Valley, other places, and get it to the 
places where it has to be used? Part of that is going to be 
dealing with my Department on the issues of siting, as well as 
dealing with the issues of transmission. It doesn't do any good 
to produce the energy if you can't get it to the place where 
it's going to be used. So, I look forward to working with this 
committee, to making it a reality, and to make sure--I would 
not be taking this job, Senator Sanders, if this was about talk 
and no action. You know, I think, on this whole agenda, the 
time for talking has ended; it is time to get down to the 
business of getting it done.
    Senator Sanders. Thank you very much. I would hope that, 
within the first 4 years of the Obama Administration, we can, 
in fact, construct a number of solar thermal plants and show 
the world that we are serious about this technology.
    The other question that I would ask is, Will you use your 
office, and the many facilities under your jurisdiction, to 
demonstrate to people how we can move forward, in terms of 
energy efficiency and sustainable energy? There is a very 
strong to be made that if the Government--the U.S. Government 
itself, which is a huge consumer of energy, which certainly 
millions of people every day interface with--that if we are 
using solar, if we are using wind, if we are using energy-
efficient vehicles, we can have an impact upon our whole 
economy and educating the public, as well. Is that something--a 
mission that you see possible for that--for the agency of the 
Interior?
    Senator Salazar. Absolutely. It is the President-elect's 
mission, and we will be part of that mission as we take this 
energy moon shot. We know that conservation and what we do with 
Federal facilities, we can serve as examples to the rest of the 
world. So, the answer is yes.
    Senator Sanders. Ken, we wish you the best of luck, and 
I'll certainly be working with you.
    Thank you, Senator.
    The Chairman. Next would be Senator Barrasso, then Senator 
Menendez.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Senator Salazar, congratulations. It's been a privilege to 
work with you in the Senate, to serve with you on this 
committee, to cosponsor a number of bills together. We are 
neighbors in Colorado and Wyoming, and we have many similar 
issues. I know you're going to do a terrific job as the 
Secretary of Interior. I'm looking forward to working with you 
over the next 4 years.
    With that, I do have a couple of questions, Senator.
    Senator Salazar. Thank you, Senator Barrasso.
    Senator Barrasso. We'll start with the easy one, because 
you were going to wrestle alligators with Senator Martinez, 
but, I'll tell you about--also invite you to Wyoming to deal 
with the wolves of Wyoming.
    There was a ruling that came out yesterday that said that 
wolves were removed from the Endangered Species Act, the 
listing on the Endangered Species Act, and were moved--removed 
from the list in Montana and in Idaho, but not in Wyoming, due 
to a recovery plan that--the Department and judges were not 
happy with--fully happy with the Wyoming plan.
    It would seem to me that the wolf is either endangered or 
not, and depending on which side of a State line the wolf 
happened to be shouldn't impact on if that wolf should be 
listed or not, because these things move around.
    So, my question is, Do you believe that, when a distinct 
population segment of an endangered species has been found to 
recover--to be recovered, by the Department--and the Department 
has found that the wolf has been recovered as a species--that 
the entire population should be delisted--and will you work 
with the Government to make sure that gray wolves are delisted 
in Wyoming as soon as possible?
    Senator Salazar. Senator Barrasso, I appreciate the 
question, and let me take the opportunity to say that the 
Endangered Species Act is an important law, and I think it has, 
in fact, worked in a way to preserve God's given creations so 
that your children and my children and our grandchildren will 
be able to see that creation here on this earth. You know, we 
have some major challenges, but we have had some frustrations, 
but also some major successes with respect to its 
implementation. I was one of the originators and creators of a 
recovery program for the whooping crane on the South Platte 
River which involved your State, Colorado, and Nebraska. I've 
been involved in the seven-State Upper Colorado Recovery 
Program, which is working well. I don't know about--enough 
about the rule and the decision that was issued by the 
Department of Interior yesterday with respect to the gray wolf. 
We will take a look at, we will study it and make appropriate 
decisions.
    Senator Barrasso. I would ask that your Department work 
closely with the State of Wyoming to have the same wolf 
delisted, that is delisted from Idaho now and Montana, also 
delisted from Wyoming. The same species are just crossing the 
border, and, in terms of where they are on an imaginary line, 
it seems to me that we can do a better job than that. So, thank 
you, I appreciate your help.
    Senator Salazar. Let me, if I may--and I probably should 
not be argumentative with Senators whose votes you want; and I 
think you already told me you're voting for me, so I can be 
argumentative with you.
    [Laughter.]
    Senator Barrasso. I said you had my vote and my support, 
but, more importantly, you had my friendship.
    Senator Salazar. Here's the deal on these recovery 
programs. You know, they are multi-State in nature because the 
species don't know the political boundaries like you and I know 
the political boundaries. OK? So, that will be one of the 
issues, Senator Barrasso, that we're going to have to take a 
look at on this decision.
    At the end of the day, these ESA decisions that are being 
made have to be based on the science. We'll take a look at it. 
I don't--you know, haven't been involved in the decisionmaking, 
and haven't seen what Fish and Wildlife Service did with 
respect to looking at the gray wolf and the numbers, but 
there's an opportunity to take a look at it under the law, and 
we will take a look at it.
    Senator Barrasso. Thank you.
    Following up with the Endangered Species Act and the role, 
and asking about the Obama Administration, if they believe that 
Congress--when the Endangered Species Act was created in 1973, 
if they envisioned the Act becoming--if you think that the--
believe Congress thought that that Endangered Species Act had 
anything to do with climate change. You know, we look at some 
of the things that are coming down the line with the listing of 
the polar bear, and what impact that might have on the Lower 48 
States, in terms of construction and agriculture development 
and other projects. I would ask about the role of the 
Endangered Species Act in global warming.
    Senator Salazar. You know, there is no doubt that climate 
change and global warming is having an impact on a whole host 
of important natural features of this world, including the 
species that we have. It's something that we will take a look 
at as we look at climate change within the Department of 
Interior and within the Obama Administration.
    Now, the role that the ESA will play into all that, that's 
something that we will take a look at as we move forward, but I 
don't have a specific answer to your question on that today.
    Senator Barrasso. OK.
    Mr. Chairman, I think my time is expired. If there's a 
second round of questions, I'd like to ask a few more 
questions.
    Thank you.
    The Chairman. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    This is a bittersweet hearing for me. My hermano, as we 
call each other, ``my brother,'' is going to go serve the 
Nation, he's going to leave the Senate, where he has served 
with such distinction. For those of us who are Americans of 
Hispanic descent, it reduces our ranks by one, but I know we're 
going to have a strong advocate in the Administration.
    Now, I may not be a westerner, Senator Salazar, but that 
doesn't make our part of the Nation immune to the impact of the 
Interior Department. So, I have some provincial questions that 
I want to ask you.
    But, before that, I want to ask you an overarching 
question. I've heard you talk about energy, both as a member of 
this committee and in this new assignment. How do you see your 
role in this galaxy of energy advocates--how do you see the 
role of Carol Browner versus the role that you're going to 
play? What role do you see yourself playing in this respect?
    Senator Salazar. Thank you, Senator Menendez. I, too, will 
miss you greatly, because we've done so many things over the 
years. We'll, frankly, have an opportunity to work on so many 
issues in the future. You are an hermano, a brother, and I will 
never forget that. I will also say, formally in front of this 
committee for the transcript of this hearing, that Bob Menendez 
speaks both English and Spanish a lot better than I do.
    [Laughter.]
    Senator Salazar. So, you're not losing anything, in terms 
of linguistic proficiency with my departure.
    Senator Menendez. I hope you're not filibustering on my 
questions, my provincial questions.
    [Laughter.]
    Senator Salazar. Having said that, on your--let me just--
one observation, and then a response to your question.
    I would hope that one of the things that you can do, 
Senator Menendez and the rest of this committee, is not to look 
at this Department as a Department of the West, because it is 
not. It is as much a Department of the Statue of Liberty and 
Ellis Island as it is the Department that oversees the BLM 
lands of New Mexico. I think, for far too long, this Department 
has been seen as something off to the West. I want us to change 
that image and that brand for the Department of Interior, and I 
think this committee and--on the Democratic side and the 
Republican side, is a primary engine of helping us change that 
reality of what the Department of Interior is, whether it's 
with respect to historic preservation or the OCS or a whole 
host of other issues. So, I would hope that you can help me do 
that.
    Second, with respect to your specific question on my role, 
you know, my conversation and my agreement with the President-
elect is, I report to him. The President-elect asked me to 
leave this U.S. Senate post to help him change the world. I 
believe he can change the world, and I believe he is a 
transformational figure that can help get that done. But, I 
work for him. That means that I will play a keystone role in 
helping to craft the energy agenda. I would not have taken this 
job if I was not given the assignment to help craft the energy 
moon shot that we will take, in part through the economic 
stimulus package that will be crafted and then through energy 
legislation that will hopefully be before this Congress before 
too long. So, that's the kind of robust role that I intend to 
play, it's the kind of robust role that was offered to me in 
this position.
    Senator Menendez. I appreciate and look forward to that.
    Now, let me get to some specific issues that I--I want to 
have you--will you make a commitment to come with me, after 
you're settled in, to the New Jersey/New York region? We have 
two issues.
    The crown on the Statue of Liberty, since September 11th, 
has been held to a bureaucratic shackle. To your credit, you 
offered an amendment, that the President-elect voted for, to 
free up the Statue of Liberty, including the crown. So, I hope 
you will come, after you're the Interior Secretary, with me to 
the Statue of Liberty, help me break the shackles on the crown, 
as well as to Ellis Island, which is next door, where we have a 
public-private partnership going on to restore the whole 
section of the island that, in fact, is in New Jersey 
territorial waters, as a result of a Supreme Court decision, 
that was our whole public-health system, where immigrants who 
came through at that time went through there. But--we've gotten 
some money to sustain it, because it was totally ready to fall 
apart, but we have a public-private partnership. It has 
languished with the National Park Service. You know, we could 
get a very significant commitment from the private sector to go 
in.
    So, I hope you will come with me, after you're settled in, 
let us free the crown. I'm sure there is an intelligent way to 
do that, for some type of limited access to it. Let us make 
sure that the public-private partnership works, so that we can 
restore the whole access to Ellis Island on the side.
    Then, finally, I hope--as you know, I'm in the minority on 
this committee on this issue, but it is critical to my State, 
in terms of the issue of offshore drilling. New Jersey's second 
part of its economy is driven by tourism, and that tourism 
would not take place, except for the New Jersey shore. Several 
years ago, we had medical waste lined on our beaches, and that 
created a huge problem for our economy for several years. So, I 
hope that you will work with us and give coastal States like 
mine a seat at the table as we move forward on the question of 
what is appropriate in offshore drilling and what is not.
    The Chairman. Senator Cantwell.
    Senator Salazar. I'd be happy to respond----
    Senator Menendez. Mr. Chairman, could I just----
    The Chairman. Oh, yes. Senator Salazar, did you wish to 
respond?
    Senator Menendez. Thank you.
    The Chairman. Go right ahead.
    Senator Salazar. I noticed that his time was up, that's why 
I looked to you for permission.
    The Chairman. See, I thought you were looking for me to 
move on to the next question.
    [Laughter.]
    Senator Salazar. Let me just----
    The Chairman. No----
    Senator Salazar [continuing]. Respond, if I may----
    The Chairman [continuing]. Disrespect.
    [Laughter.]
    The Chairman. I'm well aware of that.
    Senator Salazar. Let me, first, say that, with respect to 
Ellis Island and the Statue of Liberty, first, I do commit to 
coming to--with you to New Jersey and New York and visiting 
those sites and understanding more about why those restrictions 
were put into place. I don't know enough about why those 
restrictions were put into place, but we will, frankly, examine 
those together and make the appropriate decisions on how we 
move forward. I understand the historicity and great importance 
of Ellis Island, and we'll make sure that that's a priority, in 
terms of how we move forward in my Department.
    Let me--on your last point, which I think is the one that I 
have seen you get passionate about at least a dozen or so times 
before the U.S. Senate the last several years, and that's on 
the OCS and making sure that the stakeholders are at the table. 
The answer to that is yes. You know, we need to make sure that, 
as we move forward with a comprehensive energy plan that might 
include drilling in some areas on the OCS, that those 
communities and those States that are going to be most affected 
certainly have a voice and are at the table.
    The Chairman. Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    I, too, want to add my congratulations to Ken Salazar. We 
are going to miss you. It's been a pleasure to be a seatmate 
with you on the Finance Committee and to hear your voice on 
energy issues. I want to say that for the Interior Department 
to have somebody who has expertise in water rights and 
management issues is of utmost importance. Your passion on the 
Land and Water Conservation Fund will be put to good use in the 
Department of Interior, and certainly your passion about energy 
issues, particularly siting of transmission, really will help 
us in this effort. So, I look forward to working with you on 
all those issues.
    If I could--I don't know that anybody's asked you about 
mining reform, the 1872 mining law, but clearly the reform of 
that legislation is long overdue. To me, it's critical to 
protecting our environment and our economy. So, I wanted to ask 
you, if I could, if you're aware that the Environmental 
Protection Agency is estimating that the abandoned mine cleanup 
price tag is at least $32 billion, and the estimates are that 
40 percent of western headwaters are contaminated by runoff 
from abandoned mines. I don't know if those are numbers that 
you're familiar with.
    But, my question is, What will you do to support strong 
mining reform, including strong reform of the royalty regime?
    Senator Salazar. Thank you very much, Senator Cantwell. I, 
too, will miss you, and will miss your work and your leadership 
on so many of the energy issues that are so important to the 
country. But, I do believe that, with you and the members of 
this committee, we're going to, this time, not miss the moon 
shot on energy independence that we fought so hard together 
for. So, this is our time, and we're going to get it done.
    Let me say that, with respect to the--with mining--with 
respect to mining reform, you know, the 1872 mining law, which 
I've worked on a for a long time and know it well, is something 
that needs to be changed. It's amazing that, over 130 years 
later, the law has not been changed. The reality of the United 
States of America has changed significantly in that century-
plus, and yet, the law remains the same. So, I look forward to 
working with this committee. I know there are several proposals 
out there on changes. I think they're already--there are parts 
of reform that can be agreed on relatively easily, there are 
others that are--that may be more difficult. But, we will work 
on it to try to finally get across the finish line a reform to 
the 1872 mining law that does make sense.
    Second, with respect to abandoned mines, I know the reality 
of them, because we have tens of thousands--I think it's about 
100,000 in the State of Colorado--that are abandoned mines, and 
they create the kind of circumstance that you describe. You 
know, as orphaned mines, with nobody having ownership over 
them, they essentially are a scar on the public domain that has 
huge environmental consequences on our streams, especially in 
some headwaters areas. There's been a reality that there hasn't 
been the money to move forward with abandoned mine reclamation. 
We need to look at that and try to come up with some solutions.
    You know, I've been the sponsor of Good Samaritan 
legislation here for the last several years. We haven't gotten 
that across the finish line. But, there may be ways in which we 
can get nonprofits and--as well as the private sector, to come 
to help us deal with that issue, which really is an issue that 
affects, not only the West, but a large part of America.
    Senator Cantwell. Since you said you knew the 1872 mining 
law very well, I want to follow up, if I could, on a few 
questions.
    One of the issues is obviously that mining, under the 
current law, always is interpreted as the highest use on that 
land, and thereby permitted. So, would you require those new 
mining operations to be balanced with other things, like water-
quality standards and other uses, so that mining wouldn't 
always be the highest and best use?
    Senator Salazar. Let me say that that, as we look at reform 
for the 1872 mining law--it's a law that was written before 
there was any sense of consciousness in the world, or here in 
America, with respect to issues like reclamation and impacts on 
water quality from mining operations, and those sorts of 
things. So, the kind of reform that does need to take place 
needs to bring a law, which is a very old law, up to the kind 
of modern understanding that we have about the impacts of 
mining.
    Now, I'm not against mining; don't--you know, I don't want 
to get somebody thinking that I'm against mining, because I 
understand the importance of our mineral assets and putting 
them to good use. But, I think----
    Senator Cantwell. But, things like strict water-quality so 
that pollution of drinking water isn't happening, those kinds 
of standards, you're willing to put stronger standards in 
place?
    Senator Salazar. We do need stronger standards than what 
are set forth in the 1872 mining law, and that will be part of 
the discussion and dialog that we'll engage in as we try to 
work with you and others to put together a reform that is 
sensible, that is--that makes common sense, and that ultimately 
can garner the votes of the members of the House of 
Representatives and the United States Senate.
    Senator Cantwell. Thank you. If I could, I'd like to put a 
point in about the national parks and the funding. Again, 
you're a champion of the Land and Water Conservation Fund--but, 
we have had park layoffs, we have maintenance backlogs. These 
are some of the crown jewels of our public-lands system, and we 
need to do more to maintain them. So, I'll look forward to 
working with you on that.
    Senator Salazar. Thank you very much.
    The Chairman. Senator Dorgan.
    Senator Dorgan. Senator Bingaman, thank you.
    Senator Salazar, we're all very proud of you and wish you 
well. We'll miss you here in the Senate, but I know you're 
going to do a great job as the Interior Secretary.
    I would like, to mention a couple of items, and then you 
could respond to them. You and I have had a chance to visit and 
talk about these items.
    First, the Bureau of Indian Affairs. I think it is a 
horrible mess. It is a serious problem in many, many ways. The 
most significant unemployment and poverty in this country, the 
most significant challenges with law enforcement, housing, 
education and so on exist on Indian reservations, and I believe 
three out of the last 4 years we haven't had an Assistant 
Secretary for Indian Affairs.
    It's just been an unbelievable mess in a lot of ways. It's 
bureaucratic. There are buildings that have been built on 
reservations that are completed, sitting empty, completely 
empty because somebody in the BIA hasn't yet signed a lease in 
the building. Somebody's got a job and doesn't do it. So fix 
the BIA. You'll do that, right? Anyway, I'll give you a chance.
    It is just an unbelievable mess, and it is so frustrating 
from my position as chair of the Indian Affairs Committee. We 
have worked together a lot on these projects, and I'm anxious 
to continue to work with you.
    Interns of water projects, North Dakota was the recipient 
of an agreement with the Federal Government some 50 or 60 years 
ago now. If we would take a flood the size of the State of 
Rhode Island and keep it forever. If they could build a flood 
in North Dakota in the middle of our State and keep it forever, 
they'd give us some benefits. So now they can play softball in 
the early spring evenings in Missouri because we've tamed the 
Missouri River by creating a permanent flood in North Dakota. 
But 50 years later, North Dakota still hasn't received all the 
benefits that were promised us.
    We have the costs, and the flood, but we don't have the 
benefits. You and I have talked about the water projects that 
are supposed to flow from that, and I hope very much for your 
support on those projects, especially now the Red River Valley 
Water Project which is so very important.
    The Interns of National Park Service, you've had an 
experience in Colorado. We have, for example, an elk herd 
that's far, far too large for the Theodore Roosevelt National 
Park and the Badlands, so they need to thin it. The first 
notion was maybe they'll hire some Federal sharpshooters and 
have some helicopters helicopter out the meat. Well, that's 
just dumb.
    The way to do it, of course, is to allow qualified hunters 
to come in and thin the herd and take the meat home. They do 
that in other parks. I think one is in Colorado. We need to 
exert some common sense on those issues and that's just one 
example.
    On an Indian reservation in North Dakota, we're trying to 
get the Interior Department to establish a one-stop shop where 
we bring together four agencies into one location so that they 
can drill for oil on the reservation. They're drilling north of 
the reservation, west of the reservation, and south of the 
reservation. Yet, there's a 4-step process, as you might 
expect, in the bureaucracy to get a permit to drill for oil on 
the reservation. So everybody around it is experiencing the 
benefits of drilling but that area where it would be most 
important, it seems to me, to address poverty issues and so on, 
there are just a few wells being drilled.
    So those are things we've talked about and I hope--I know 
that you've spent some time thinking about some of these 
issues. I really want to work with you. I'm especially pleased 
that someone from the Senate's going to be there and that you 
will be able to take our telephone calls and go to New Jersey, 
as Senator Menendez has suggested, and I hope you come to North 
Dakota, as well.
    Would you wish to respond to a couple of those items, 
Senator Salazar?
    Senator Salazar. I'd be delighted to do that, and first let 
me say, Senator Dorgan, I admire your advocacy not only on the 
New Energy Frontier but also your advocacy on issues relating 
to Native Americans, and as I indicated to you in one of our 
private conversations, I will never forget being the chair, the 
presiding officer in the U.S. Senate when you were making the 
arguments on the reauthorization of the Indian Health Care Act. 
I was proud to join you, in part because I strongly believe 
that you are right and the passion you feel is the same passion 
that I feel about making sure that the most vulnerable of our 
communities in our Nation are in fact brought to the table and 
given the kind of opportunity that the rest of Americans seem 
to have.
    I think the fact that we have not had an Assistant 
Secretary of Indian Affairs in the Department of Interior for 4 
years is, frankly, a slap in the face to the Native American 
communities and to the responsibilities under the law of the 
Department of Interior.
    I have someone on the hook that I think will make you very 
proud, if he agrees to do this job, and I think will be able to 
address many of the problems that really have gone, frankly, 
without attention, including the issues of health care and 
education and law enforcement and the rest of the issues which 
you have so passionately spoken about. So it will be on my 
personal radar screen and it will be high on the radar screen.
    With respect to the water projects, we've spoken about the 
water projects. I will take a look at them. I need to find out 
more about them and exactly what the status of them is, but I 
promise you that it is something that we will take a look at.
    On the management of the elk herds, yes, the truth of the 
matter is that we need to manage our wildlife in a way that 
makes sense, and I know this is a very complex and difficult 
issue, but at the end of the day, we need to find some common 
sense solutions, and I look forward to working with the Park 
Service on that, as well.
    Finally, on the one-stop shopping issue relating to 
drilling on the reservation, it seems to me to make sense. You 
know, if all the way around the reservation you basically have 
a process that has been expedited, you know, in my State, I 
mean what's going on in my State now in terms of drilling in 
part has happened because of what we did here with the 2005 
Energy Policy Act which expedited some of these things, but I 
don't think that the Indian reservations should be 
disadvantaged by a system which has them go through 43 
different steps. So we will work on that and try to streamline 
it.
    Senator Dorgan. Senator Salazar, you inherit a very big 
bureaucracy and a very important agency, and I don't mean to 
tarnish or diminish that agency at all, but I was thinking, as 
we were talking, one of my first experiences with your agency 
was when the prairie dogs took over a very small picnic area in 
the Theodore Roosevelt National Park and the Park Service 
decided that they were going to do a study on how to move the 
picnic area, which had just a few benches. They came up with an 
idea of spending a quarter of a million dollars to move the 
picnic area and I said, ``Well, you know, a couple 16-year-old 
boys that I know can move the prairie dogs and do it in a day 
or two,'' but I lost and so then later I went to them again.
    I had read a piece where a fellow from Oklahoma had 
invented something that was a vacuum where you could actually 
vacuum prairie dogs and would put them into a back of a truck 
with mattresses in the box and then sell themthem for pets in 
Japan.
    So I went back to the Forest Service. I said, ``I've got a 
better idea for you,'' but I've never been successful in 
convincing them that any of these ideas have merit.
    My only point is that whether it's thinning an elk herd or 
reclaiming a picnic area or doing anything like that, I really 
hope that we can use a bit more common sense and get somewhere 
above the bureaucracy on some of these decisions. Your service 
in the United States Senate has been marked by that notion of 
common sense. That's why I'm so pleased to support your 
nomination, and I wish you well. I think you're going to do a 
great job.
    Thank you very much.
    Senator Salazar. Thank you, Senator Dorgan.
    The Chairman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. I know there are a 
lot of Coloradoans here today and I want to make sure the 
record is clear. Senator Salazar is and will always be my 
senior Senator and it's again such a thrilling day for all of 
us to consider the possibilities.
    Senator, if you might, I know the concerns but also the 
opportunities that surround coal production and the use of coal 
are front and center for us. I'd like to hear you talk about 
how the Department of Interior can drive some of these new 
technologies of capturing and sequestering carbon emissions and 
at the same time ensuring that we have a robust coal production 
industry. If you'd talk about your vision in that area, that'd 
be terrific.
    Senator Salazar. Thank you, Senator Udall, and let me just 
say that I'm very, very proud to be able to call you Senator 
and also very proud of the fact that you're part of this 
committee because you join one of the committees that has one 
of the signature issues of our time in its hands and you will 
bring to it the kind of passion that you brought to renewable 
energy and a whole host of other things shared by the members 
of this committee. So you will do well and I look forward to 
our continuing friendship and our working relationship, as 
well.
    Let me say a word about coal. Coal is a controversial 
subject. The fact of the matter is that it powers today much of 
America and there are jobs related to what we do with coal, as 
well, and so one of the challenges that we face is how we move 
forward with the kinds of clean coal technologies that this 
committee has talked about at some length over the last several 
years.
    As the author of several pieces of legislation, including 
the Carbon Capture and Sequestration aspects of legislation 
that this committee authored, and I believe that we will move 
forward with the funding of some of those demonstration 
projects so that we can find ways of burning coal in a manner 
that doesn't contribute to our environmental challenges with 
respect to climate change, and I would hope that, as part of 
what we are able to move forward with in our energy package, 
that we very much have a part of that. I will certainly be an 
advocate of making that happen.
    Senator Udall. I took time to go downstairs and be a part 
of a hearing, confirmation hearing in the Armed Services 
Committee, so forgive me if this question's already been 
addressed, but one of the real challenges and again, I think, 
opportunities we have is in the whole area of transmission and 
building larger capacity, more efficient transmission lines.
    Would you care to share with the committee your thoughts on 
how we meet that challenge of additional transmission, as you 
talked about in your opening remarks?
    Senator Salazar. Mark, I think what we--I mean, Senator 
Udall, I think what we need to do is to be proactive on that 
agenda and to develop the kinds of transmission corridors that 
will take us from where we have the opportunities for renewable 
energy, whether that's solar or whether that's geothermal or 
whether it's wind, to the places where the energy is needed, 
and that will be one of the highest-priority items for me in 
the Department of Interior, as I work alongside the rest of my 
energy team.
    You, who have spent so much time in our valley, I know you 
have also seen the maps of the United States of America out at 
the National Renewable Energy Lab that show where our great 
opportunities are for solar energy and they're in the Southwest 
and in the southern part of Colorado, but they obviously don't 
extend to places like Vermont or Maine or other places with--
there's some capacity there but not for the big kinds of plants 
that Senator Sanders was talking about earlier in the hearing.
    So one of our challenges will be how do we take the energy 
as we capture the photons from the sun to create electricity to 
transmission lines to places where the electricity is actually 
needed, whether it's for the plug-in hybrid vehicles that we 
will see or whether it's for the powering of our homes, and 
because the Department of Interior has about 20 percent of the 
land mass of the United States under its control, we will be a 
very active agent in making sure that those transmission 
capacities are made a possibility.
    Senator Udall. You talked in your remarks about water and 
water policy. You come with a deep experience in that area.
    I think we have the Colorado Compact in decent shape, but 
I'm certain you'll continue to pay attention to those important 
relationships between the Lower Basin and Upper Basin states.
    Would you care to comment on water policy and the Colorado 
Compact?
    Senator Salazar. You know, during my campaigns, Senator 
Udall, most of the people in the Denver Metro Area would say 
that I talked too much about water. So I could spend a lot of 
time talking about this issue, but the reality of it is that, 
you know, water is the lifeblood of the West and, indeed, the 
conflicts and controversies that we've seen in the West, on the 
Colorado River, any of the other rivers where we've--I've 
actually been involved in litigation on behalf of Colorado, the 
U.S. Supreme Court on several different occasions, and those 
kinds of conflicts are now spreading across the entire Nation. 
So it is not just a Western issue. We have issues in the 
southeastern part of the Nation and other places.
    I hope to play a constructive role in helping resolve some 
of those issues and part of it, as President-elect Obama has 
said in his papers, involves how we manage very precious water 
resource, how we conserve the water resource, but also new 
management techniques that can be brought about to the place 
where we have scarcity with respect to water.
    It was one of the inventors or originators of a concept on 
interruptible supply contracts because of the fact that in our 
State, about 85 percent of the water was used in agriculture. 
Some of those concepts are now being implemented via contracts 
between the owners of water rights and municipal water-holders 
that require water supply on an ongoing basis, 365 days a year, 
and so those kinds of management concepts are the ones that I 
will bring to the Bureau of Reclamation and to our efforts with 
respect to water.
    Senator Udall. Those are 21st century water concepts and 
you'll be a 21st century Secretary of the Interior. It's great 
to see you.
    Senator Salazar. Thank you, Senator Udall.
    The Chairman. Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman. Senator Salazar, 
it will be tempting to call you Ken, so I apologize if that 
slips in. Maybe Senator Ken will do. Thank you, Mr. Chairman.
    I enjoyed our meeting and, frankly, after the press reports 
I had gotten on your positions on energy, I was afraid your 
position would be basically to cutoff American energy supply 
and after we talked, I felt like we were very much on the same 
page of continuing to try to develop a reasonable balance 
between domestic energy production of all kinds and protect our 
environment on all fronts and, as you know, those are not 
necessarily mutually exclusive.
    I did have the opportunity to actually tour in your State, 
Colorado Springs, a coal generation facility that had a model 
set-up that was taking about 80 percent of the carbons out of 
the coal on a limited scale and now they're looking at to try 
to expand the scale.
    So we know with the technologies we have that this is very 
possible and may be closer than we think. All of us would 
prefer not to burn coal if we had other alternatives. I was 
encouraged that you are supportive of nuclear generation and I 
think we both look at some of this as a bridge to a future with 
more renewables, non-emitting energy sources in our country for 
our cars and electricity which I appreciate.
    We also talked about offshore drilling which is 
controversial. I'm interested in the East Coast, particularly 
for natural gas and the possibilities there. You seem to be 
open to look for realistic solutions there that are friendly to 
the environment.
    So I very much appreciate that, and I guess, Senator, just 
instead of specific questions about particular energy sources, 
I know you've had a lot of questions today, but perhaps just 
summarize in your mind how we as a Congress, as a country, can 
look at the importance of American energy supply from all 
fronts and how we balance that with increasingly 
environmentally friendly life patterns here in this country.
    I know you've talked about that extensively already, but 
since I'm a little late, I'd just ask if perhaps that--you 
would talk a little bit more about that.
    Senator Salazar. Thank you very much, Senator DeMint, and 
you can always call me Ken. You know, Cardinal McCarrick here 
in Washington always calls most of the Senators by their first 
names. He says Senator Ken. So you can call me Senator Ken----
    Senator DeMint. OK.
    Senator Salazar [continuing]. Or whatever you want. Let me 
just say that one of the great exciting things of these times 
are the fact that I think out of our limitations we also have 
great opportunities, and I think there are inescapable forces 
that drive us to this new energy future for America and for the 
world.
    When you look at what we did with the New Energy Frontier 
in the 1970s, it was Richard Nixon that coined the word 
``energy independence.'' It was Jimmy Carter that, in 1979, 
first funded the highest level that we've ever done with 
respect to alternative energies and then, after that, because 
of the low cost of oil, frankly, not much attention was paid to 
this New Energy Frontier.
    I think the times are very different today and it's really 
because of three very important inescapable forces that 
President-elect Obama and I very much understand and share.
    First, national security, and we formed the Set America 
Free group that worked on a new energy bill here. It was 
conservatives and progressives, Republicans and Democrats 
coming together. It's an American agenda that understands that 
we can't be hostage to the whims of dictators from the Middle 
East or other places around the world. It's a national security 
issue.
    Second, it is an environmental security issue, as well. I 
think the debate about global warming is over and we need to 
move forward with an agenda that addresses climate change and 
that's why this energy imperative is so important.
    Third, in these difficult economic times that our Nation 
faces, we will, we believe, President-elect Obama and I do, 
that part of what we will do for our economic renaissance here 
in America is take on a new energy economy because we know the 
kinds of jobs that can be created through this new energy 
world.
    Instead of transferring the huge amounts of wealth that 
today are transferred to places like Saudi Arabia and other 
countries in the Middle East that have the reserves of oil, we 
can have that money invested here in our country which 
ultimately will be good to helping us stand up our economy 
again.
    Senator DeMint. Thank you, and I look forward to working 
with you.
    One specific question, I think it may have already been 
asked but just want to ask for the record, related to 
individuals' rights to carry guns on Federal property, and you 
and I--I believe I forgot to talk to you at all about that when 
we were in our office, but it's something that's come up on the 
committee before and the department has come out with 
rulemaking that basically makes Federal lands consistent with 
local laws, as I understand it.
    But there has been some talk of a new Secretary might 
overturn that or challenge or there might be lawsuits against 
it, and I would just like to have your opinion on what--and I 
know in committee we were talking about this amendment which 
was eliminated from the Lands Bill, but you had some specific 
language that we adapted into the amendments, so we seem to be 
on the same page, but is that still your opinion, that the 
Americans' rights to carry arms should be extended to Federal 
lands?
    Senator Salazar. Senator DeMint, I grew up learning how to 
shoot a gun probably since I was 3 years old. I probably 
shouldn't have been doing it at that age but started out very 
early, had guns in my trucks and in my home, sometimes because 
of where we lived, so desolate and far away, frankly, for self-
protection. So I have a healthy respect for guns and I know how 
to use a gun, and I have a healthy respect for the Second 
Amendment and the rights that come with the Second Amendment.
    The President-elect has a healthy respect for the Second 
Amendment and with the recent articulation of the Supreme Court 
with respect to the Second Amendment, as well.
    The specific question that you raise with respect to 
concealed weapons in national parks is an issue that I will 
take a look at when I review the regulation. I have not had an 
opportunity to review the regulation that has been issued by 
the Department of Interior, but I will do that after I am sworn 
in and move forward at the appropriate time making the common 
sense decision.
    Senator DeMint. Thank you, Senator. Yield back.
    Senator Lincoln. Thank you, Senator DeMint. The Chairman 
had to move to the next----
    Senator Salazar. How fast you move up in the world.
    Senator Lincoln. To his next responsibility and has asked 
me to sit in for him.
    I want to say a very special thanks to our chairman of the 
Energy Committee and to our ranking member, Senator Murkowski, 
for giving us this opportunity today not only to visit with you 
publicly about so many different issues that are near and dear 
to all of our hearts but also to say congratulations to you, 
our colleague, Senator Salazar.
    Thank you for all of the incredible blessings and hard work 
that you have brought to this body. You've been a tremendous 
member of the Senate and we are all grateful to you again not 
for just the blessings of your hard work but the blessings of 
your friendship and in this day and age, it is extremely 
meaningful because, as I think everyone knows, the blessing of 
your friendship has been spread across the aisles and all over 
the place in the U.S. Senate, and we're all just very grateful 
to have been able to serve with you here and are without a 
doubt looking forward to being able to work with you in your 
new capacity as Secretary of the Interior. So we welcome you 
home to the committee and are excited about the great 
opportunities that lie ahead in working together as you've 
always worked with us. So we're very glad you're here and glad 
for this opportunity for each of us, as I said, to be able to 
express our gratitude to you for all of the great things that 
you have brought to the Senate and to the country and will 
continue in this new capacity.
    I know you know as Secretary of the Interior, you will be 
Chairman of the Migratory Bird Commission, and I am a member of 
that, along with my friend and neighbor, Senator Cochran, and 
so I know I'll also enjoy--I'll get to actually see you every 
quarter, unlike some of my colleagues who might not get to see 
you as often. So I'm looking forward to that. We do great work 
with the Migratory Bird Commission and it's good stuff across 
the country that we can talk about and people are always well 
pleased because those are dollars that are very well spent and 
so we're excited about that.
    Just a couple questions from me today, and I wanted to--I 
know you've talked about a multitude of different things, so I 
don't want to revisit the things you have talked about. I will 
add my voice to the Land and Water Conservation Fund advocacy. 
I've been a strong advocate for that fund. It provides matching 
grants to our states and obviously local governments and it 
does a tremendous job in terms of its acquisition and 
development of public outdoor recreation areas and facilities, 
does a tremendous amount in my home State of Arkansas, and so 
we want to continue to work with you and certainly pleased with 
all the comments here today of the broad support for the Land 
and Water Conservation.
    Also renewable energy. I know some of that's been spoken 
about. It is critically important, I think, for our Nation in 
lessening our dependence on foreign oil and cleaning our 
environment, but it's also going to be an incredible tool for 
job creation and helping us to drive our economy, particularly 
in rural America.
    There is no one more excited about the possibilities of the 
new energy economy in this country than the people of rural 
America and particularly those engaged in agriculture and so I 
know that there will be opportunities there and I know you will 
have a vision of the opportunities that the Department of 
Interior will be able to--the role that they will be able to 
play and we look forward to that.
    Just one thing on recreation and particularly recreational 
lakes. There's so many recreational sites across the country on 
lands of Bureau of Reclamation and the Army Corps of Engineers. 
However, the lakes that are located on this land are not always 
available for public enjoyment because of their agency's 
limited recreation missions and water management policies.
    These challenges are very well documented in the 1999 
Report of the National Recreation Lake Study Commission called 
Reservoirs of Opportunity. The recommendations in the study 
were never fully implemented.
    I'd just like to bring that to your attention. I know you 
and I have spoken a great deal. I come from a seventh 
generation Arkansas farm family and I spent most every summer 
on my summer vacation, family vacation, in a national park, in 
Hot Springs National Park in Arkansas. My dad was a farmer and 
couldn't leave the farm. Those were critical times during the 
summer months when we were out of school and we spent time over 
there.
    Now, those lakes are not actually on those--are on Federal 
lands. Washataw is a Federal lake but it's managed by the 
Corps, but it's so critically important. There's so much 
recreational value here for Americans and during difficult 
economic times, it's an important place for people to be able 
to go and to have family time and so I hope that, as we move 
forward, you know, as we look--one of the ways to expand our 
economy, you know, encourage and expand local economies, is to 
really ensure that recreation is given a higher priority in the 
management of our Federal lakes.
    As Secretary of the Interior, I'm hoping that you will work 
to ensure that recreational benefits are enjoyed at federally 
managed and manmade lakes, and I hope that you'll look at 
causes for any decreases in the recreational facilities in 
these lakes that certainly come under your jurisdiction with 
the Bureau of Reclamation. So I'm hoping there will be some 
opportunities there that we can work together.
    The other Endangered Species, I'm not sure if it's been 
brought up, I didn't notice that it had been. One of the key 
challenges for Federal agencies in making a determination on 
potential impact of activities on endangered species is the 
inability to access species location data and hope that you 
would consider supporting the development of a centralized data 
base for species location and related biological data for use 
by Federal agencies.
    We've tried this time and time again. Usually we just give 
it a really crummy name and it doesn't sell, but the fact is, 
is it's really good information and it's good information to 
have. It's enormously beneficial to landowners and others who 
do want to be responsible in whether it is trying to preserve 
species that may be put on the Endangered Species List or those 
that have already been put there.
    So our hope is, is that we can work together to see some of 
those things that are extremely productive and useful tools for 
everybody concerned in trying to reach the same objective.
    So I think, other than that, I know in your opening 
statement I was very pleased to hear your mention about that 
unfortunately too many people mistakenly believe that the 
Department of Interior is just a department of the West. Those 
of us in the middle of the country and particularly in the 
South don't want to hear that or don't want to believe that and 
we're glad to hear that you're going to embrace all of us 
across this great land with again the tools and the abilities 
that you have to reflect on what it is that we can do together 
in this great country, particularly through the Department of 
Interior.
    So I thank you for being here. If you want to comment on 
any of those couple of things that I brought up, I'd be glad to 
hear. If not, I know we can always visit at another time.
    Senator Salazar. Senator Lincoln, if I may, just two 
points.
    First, I will miss your enthusiasm and your cheerfulness, 
but I also am looking forward to continuing to work with you on 
so many issues, including the issues that you raise.
    Second, I also want to just commend you as being one of the 
Senators that really understands the importance of rural 
America and the forgotten America, as some of you have heard me 
give my speeches on the Floor of the U.S. Senate, as we worked 
on the Farm Bill just this last year.
    There really are two Americas that we have--that have a 
different reality and it all depends on how far you are away 
from those big urban centers. I think we have 3,000 counties in 
the United States of America and there's about 1,700 of them 
that are classified as rural. Many of those have lost 
population and even in the good times of the 1990s, while the 
big cities were thriving and people were making a lot of money, 
the people in rural America were being forgotten and the income 
gaps of $10,000+ between rural versus urban Americans was real, 
the health care disparities were real, the educational 
disparities were real.
    They were all real and so I do believe that, 
notwithstanding the fact that rural America, as I said, I 
think, in my opening speech in the U.S. Senate some 4 years 
ago, had been a withering America just because population had 
been making its exodus from those rural counties into the 
bigger cities, that the new technologies and rural broadband as 
well as the economic opportunities that are brought about by 
renewable energy are going to create a renaissance for rural 
America and we have seen that across the country.
    In my State, with the renewable portfolio standard in 
place, the Eastern Plains which basically were a forgotten part 
of the State of Colorado have come back to life, and we will 
see more and more of that as we embrace the renewable energy 
opportunities, and I look forward specifically as part of 
President-elect Obama's energy team in helping craft the kinds 
of economic opportunities as we pursue the Renewable Energy 
Agenda to make sure that some of that economic opportunity 
creates opportunity for those rural communities, so that it's 
not just a matter of siting facilities out in those rural 
communities and then having the energy being used in the bigger 
cities but having the money essentially flow to Wall Street or 
some other place.
    So we have to make sure that we provide benefits to those 
rural communities and I look forward to working with you on 
that agenda.
    Senator Lincoln. Great. Thank you. Senator Shaheen.
    Senator Shaheen. Thank you, Senator Lincoln. I thought 
perhaps when you took over the Chair that the women Senators 
were initiating a coup, but then Senator Udall came back. I 
realized that was not the case.
    [Laughter.]
    Senator Shaheen. Congratulations, Senator Salazar. After 
listening to all of the wonderful tributes to you this morning, 
I'm especially saddened that I won't have the opportunity to 
serve with you in the Senate but look forward to working with 
you as the Secretary of the Interior.
    I appreciated the comments that you have made throughout 
your testimony and the questioning this morning about the 
importance of moving to energy independence, about the 
importance of the new energy economy, and as you indicated in 
your testimony earlier, one significant challenge we have as we 
move to that new energy economy is dealing with our 
transmission issues.
    We heard similar concerns expressed by Dr. Chu, the nominee 
to be Secretary of the Department of Energy, and I just 
wondered if you could speak to thoughts you have about siting 
new transmission lines, about who should have--if there should 
be one authority who you think should have oversight over 
siting of those transmission lines.
    It was suggested by a panel last week that perhaps that 
responsibility should be located within the Federal Energy 
Regulatory Commission, and how you might work with the 
Department of Energy on the challenges of building a new 
transmission system for this energy economy.
    Senator Salazar. Thank you, Senator Shaheen, and thank you 
for your great service to the State of New Hampshire as 
Governor and now to the country as a United States Senator.
    The good fortune about my job is that our relationships are 
not ended because I get to continue to work with you on issues 
that are important to our country.
    I believe that the issue of transmission is an essential 
issue that needs to be addressed because otherwise what's going 
to end up happening is that we're going to have a lot of talk 
and no action on renewable energy, and we cannot let 
bureaucratic impediments or the balkanization of the Federal 
Government essentially stand in the way of results.
    This is a time for results, results matter, and in that 
context, I have tremendous confidence in Secretary-designee 
Steven Chu and that we will be able to work together to create 
a pathway that is an effective pathway that gets us to the 
results that we want to deliver this new energy economy because 
if we don't do it, the Nation fails, we fail, and failure here 
is not an option.
    Senator Shaheen. Do you want to address whether there 
should be any particular location for siting new transmission 
lines or for--should there be one Federal agency that has any 
additional responsibility for transmission?
    Senator Salazar. We need to make sure that we are moving 
forward with creating the greater transmission capacity that 
will be needed and that will be something which Dr. Chu and 
myself as well as others will figure out together.
    There is a critical role that the Department of Interior 
will play because of the fact that we manage 20 percent of the 
land mass of the United States of America, and I know, for 
example, if we just take solar or geothermal, there are great 
opportunities there with respect to public lands and how public 
lands are used for these renewable energy facilities.
    There's first the issue of siting and where they will go. 
We may have to revise processes to make sure that we don't end 
up in 10 years of process without getting to results. This is 
an imperative agenda because our environmental and economic and 
national security depend on our success on this agenda.
    With respect to how we will work out the exact 
jurisdictions between FERC and Interior and other agencies that 
may have a role in it, that's something that we'll have to do. 
Maybe my role with the President-elect is to be a special 
advisor to him on energy. My role is to run the Department of 
Interior, but as special advisor to him, I will make sure that 
this is something that we will succeed on.
    Senator Lincoln. Senator Udall, did you have any further 
questions?
    Senator Udall. I don't have any more questions.
    Senator Lincoln. Senator Murkowski.
    Senator Murkowski. I have a couple of follow-up questions. 
I mentioned in my opening remarks your broad portfolio, but 
through listening to the members of the committee and realizing 
everyone brings their own interests, but the questions have 
varied from energy to more specific issues with OCS and oil 
shale, MMS, Indian Affairs, ESA, mining.
    We haven't discussed management of the territories, 
migratory birds, and the management of the Forest Service and 
the aspect of fires. I want to just touch on that briefly 
because it is something that I have had several conversations 
with Secretaries of the Interior at parts of the summer when my 
State was up in smoke and I'm sure that other members in the 
West have had real concerns and have had to weigh in.
    Some of the frustration that we see is the increased costs 
of Federal fire-fighting, the impact that these costs have on 
other Federal resource programs, and we've had many discussions 
in this committee, and I'm sure that you have been part of 
them, when we learn that essentially we're raiding other 
accounts to pay for the emergency situation that we have there.
    I would hope that as you're looking at the Administration's 
budget, you can figure out the path forward here. I'm not quite 
sure what the magic of it is, but recognizing that we do need 
to address this area, coming out of Colorado, I know it's been 
an issue, but it is something that we would like to see some 
resolve to.
    In the State of Alaska, we have experienced years of 
devastation of areas of our forested lands due to the invasion 
of the Spruce Bark Beetle, and I understand that in Colorado 
you call it the Mountain Bark Beetle. I don't know if they're 
kin to one another or what the relationship is, but we know 
that they're destroying much of our forests.
    I don't know what specifically the Department of Interior 
is doing now to respond more quickly and efficiently to 
challenge the outbreaks caused but that is something that we 
would like to be working with you on, again recognizing that 
when these insects come through and kill these trees, then lay 
on the forest floor and they're nothing but tinder for the next 
lightening strike that comes along that can cause an incredible 
forest fire and then we deal with the costs, as I just 
mentioned.
    I'm not giving you a chance to answer because I want to get 
through my last few questions.
    Lastly, Alaska was blessed a couple weeks ago to celebrate 
the 50th anniversary of our Statehood, on January 3. It was a 
big deal to be able to say we have been part of the Union for 
50 years, but when we joined the Union there were certain 
promises from the Federal Government as regarding our lands. 
They said you get lands conveyed to you as a State. Our Alaska 
Natives have also had that promise, the commitment that lands 
would be conveyed to them.
    When I came to the Senate, I asked for a status from the 
Bureau of Land Management, from Interior, where are we on our 
conveyance of lands, and at that time it was abysmal situation. 
They said they were working on it, but it was never a priority.
    We were able to pass into law the Land Conveyance Act to 
expedite those conveyances and the promise made within that 
legislation 4 years ago was that the conveyances would be 
complete by the time we celebrated the 50th anniversary of 
Statehood. That was a couple weeks ago. It's still about 35 
million acres of land that must be transferred.
    I'm asking for your commitment, Senator Salazar, as you 
move into this position in Interior, to work with us to 
complete these transfers that were promised to Alaska at the 
time of Statehood. Much of it is a budgetary issue, staffing 
issue, making sure that those surveys are complete, but it is 
something that I would hope we would be able to work with you 
aggressively on to complete this commitment.
    Senator Salazar. Senator Murkowski, on both issues you 
raise, I know the importance on the fire issue and the budgets 
of both the Forest Service and USDA as well as the BLM. I 
understand the criticality of dealing with the epidemic that we 
see with the Bark Beetle or the Swiss Beetle in multiple states 
and I'm, frankly--when I first started talking about the Bark 
Beetle, people thought it was a beetle that barked 4 years ago.
    I think there's a greater understanding that Congressman 
Udall brought in the House and we brought over here and we know 
it's an issue that is a multi-State issue and to Wyoming and 
Idaho and to Alaska, of course, and so we need to work on it 
and we'll work on it and we'll take a look at where we are on 
the implementation of the Conveyance Lands Act and we'll get 
back to you on that.
    Finally, I guess I would say, use this opportunity to say 
that even as we look at the issue of budgets with respect to 
firefighting, there are some realities that are going to hit 
this committee, the Members of the Congress, the President-
elect and all of us, and that is, that we are in some very 
tough economic times and we can have great dreams and great 
aspirations, as I do as I look forward to the challenge that we 
have, but there is going to be some reality that we're going to 
have to deal with relative to how we fund much of these 
programs that we are facing and it will not be easy, but I 
think the times we're in require the kind of resolve and 
determination and the can-do attitude that we can figure out 
ways of addressing these high-priority issues for our Nation.
    Senator Murkowski. I appreciate your comment. I think we 
all recognize that it is difficult and we're dealing with 
difficult issues already, but I think when you have good 
leadership and a sense of pragmatism, we can make good things 
happen. I look forward to doing that.
    I would be remiss as the ranking member of Indian Affairs 
if I did not reiterate my chairman, Senator Dorgan's comment 
about the responsibility to our first people, to American 
Indians, Alaska Natives, Native Hawaiians, his plea to you to 
fix the BIA, and I think I have a commitment from you to do 
that, so thank you, we will be working with you on that, but as 
you know, the trust responsibility that we have to our American 
Indians, to Alaska Natives, I think we have failed in many 
aspects of that and would hope that that would be one of the 
areas that you would be rigorous and really try to make 
positive steps.
    With that, Madam Chair, I do have more questions that I 
would like to have submitted for the record. I know Senator 
Barrasso had some. I'm sure that other members of the committee 
will have them, as well. I understand that we've got some time 
before our business meeting for you to complete these, so you 
don't have to stay up all night responding to them, but again I 
thank you for your willingness to serve our President-elect in 
this new Administration and thank you for what you have done 
for the people of Colorado and for this country.
    Thanks.
    Senator Salazar. Thank you.
    Senator Murkowski. I am told that Senator Barrasso is on 
his way. We should give him a second.
    Senator Lincoln. We will give him a second. I would just 
say that I think I have the second cousin once removed of your 
beetle, the Red Oak Bore, over in Arkansas. So I'm pleased that 
you brought that up. Those are important issues for us, as 
well, even though we don't have as large a forest or territory 
as lots of times the Western states do.
    I will say, Senator Salazar, that I have two young men in 
Arkansas who are ready to take you on a canoe trip down the 
Buffalo National River, the Buffalo National Park River, and 
are excited about--I know you've had many invitations to come 
visit a lot of different places with the beautiful national 
parks that exist across this land, but without a doubt, there's 
two young men with the last name Lincoln that are ready to take 
you on a canoe trip down the Buffalo River. They talked about 
it last night, as a matter of fact.
    If there's not any objection, without any objections, 
members will have until 5 o'clock this evening to submit 
additional questions for the record.
    Senator Salazar. Ms. Madam Chairman, I do this in court all 
the time, may I approach the Bench just for 1 second?
    Senator Lincoln. Absolutely.
    [Off the record.]
    Senator Lincoln. Senator Barrasso, did you have some 
further questions?
    Senator Barrasso. Thank you very much, Madam Chairman. I 
do.
    Senator Lincoln. I just want to make sure that you do have 
until 5 o'clock this evening to submit any additional questions 
that you might have.
    Senator Barrasso. Thank you very much. Thank you again, 
Senator Salazar.
    A couple of issues very important to us in Wyoming and the 
Rocky Mountain West and if I could ask about snowmobiles in 
Yellowstone and Grand Teton Parks. In 1872, when we had the 
first national, Yellowstone Park, they said it was for the 
enjoyment of--for the use and enjoyment of the people when the 
legislation was initially passed.
    Could you talk a little bit about the support for 
snowmobile access to the parks? There's been a lot of back and 
forth in terms of how many snowmobiles, if snowmobiles could be 
used in the park, and how will you direct the National Park 
Service to handle this issue of snowmobiles in the national 
parks?
    Senator Salazar. Senator Barrasso, I appreciate the 
question, and I remember the heartfelt positions of Senator 
Craig before you and you and others. This is a complex and 
difficult issue and today in this hearing what I can assure you 
is that it's an issue that we will take a look at.
    I don't have an answer for you. I haven't looked at the 
current status of it, but we will look at it and we will get 
back to you.
    Senator Barrasso. I would agree with Senator Udall in his 
earlier comments and associate myself with those about the 
Colorado River Compact. I remember your strong statements about 
the need for Wyoming and Colorado and Upper River Areas, and I 
know you were very vocal in the past when anyone has tried to 
move some of that water south and west. So I appreciate the 
comments there.
    Senator Salazar. Don't they say in the West you can steal 
my wife but don't steal my water? I don't say that.
    Senator Barrasso. No, no. You would never.
    [Laughter.]
    Senator Salazar. You can steal neither my wife nor my 
water.
    Senator Barrasso. If I could then ask a little bit about 
public land and ranching and we talked yesterday at the Prayer 
Breakfast about your love of the land, respect of the land, how 
very important it is to you and your heritage and your family.
    Public land ranching is a very important part of Wyoming's 
economy and part of our local communities. Half of the land in 
the State of Wyoming is public land and a lot of that's used 
for grazing, for grazing allotments where ranches have a 
combination of public land and their own private land for a 
large number of these ranches.
    The concern that I have when it comes to any time a rancher 
wants to sell his private land the developers are ready to take 
that immediately. You and I both know the value of the 
incredible landscapes and the desire to try to conserve this 
area.
    So could you talk a little bit about conservation of entire 
landscapes and how you would then direct your agencies to 
handle resource conflicts that involve people who have permits 
to graze on the public land?
    Senator Salazar. Senator Barrasso, let me say first, I 
think we need to find balance. You know, I was involved some in 
the grazing regulation disputes back in the 1990s and the last 
thing we want to do is to drive ranchers, some of whom have 
been using these lands for five-six generations, essentially 
off the lands and into bankruptcy.
    At the same time we need to make sure that we're protecting 
the ecosystems that are so essential that are important to 
Wyoming and Colorado and everywhere else where we have these 
kinds of grazing opportunities.
    So we will seek to have the right kind of balance that 
supports our ranching communities and our ranchers and at the 
same time protects the environment.
    Senator Barrasso. I wanted to move on to Federal mineral 
royalties. As you know, the Bush Administration, as well as the 
Democrat Congress, the Federal Government took 2 percent of the 
states' Federal mineral royalties. It impacted Colorado. It 
impacted Wyoming, and you and I co-sponsored Senate 2602 in the 
last session of Congress to try to reverse this policy that you 
and I both agreed was an unsound policy.
    I was curious if the Obama Administration supported our 
legislation.
    Senator Salazar. Senator Barrasso, I do not know that 
they've gotten that specific and I think there are lots of 
pieces of legislation that they obviously have not looked at. 
You know my own history with respect to that particular issue 
and you know I think the 50/50 split that was there before is 
one that makes sense.
    You know, this is an issue which probably will arise again, 
but as I will remind you and members of the committee, it was 
part of what acme out of the Bush budget that moved it to a 51/
49 split and hopefully as we try to address the budgetary 
crisis that we're in, we'll be able to correct what I think was 
a wrong move.
    We haven't gotten to the point where any of us have been 
sworn in, have not gotten to the point where we're dealing with 
budgets and trying to make the budget balance, but it is an 
issue that is on my radar screen.
    Senator Barrasso. The final has to do with another bill 
that you and I co-sponsored, had to do with the Good Neighbor 
Authority in terms of the Forest Service, the bill that we had 
co-sponsored that would allow the Forest Service and the BLM to 
cooperate with the State foresters to put more boots on the 
ground in terms of cleaning up the forests and the issues that 
you and I have discussed prior to this hearing.
    I guess my question is how can we continue to promote this 
tool, which I think is very important for our states and for 
our forests?
    Senator Salazar. I think it's a great concept and I think 
it's something that at the end of the day is about 
collaboration and cooperating with your neighbors and I think 
those are the kinds of things on collaboration that we will be 
pursuing as we deal with issues like fires as well as a whole 
host of other things.
    We look at the Bark Beetle problem. You know, the Bark 
Beetle problem doesn't stop at the Federal jurisdictional line. 
It goes over into private property and so how we put together 
the kinds of good neighbor policies that you and I had talked 
about in the past is something which we will try to do within 
Interior.
    Senator Barrasso. Because BLM still hasn't taken a position 
on it and they say it's tied up in the Solicitor's Office and 
I'm just hoping that you continue to keep an eye on that to 
make sure we can move that along in a swift way.
    Senator Salazar. Let me say it will very much be on my 
radar screen when I get to the Department of Interior.
    Senator Barrasso. Thank you very much. Thank you, Madam 
Chairman.
    Senator Lincoln. Any other questions?
    [No response.]
    Senator Lincoln. The hearing is adjourned.
    [Whereupon, at 12:03 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

        Responses of Ken Salazar to Questions From Senator Akaka
    Knowing of your past experience in working with Colorado Indian 
tribes you have a good background and understanding of the Federal 
government's trust responsibility with our nation's indigenous peoples, 
American Indians, Alaska Natives, and Native Hawaiians. I am confident 
you will draw upon your first hand experience as you work to address 
the needs of indigenous people across the country, including the need 
to enhance opportunities and strengthen tribal self-government. I know, 
I and other members of the Senate Indian Affairs Committee, look 
forward to working with you on your efforts to address how the 
Department of Interior in collaboration with the Department of Justice 
and others can work more effectively and appropriately to protect 
tribes and to live up to the Federal trust responsibility and treaty 
pledges.
    Question 1. Will you support self-governance and self-determination 
for Native Hawaiians within the framework of Federal laws, as has been 
done for American Indians and Alaska Natives?
    Answer. Both President Obama and I are on record as supporting the 
legislation introduced by you in previous Congresses to provide Native 
Hawaiians with an opportunity to establish a Native Hawaiian governing 
entity.
    Question 2. Even as the new Administration prepares to take office, 
some members of the outgoing Administration are seeking to achieve 
lasting policy by changing enforcement rules for the Endangered Species 
Act, issuing new regulations and developing new Memorandums of 
Understanding (MOUs) under Title 25 Indian affairs, and converting 
political positions in the Solicitor's Office into career positions.
    If confirmed as Secretary, what steps will you take to counter-act 
these actions by the previous Administration?
    Answer. I plan to review all of the actions you cite that were 
taken by the previous Administration.
    Question 3. Originally, Native Hawaiians were dealt with as a 
foreign nation through Treaty and the Commerce Clauses. Later, the 
Kingdom of Hawaii was overthrown in violation of international law and 
subsequently annexed to the United States.
    When Hawaii was a U.S. territory, Congress exercised its Indian 
Affairs powers, war powers, and powers over public lands to provide for 
the Hawaiian Home Lands to be held in trust for native Hawaiians, with 
the enactment of the Hawaiian Homes Commission Act. As a condition of 
Statehood in 1959, the State of Hawaii took title to Federal public 
lands and established a state entity, the Department of Hawaiian Home 
Lands (DHHL) to assume the administration responsibilities of the 
trust. In doing so Congress, exercised its right to transfer title of 
Federal public lands to the state of Hawaii.
    Do you agree that the original powers of the Constitution, 
including the Indian affairs power extends to the later acquired 
territories of the United States, including Colorado and Hawaii? If 
yes, do you believe that these constitutional powers should provide 
protection and promote self-governance for Native Hawaiians, as has 
been done for other indigenous/native peoples of the United States?
    Under Congressional authority to delegate power to states, do you 
believe that Congress had a right to transfer title of Federal public 
lands to Hawaii subject to a reservation in favor of native Hawaiians? 
If yes, will you work with the Department of Justice to uphold that 
trust?
    Answer. As I stated in my response to an earlier question, both the 
President and I support your efforts to establish recognition for 
Native Hawaiians. With regard to your particular legal questions, I 
would have to defer to the Department of the Justice.
    Question 4. I believe one of the requirements for the position of 
Secretary of Interior, is a well-developed understanding of the complex 
relationship between the Federal and tribal governments particularly as 
they are outlined by the Commerce Clause and the 14th Amendment. As I 
am sure you know, the Constitution, specifically the Indian Commerce 
Clause as well as the Treaty Clause, has long served as a foundation 
for how the Federal Government, including the legislative branch, would 
deal with Indian tribes and tribal citizens. However, some have argued 
that the equal protection clause of the 14th Amendment is an 
abridgement of the relationship established under the Commerce Clause 
while others have argued it is an expansion.
    Do you believe that 14th amendment limits or in any way undermines 
the Indian Commerce Clause? Furthermore, do you believe the 14th 
amendment in any ways bars the Congressional exercise of Indian affairs 
power? Given that tribal citizens were primarily subject to tribal 
government jurisdiction, do you interpret the 14th amendment to apply 
to individual Indian tribe members under the Citizenship clause or do 
tribal citizens represent a distinct group separate from other American 
born citizens?
    Answer. I believe it would be imprudent to provide a legal analysis 
on the complexity of the interaction of the 14th amendment and the 
Indian Commerce Clause in the context of these answers, which I am 
trying to provide expeditiously to the Committee. I would, however, be 
happy to give this issue further consideration.
       Responses of Ken Salazar to Questions From Senator Dorgan
    Question 5. The Red River Valley Water Supply Project would bring 
water from the Missouri River to residents in eastern North Dakota, was 
authorized in the Dakota Water Resources Act and has been extensively 
studied. Recently, the final EIS was completed and additional data was 
provided to the Office of Management and Budget by the Bureau of 
Reclamation. At that point, we had assurance from the Bureau that the 
Secretary of the Interior would sign the Record of Decision. But the 
Secretary of Interior has since reversed course and has refused to sign 
the Record of Decision. As the Secretary of Interior, will you 
investigate this issue and issue the Record of Decision quickly? If you 
discover problems with the project, do I have your commitment that you 
will maintain an open and frank dialogue about the issues so that we 
can resolve them and move forward on this project?
    Answer. I commit to investigate this issue and discuss it with 
officials at the Office of Management and Budget.
    Question 6. The goal of Northwest Area Water Supply Project is to 
bring safe drinking water from Lake Sakakawea north to Minot and 
distribute it to rural water users who currently lack access to potable 
water in the northwestern part of the state. This project was the 
subject of a lawsuit from Canada. We have completed the additional 
study of the treatment options, as mandated by the court, and are ready 
to move forward with the project. The Record of Decision may be signed 
in the coming days by this administration. If the Record of Decision is 
not signed in the next couple of days, do I have your commitment that 
you will expeditiously review and sign the Record of Decision so this 
project can move forward?
    Answer. I understand that this Record of Decision was signed on 
January 15, 2009.
    Question 7. I appreciated the fact that during our meeting of last 
week, you said that it seemed like common sense to try to use hunters 
to thin the elk overpopulation at the Theodore Roosevelt National Park. 
Since our meeting, I've learned that the 1950 Federal law establishing 
the Grand Teton National Park specifically requires that any managed 
reduction of the elk population in the park be done by hunters. And as 
far as I've been able to tell from officials at the Grand Teton 
National Park, the use of hunters to deal with the elk overpopulation 
in the Grand Teton National Park has worked very well. Are you aware of 
any problems with the use of volunteer hunters at the Grand Teton 
National Park that would suggest that this is not a good model for 
dealing with the situation in the Theodore Roosevelt National Park?
    Doesn't it seem like common sense that if volunteer hunters are 
being used to thin the elk overpopulation in a national park, they 
should be able to keep the elk meat, or give it to a food bank if they 
so choose? Isn't that the approach that has been followed at the Grand 
Teton National Park (as required by law)?
    Mary Bomar, the head of the National Park Service during this 
outgoing Bush Administration, wrote me on July 24, 2007, and agreed 
with me that the National Park Service has the discretion to use 
volunteer hunters to thin the elk herd at the park. I would hope that 
the Department of the Interior could reach a common sense decision on 
this issue quickly, before another couple of years go by. Would you 
give me your assurance that the Department will move promptly to settle 
on a common sense solution to this problem?
    Answer. I understand the National Park Service is looking at this 
issue right now through the National Environmental Policy Act (NEPA) 
process. The options under consideration include using qualified 
volunteers to call the herd. I will be pleased to review with the Park 
Service these alternatives and to keep your office informed of our 
progress.
    Question 8. The Bush Administration was very aggressive in pushing 
for oil and gas production on Federal lands, especially by processing 
permits. At the same time, there has been lax enforcement of production 
once it was occurring. Will you work to increase oversight efforts to 
ensure permit conditions are met?
    Answer. Yes, I do want to improve permit and enforcement programs. 
I will work to ensure that permit conditions are met by oil and gas 
leases and operation. Development of oil and gas on Federal land is 
important but it must be done in a balanced manner that is 
environmentally sound. Oversight is also important to ensure that 
production is reported accurately so that Americans receive a fair 
return from the development of the Federal lands.
    Question 9. One of the challenges that renewable energy is facing 
is getting permission to develop these energy sources on Federal lands. 
Will you promote efforts to increase production of renewable energy 
sources on Federal lands (onshore and offshore)?
    Answer. I am strongly committed to increasing our capabilities to 
plan, permit, and provide transmission corridors for renewable energy 
on public lands and offshore. This is crucial to our energy future and 
the Administration's energy program.
    Question 10. The Interior Department is responsible for the 
construction, maintenance, and repair of Indian schools, jails, 
irrigation and dam projects, and other infrastructure. The unmet need 
for tribal infrastructure exceeds $50 billion.
    I with 14 other Senators urged the President-Elect to include 
funding for tribal infrastructure in his Economic Recovery and 
Reinvestment Plan. Will you support similar efforts to address the 
unmet need for tribal infrastructure construction?
    Answer. The House and Senate are both working on economic recovery 
packages that include significant funding for tribal infrastructure 
needs. The President and I support investment in these key areas, and 
the Administration is working with Congress on this effort.
    Question 11. The Department of the Interior's ``Criteria for 
Negotiating Indian Water Rights Settlements'' provides a variety of 
goals for the Department. Yet, the outgoing Administration appeared 
interested in only one goal--balancing the cost of the government's 
contribution to a settlement against the potential liability for the 
Federal government's failure to protect Indian water rights.
    How will your Department manage the settlement of Indian water 
rights? Do you plan to revisit the Department's criteria to ensure that 
all values of settlement are included in the process?
    Answer. Settlement of Indian water rights is personally important 
to me. As you know, I have spent much of my career focused on issues of 
water in the West. You have my assurance that I and my team will look 
at the Department's criteria and the overall process for settlement of 
Indian water rights.
    Question 12. As Chairman of the Senate Committee on Indian Affairs, 
I held hearings in the 110th Congress that revealed a public safety 
crisis on many American Indian reservations. The problem stems from a 
lack of resources for tribal justice programs and a broken and divided 
system of justice. In 2008, I introduced S. 3320, the Tribal Law and 
Order Act, to fix this broken system.
    As head of the Department, are you willing to work with me on this 
legislation to reform the broken system?
    Answer. My team and I look forward to working with you on the issue 
of tribal justice programs and the justice system in Indian country.
    Question 13. Indian Tribes are specifically referenced in the 
Commerce Clause to the U.S. Constitution along with state governments 
and foreign governments. The right of Indian Tribes to self-government 
is in the bedrock of our nation's Indian affairs policy.
    What are your thoughts about the mission of the Bureau of Indian 
Affairs, the future of Indian Self-Determination, and improving the 
services provided to the residents of Indian Country to better meet the 
goal of tribal self-determination?
    Answer. Like President Obama, I am a strong believer in the right 
of Indian Tribes to self-government. I believe the record shows that 
many Tribes now have the ability to provide their members with better 
service than when those services are provided solely by the Federal 
government. I am hopeful that this Department can continue to increase 
the number of Tribes that have self-determination agreements with the 
Bureau of Indian Affairs.
    Question 14. Allotment Acts of the 1800's allotted tribally-held 
land on Indian reservations to individuals, mandated an unworkable 
system for devising Indian lands, and resulted in fractioned interests 
in land. Today, a single parcel of land may have hundreds of owners, 
making many parcels of Indian lands useless for purposes of private 
ownership or economic development.
    The Department of the Interior has a modest program in place for 
purchasing these interests since the late 1990s. Congress has 
recognized and approved this program through amendments to the Indian 
Land Consolidation Act in 2000 and 2004. Appropriations to carry out 
the program over the past 8 years have been inconsistent. How would you 
enhance and improve the Indian Land Consolidation program?
    Answer. I look forward to evaluating the performance of the Indian 
Land Consolidation program in achieving its primary purpose--the 
consolidation of fractionated interests in Indian land. A priority of 
my tenure will be economic development for Indian people. I also look 
forward to working with you and the Congress to address the 
fractionation issue, which can inhibit needed economic development.
    Question 15. As you are aware, the Cobell litigation has been 
pending since 1996. Secretaries Babbitt, Norton, and Kempthorne have 
all been named plaintiffs in the litigation. The litigation has proven 
to be a poor method of resolving this issue.
    The Administration and Congress need to develop an appropriate 
remedy for the trust litigation and I hope you will lead the effort. 
What are your views on the settlement of historical trust claims 
against the Department?
    Answer. While I have not yet been fully briefed on the Cobell 
litigation, I do know it is one of the most complex lawsuits that the 
Department of the Interior has ever faced. I also know that past 
attempts by both Congress and the Clinton and Bush Administrations to 
craft a settlement have failed. I share your view that this litigation 
has been a painful way to resolve this issue. I assure you I will make 
it a high priority to resolve this decade plus-long litigation.
        Responses of Ken Salazar to Questions From Senator Wyden
    Question 16. Senator Salazar, I appreciate the commitment you made 
in your confirmation hearing to get back to us with a timetable as to 
how and when you will correct the tainted decisions identified in the 
Inspector General's Report on endangered species decisions. Can you 
give us an indication of when we will be able to get that from the 
Interior Department?
    Answer. I will first need to get my team in place before I can 
fully provide information as to how and when we examine the endangered 
species decisions identified in the Inspector General's report. But I 
will tell you that one of my highest priorities is making clear that I 
will not tolerate the kind of tampering with science uncovered by the 
Inspector General with regard to the endangered species program.
    Question 17. While these decisions are being revised, they are 
being used as a basis for a host of projects and land management 
decisions that are moving forward. How will ensure those decisions and 
projects also receive review and that no improper harm comes to a 
species or its habitat while the tainted decisions are being reviewed?
    Answer. As I mentioned above, review of these projects, as well as 
the decisions that allowed them to go forward, will occur when my fish 
and wildlife and legal teams are in place.
    Question 18. Will you remove or reassign career staff who have been 
named by the Inspector General or Government Accountability Office as 
having improperly influenced species decisions?
    Answer. These are personnel matters and decisions that will be made 
in accordance with appropriate guidelines and requirements relating to 
the career civil service. I can assure you, however, that I will take 
whatever steps are necessary, and within the scope of my authority, to 
redress improper decision-making regarding endangered species 
determinations.
    Question 19. What will you do to 1) ensure that that the types of 
improper actions highlighted in the Inspector General's findings no 
longer take place at Interior and 2) reform and clean up the Agency so 
that this never happens again and that the Agency's scientific 
integrity is restored?
    Answer. I have already made clear to my staff and in an all-
employee meeting I held on January 22, 2009, that I will not tolerate 
the kind of improper actions highlighted in the Inspector General's 
findings. I have also stressed the importance of scientific integrity. 
In addition, the entire new political team was briefed by the 
Department's Ethics Office on January 22, 2009. Also, as you know, I 
discussed this set of issues in a recent White House briefing and in an 
all-hands meeting with Minerals Management Service employees in 
Lakewood, Colorado.
    Question 20. I have a bill to expand the Oregon Caves National 
Monument boundary by 4,084 acres to include the entire Cave Creek 
Watershed, the management of which would be transferred from the United 
States Forest Service to the National Park Service. Last year at a 
hearing on this bill, the Park Service gave testimony that contradicted 
their long held position supporting expansion of the Monument 
boundary--a position held since the 1930's and articulated in the 
Monument's 1998 General Management Plan. I believe this was politically 
motivated. Can I get your commitment to look with fresh eyes at this 
legislation, which I will again be seeking to move this year?
    Answer. You have my commitment that I and my team will review your 
legislation with fresh eyes.
    Question 21. There are a number of Tribes in my home state that 
face a number of challenges and are also involved in a whole host of 
projects involving the Department of Interior. As you know, this Bureau 
too has faced a number of criticisms of mismanagement and lack of 
responsiveness to needs within the Tribal community. In President-elect 
Obama's announcement of your nomination, he acknowledged that among the 
many responsibilities you will bear as Interior Secretary is to help 
ensure that we live up to our treaty obligations and honor a nation-to-
nation relationship with tribes. People often think the Bureau of 
Indian Affairs' has the only direct Federal relationship with tribal 
governments. However, many tribes in Oregon and across the West have 
treaty reserved rights that extend beyond their reservations and are 
likely to be impacted by the other programs within Interior, such as 
management of parks and refuges and Bureau of Land Management lands and 
where activities might involve grazing, logging, irrigation, and 
mining.
    How will you go about ensuring that the Federal relationship 
extends across all agencies and services in Interior and not just the 
BIA?
    Answer. I understand that treaty rights often involve tribal 
resources that may be impacted by many programs carried out by many 
agencies, both inside and outside of the Department of the Interior. 
This is one reason why consultation is so important before any action 
is taken that might affect a tribe's resources. I will work to ensure 
that our communications with tribes are enhanced during this 
Administration.
    Question 22. How do you propose cleaning up the Bureau of Indian 
Affairs and creating trust once again between the Tribes and the 
Federal Government, especially following major legal challenges such as 
the Cobell v. Kempthorne lawsuit, that alleges mismanagement of the 
Government's trust obligation?
    Answer. As I mentioned above, I believe trust is best created when 
the lines of communication are open and the sovereignty of tribes and 
their rights to self-determination and self-governance are fully 
recognized. I intend to give the trust management issues top priority 
in the Department.
    Question 23. The Interior Department's compensable trust obligation 
to manage Indian lands is certainly equal to that owed by the U.S. for 
the management of Forest Service or BLM public lands. And even while 
funding for managing those lands has been very woefully inadequate, BIA 
funding for managing these natural resources is just a fraction of that 
spent by other Federal agencies. Shouldn't Indian trust resources 
receive the same level of support accorded similar public lands?
    Answer. I will look at the funding levels for the management of 
Indian lands as we develop the 2010 budget request and go through the 
2011 budget process.
    Question 24. A number of our Tribes are actively involved in 
alternative energy development. Do you have a vision to provide 
opportunities for Tribes to create alternative energy? Recovery and 
restoration of Pacific Northwest salmon is a public priority backed by 
an enormous regional undertaking. The treaty tribes in Oregon and 
elsewhere in the region, with significant treaty fishing needs and co-
management responsibilities themselves, annually request that the 
Administration produce a cross-cut budget identifying the various 
agency budget needs and obligations. How will the Department of 
Interior work to annually formulate this northwest salmon cross-cut 
budget?
    Answer. I believe one of the greatest opportunities for economic 
development in Indian country is development of alternative energy 
sources. As part of our plan to increase alternative energy resources 
for America, I expect the next Assistant Secretary for Indian Affairs 
to focus on this challenge. In addition, I am fully aware of the 
importance of Pacific Northwest salmon to the Tribes in that area. I 
will ask my team to look into your request to lay out more clearly 
funding for Northwest salmon programs.
    Question 25. Several basins in Oregon are going through major 
efforts to improve habitat, stream flows and provide adequate water 
supplies--the Klamath, Deschutes, Umatilla among others. These projects 
cut across agency departments. I want to work with you to establish a 
process that we can use to work through these issues on a basin by 
basin basis with your Department. Can I get your thoughts on how we 
might do that?
    Answer. I am aware that significant focus has already been given to 
the issues facing the Klamath basin. I would be happy to work with you 
on developing a process for examining the needs of the major basins in 
Oregon.
    Question 26. The Deschutes Basin recently reintroduced endangered 
salmon and the communities, the Tribes, irrigators and Portland General 
Electric are all making great strides, with the Bureau of Reclamation 
and Fish and Wildlife support, to develop a Habitat Conservation Plan. 
I hope that you will support your Department's continued involvement in 
these efforts.
    Answer. I have every intention of continuing the support for the 
ongoing efforts of the Department in the Deschutes Basin.
    Question 27. There are dozens of Indian tribes around the country 
with which the US is pursuing water settlements. I have one in my own 
State of Oregon involving the Umatilla Tribe and the Umatilla River. 
The continuing uncertainty regarding unquantified Tribal water rights 
encumbers Tribal economic development and, in many cases, especially 
among treaty tribes in the Pacific Northwest, prevents the exercise of 
treaty-reserved fishing rights. Unquantified Tribal water rights also 
cloud non-Indian water rights and development in affected basins--and 
can be the source of conflict between Tribes and their surrounding 
communities. While everyone understands these settlements need to be 
achieved, they can be costly and they require the involvement of the 
Department of the Interior--including the Bureau of Indian Affairs, 
Bureau of Reclamation, Fish & Wildlife Service and Solicitor's Office.
    What are your plans as Secretary of the Interior to prioritize the 
settlement of Tribal water rights?
    Answer. As I mentioned in response to a previous question, 
settlement of Indian water rights is personally important to me. As you 
know, I have spent much of my career focused on issues of water in the 
West. You have my assurance that I and my team will look at the 
Department's criteria and the overall process for settlement of Indian 
water rights.
    Question 28. In the Umatilla Basin, the State, irrigators and the 
Confederated Tribe of the Umatilla Indian Reservation have worked hard 
and support the Department of Interior's two related and continuing 
studies: Indian Water Rights Assessment study (due mid-2009) and 
Reclamation's water supply study (also due mid-2009). Can you commit to 
ushering these studies forward and using them as the basis to construct 
a comprehensive project to meet water needs in the basin?
    Answer. I can commit to examining this issue and working to ensure 
the completion of these studies in a timely manner. I would want to 
examine them and understand the financial implications before I commit 
to the construction of a comprehensive project.
    Question 29. What are your views on funding for habitat 
conservation plans under section 10 of the Endangered Species Act? 
Currently, mitigation funding as well as funding to maintain habitats 
are woefully absent. Will you provide leadership to better balance 
funding for mitigation and maintenance to off-set the impacts of 
development in listed species critical habitats?
    Answer. I am committed to finding ways to make the Endangered 
Species Act work for landowners affected by the requirements of the 
Act. I will ask my team to look at the levels of funding for mitigation 
and maintenances to off-set the impacts of development in designated 
critical habitat.
    Question 30. S. 22, the Omnibus Public Land Management Act of 2009 
includes a provision extending the Department's authority to enter into 
cost-shared programs to protect endangered salmon and other species in 
the Northwest. This program funds fish screens, diversions, and other 
measures that prevent these endangered fish from being inadvertently 
diverted into irrigation systems and has been extremely cost effective. 
The new bill would extend the Fisheries Restoration and Irrigation 
Mitigation Act (FRIMA) until the year 2015. If confirmed, would you 
commit to fund the FRIMA program?
    Answer. At this point, I cannot make any funding commitments. 
Funding of Interior programs is decided through the Administration's 
budget process, in consultation with the Office of Management and 
Budget. I can, however, commit to look at the issue of funding for the 
FRIMA program.
    Question 31. A Federal agency (non-Interior) began construction of 
a large-scale public works project on the Oregon side of the Columbia 
River without consulting with the tribes holding treaty fishing and 
access rights in the affected area. The resulting work stoppage could 
cost American taxpayers millions of dollars. Will the Department of 
Interior work with the White House to set the standards for adequacy 
and best practices in consultation with Indian Country?
    Answer. I expect the Department of the Interior to be a leader in 
ensuring that all Federal agencies engage in government-to-government 
consultations with affected tribes in connection with projects that 
impact these rights and interests.
    Question 32. Two blue ribbon independent assessments over the past 
16 years have found BIA per acre Forestry funding to be only about 1/3 
that of the U.S. Forest Service. (FY 1991 BIA per acre: $4.14, USFS per 
acre: $11.69. See An Assessment of Indian Forests and Forest Management 
in the United States, IFMAT 1 Report, November 1993, Table 11, page V-
4. FY 2005 BIA per acre: $2.83, USFS per acre: $9.51. See IFMAT 2 
Report, December 2003, Table 2, page 9.) Funding for ESA activities on 
Indian trust lands is only a quarter of that for BLM. (FY 2008 BIA ESA: 
$1.228 million divided by 56 million trust acres = $00.02.19 (or 2.2 
cents) per acre. FY 2008 BLM ESA: $22.3 million divided by BLM's 258 
million acres = $00.08.6 (or 8.6 cents per acre). What will you do to 
ensure more parity in funding for Tribal lands?
    Answer. I will instruct my team to examine the issues related to 
forestry funding for tribal lands during the course of the budget 
process.
    Question 33. The Umatilla Tribe's Umatilla River Basin settlement I 
mentioned happens to have significant workforce employment, small 
business and on-farm economic and regional economic stimulus 
attributes. Importantly, this economic stimulus opportunity is in rural 
northeast Oregon. Literally hundreds of farms can be rescued and new 
agriculture on the Umatilla Indian Reservation can be developed. Will 
you advocate for and is the Administration planning to include Indian 
water rights settlement projects as part of the critical economic 
stimulus package and actions nationwide?
    Answer. As I mentioned above, the settlement of Indian water rights 
is extremely important to me. My team and I will certainly take a hard 
look at settlement criteria including how these settlements are funded.
    Question 34. I have been told by some of my constituents that it 
has been difficult for citizen groups, Indian tribes, and environmental 
organizations to meaningfully raise environmental and other concerns 
with applications by Indian tribes and casino developers to build 
casinos. Will you ensure that the Department creates a transparent 
process to allow such stakeholders to receive information upon which 
they can provide your staff with appropriate input that will help your 
Department make informed decisions?
    Answer. I will look into this concern.
    Question 35. USGS currently has limited funds available for 
researchers beyond salary, and it is often difficult for USGS 
researchers to seek Federal funds (not able to compete for NSF grants, 
etc.). How might you improve this situation?
    Answer. I am committed to ensuring that the Department's decisions 
are based on sound science and the public interest. In this context, I 
will look into the issue of whether all of our Department bureaus have 
adequate funding for necessary science research.
       Responses of Ken Salazar to Questions From Senator Johnson
    During the past administration, numerous lawsuits arose between 
tribal governments and the Department of the Interior (DOI) that may 
have been avoided through better consultation and inclusion of tribal 
leaders in the decision making process. These lawsuits have been costly 
to both the DOI and the tribal governments who felt they had no other 
alternative but risk the loss of services on which Indian people 
depend. Some recent examples include the consolidation of Bureau of 
Indian Education (BIE) line officers to regional offices away from the 
reservations and the detailing of tribal police officers to far away 
reservations with little or no communication to the affected tribal 
governments. Understandably, not all consultation can yield a result 
that will make all tribes happy in the end. However under the previous 
administration, tribes at times felt that litigation was their only 
effective means to force the DOI to listen to tribal concerns. At times 
this lack of consultation has created an ``us against them'' attitude 
in the Great Plains which harms all BIA programs but can also often be 
avoided through meaningful consultation with tribal leaders. 
Consultation does not mean that Interior must always follow every 
tribal request.
    Question 36. What do you plan to do manage tribal consultation to 
avoid unnecessary legal challenges like those that have sprouted during 
the previous administration?
    Answer. I am committed to having the Department engage in 
meaningful government-to-government consultations with affected tribes 
on matters of importance to them. I agree that consultation is far 
preferable to litigation in addressing and resolving issues.
    Question 37. Tribal governments who have for years watched funding 
for programs and services decline while administration expenses and 
staff continue to grow are understandably disheartened. These 
suspicions are then fed by reports of waste, fraud, and abuse, such as 
the GAO Report on the Indian Health Service titled ``Mismanagement Led 
to Millions of Dollars in Lost or Stolen Property and Wasteful 
Spending.'' Tribal leaders and program directors forced to make due on 
shoestring budgets become understandably irate and distrustful of 
administration staff thereby further hindering the Bureau's ability to 
accomplish its mission. Increased transparency on the use and 
allocation of appropriations, broken down by program and administrative 
expenses, would lead to greater understand by tribes and accountability 
by BIA staff.
    Conversely, public corruption and the misuse of funds by tribal 
administrators has caused great suffering among tribal members who rely 
on program funding that may never benefit the people it was intended to 
serve. Aggressive prosecution of public corruption by tribal officials 
will be instrumental in preventing future abuses and setting an example 
for tribal youth. What sort of oversight would you propose to help 
eliminate fraud, waste and corruption before it negatively impacts the 
people served by tribal programs?
    Answer. Eliminating fraud, waste and corruption in all Interior 
Department programs, including in the BIA, will be a priority for me. I 
know that I have the full support of President Obama in making this a 
priority.
      Responses of Ken Salazar to Questions From Senator Menendez
    Question 38. The lands bill that we have all worked so hard to get 
to the floor this week includes a provision to allow Paterson Great 
Falls to become a national historical park. No other site in the nation 
more richly represents the remarkable transformation of a rural 
agrarian society based in slavery into a modern global economy based in 
freedom. Even though the bill will soon become law, the park will not 
become a reality without the support of the National Parks Service. 
Senator Salazar, will you work to forge a cooperative and constructive 
working relationship between the National Park Service, the State of 
New Jersey and the City of Paterson so the Paterson Great Falls 
National Historical Park?
    Answer. If Congress enacts this legislation, we look forward to 
working with you, and with the City of Paterson to form a productive 
partnership for the present management of this Park. Senator Stabenow
    Question 39. The Great Lakes are an inseparable part of Michigan's 
identity and history. One symbol of that identity are the over 120 
lighthouses that define our shorelines--more lighthouses than any other 
state in the United States. The oldest Michigan lighthouses are over 
180 years old, dating back to the 1820's.
    Over the years I have been working to maintain and protect our 
lighthouses--the National Park Service (NPS) has jurisdiction over 
about 49 and Fish and Wildlife Service has 5. I passed legislation in 
2006 that requires NPS to conduct a study to make recommendations to 
the State of Michigan and NGOs on steps forward to protect our 
lighthouses. I look forward to working with you so that we can finally 
begin the study and recommendation so that stakeholders can improve the 
management of our lighthouses.
    Also, I cosponsored a bill with Senator Levin that would offer 
grants to states and NGOs to protect and improve the conditions of 
lighthouses. I look forward to working with you to find ways that 
National Park Service and Fish and Wildlife Service can work with 
stakeholders to improve lighthouse management.
    Answer. I, too, believe that lighthouses are an important part of 
this Nation's heritage. I look forward to working on finding ways to 
protect this heritage.
      Responses of Ken Salazar to Questions From Senator Stabenow
    Question 40. I would like to bring to your attention a very 
important issue facing the Great Lakes. Double-crested cormorants 
reside in many locations throughout North American, but in the Great 
Lakes the populations are at inexplicable all-time highs. This 
explosion is causing a crash in some sport and recreation fish stocks 
including perch, brown trout, and smallmouth bass throughout the Great 
Lakes region. The Michigan Department of Natural Resources--Fisheries 
Division--has found a correlation between the rising cormorant 
population and decreasing fisheries. Furthermore, I have heard from 
countless constituents and businesses in Michigan who have experienced 
firsthand the negative impact that cormorants pose to our fisheries and 
local economies. Commercial and recreational fishing are not only a way 
of life for many people in Michigan, but they also contribute about $2 
billion a year to our economy.
    The United States Department of Agriculture's Wildlife Services 
conducts cormorant control activities throughout Michigan. Over the 
past seven years I have worked closely with USDA Wildlife Services and 
the Michigan Department of Natural Resources on this important issue. I 
have personally led the effort to secure Federal funding so that the 
USDA Wildlife Services can implement these control projects. The 
success of these projects has shown positive results in beginning to 
control and stabilize the bird's population in targeted areas. At the 
same time, the population of our fisheries has started to rise within 
those same areas.
    However, the job is far from over. There are still many cormorant 
colonies located on islands within the Great Lakes that are owned and 
managed by the U.S. Fish and Wildlife Service. Over the years, USDA 
Wildlife Services has requested access to some of these islands to 
conduct control projects and have often been denied by the U.S. Fish 
and Wildlife Service.
    I believe it is essential that these two Federal agencies partner 
and work together in order to achieve a stable population of cormorants 
throughout the Great Lakes and preserve our fisheries. Senator Salazar, 
I hope you will consider strengthening the level of cooperation and 
coordination between these two Federal agencies and I look forward to 
working with you to ensure that the fisheries of the Great Lakes are 
protected.
    Answer. I understand the U.S. Fish and Wildlife Service has issued 
and defended in court regulations to allow the Department of 
Agriculture, states and local governments to take appropriate actions 
to control cormorant populations in certain instances. I recognize the 
need to conduct these control activities and look forward to working 
with you to protect the important fisheries of the Great Lakes.
    Question 41. The Endangered Species Act is the leading law designed 
to protect the nation's biodiversity. For at least three Michigan 
species--the Canadian Lynx, piping plover, and the gray wolf, 
management and recovery decisions have been criticized for not being 
based on the best available science.
    A recent investigation by Interior's Inspector General estimated 
that political interference has caused ``the unnecessary expenditure of 
hundreds of thousands of dollars.''
    As the new Secretary, what steps will you take to work with 
stakeholder and landowners to improve science-based decision-making as 
well as on the ground recovery efforts such as habitat restoration?
    Also, what can we be doing more of since many species such as the 
Kirtland Warbler live primarily on private lands and require intensive 
habitat management?
    Answer. I have already made it clear to both my team and the career 
staff at Interior that I expect science-based decision-making to be 
conducted with scientific integrity, in an atmosphere of openness and 
under the highest ethical standards, and without interference.
    Question 42. Fish and Wildlife Service (FWS) has authority under 
the Great Lakes Fish and Wildlife Restoration Act to perform on the 
ground conservation activities in the Great Lakes Basin. This program 
is especially useful to environmental and conservation advocates. From 
1998 to 2006 the Act helped support 72 projects with $3.9 million in 
Federal dollars and $2.7 million in non-Federal matching dollars. These 
projects were completed with 62 different partner organizations. 
However, it could do much more. The annual authorization is $16 million 
and in 2007 it only received $1.77 million. The success of this program 
could be tremendous with a more support from the Administration.
    Furthermore, FWS is an important partner to the Great Lakes 
Interagency Task Force. There is a FWS liaison in EPA's region 5 office 
to help serve the Great Lakes National Office. Since FWS is the leader 
in habitat restoration and wildlife management in the Federal 
government I look forward to working with you to increase the on the 
ground conservation and restoration work in the Great Lakes Basin.
    Answer. I will consider your concerns as we craft the 2010 and 2011 
budget for the Fish and Wildlife Service.
      Responses of Ken Salazar to Questions From Senator Murkowski
    Question 43. Senator Salazar, here on the Energy Committee, we take 
pride in the good working relationship between the majority and 
minority, both Senators and our staff. If confirmed, will you pledge to 
cooperate in this type of a working relationship with all Senators on 
this Committee, Democrat or Republican--by promptly responding to any 
written or phone inquiries, sharing information as soon as it becomes 
available--and directing your staff to do the same?
    Answer. I plan to continue working with the Committee and its 
Members in a cooperative, bipartisan way and in a manner consistent 
with my responsibilities to the President.
    Question 44. As we seek to increase conservation and develop new 
sources of renewable energy, we cannot lose sight of how important it 
is to produce more oil and natural gas here in America in the near-
term. As Secretary of the Interior, you would be at the center of this 
debate and you would have significant influence over its outcome. Will 
you join us in encouraging greater production of our nation's 
resources, both on and offshore?
    Answer. Conservation and renewable energy deserve much more 
emphasis than they have been given, and are the cornerstones of a 
climate friendly energy policy. There is also, however, no question 
that the Nation will need to continue to produce oil and gas as a 
bridge to this energy future. I look forward to working with the 
Committee to balance these important tasks.
    Question 45. Last year, most congressional legislation to increase 
domestic production fell into one of two categories: bills that would 
have opened new lands to development, and bills that sought to increase 
production from existing leases. Do you believe that one of those plans 
has more merit, or would be more effective, than the other?
    Answer. I have been troubled by the fact that the Bush 
Administration has moved to open lands in environmentally sensitive 
areas to development at a time when many existing leases are not being 
explored or brought into production. It may be that a balanced energy 
policy involves opening new lands where it is environmentally 
responsible to do so while also funding ways to encourage more 
production from existing leases.
    Question 46. Every year, a significant number of Federal leases are 
delayed by litigation from environmental and other groups opposed to 
development. Would you take any action to restrain the impact these 
lawsuits are having on domestic production?
    Answer. The government has for many years issued leases for 
millions of acres of land and approved many thousands of permits to 
drill these leases. It is my understanding that only a small number of 
these are challenged in court. Litigation challenging governmental 
decisions has long been a prominent feature of American government. It 
is not limited to environmental groups, as the oil and gas industry 
itself has brought major challenges to Interior decision-making. My 
view is that governmental officials should do the best they can to make 
fully informed decisions with integrity and a good faith attempt to 
comply with applicable legal requirements.
    Question 47. To develop a typical lease, companies are often 
required to obtain or complete dozens of permits and plans. This can 
add months, if not years, to the length of time it takes to bring 
resources to market. Will you consider or support any initiatives to 
streamline the development process?
    Answer. I will look at permitting processes to make sure they are 
efficient and user-friendly and that they accomplish beneficial public 
purposes. I am interested in streamlining and coordinating regulatory 
programs and ensuring that our oil and gas resources are explored, 
developed, and produced in a manner that is environmentally sound and 
technologically safe.
    Question 48. This past July, the Minerals Management Service 
announced that it would begin developing its next 5-Year Program for 
OCS lease sales. Do you support that initiative? Will you instruct the 
agency to continue this effort if you are confirmed as Secretary?
    Answer. There is currently a five-year program in place that runs 
through 2012. I understand that on Friday, January 16, the Bush 
Administration proposed a new five-year plan for review and comment for 
the period. I intend to look closely at that proposed plan and 
determine whether it is appropriate and consistent with the President's 
priorities.
    Question 49. Do you support royalty relief as a financial incentive 
to boost offshore production? Would you seek to recoup any portion of 
the royalties lost due to the accidental omission of price thresholds 
in deepwater leases issued in 1998 and 1999? Would you appeal the Fifth 
Circuit Court's decision in the case of Kerr-McGee v. Burton?
    Answer. The original idea of royalty relief was to encourage the 
development of technology to develop oil and gas in deep waters in the 
Gulf of Mexico. From what I can tell, that technology has been 
developed, which suggests that the question of royalty relief may 
deserve re-examination. I understand that some 1998 and 1999 lessees 
have agreed to price caps for those leases despite the bureaucratic 
error. I believe they all should do so. More broadly and more 
important, Anadarko, the successor to Kerr-McGee, prevailed in the 5th 
Circuit Court of Appeals, which upheld a court ruling that the 
government must grant royalty relief to all leases issued offshore 
between 1995 and 2000 no matter how high the price of oil climbs and no 
matter how large the oil companies' profits. I look forward to working 
with you and other members of Congress to examine the implications of 
that decision and will be working with the Department of Justice on the 
issue of appealing this decision.
    Question 50. Your home State, Colorado, is one of several western 
states that possess tremendous reserves of oil shale. As a Senator, 
however, you sometimes sought to slow down Federal efforts to develop 
this resource. Do you agree that oil shale production will be critical 
to the long-term energy security of the United States? What do you 
believe is a realistic timeframe for development?
    Answer. Energy security will come from a diversity of domestic 
energy sources. Right now it appears that oil shale is both expensive 
to produce and creates some resource pressures--water and climate 
impacts, for instance--that may make oil shale less desirable than some 
other renewable energy sources over time. As a result, I am not certain 
what is a realistic timeframe for development.
    Question 51. You recently described the Bush Administration's final 
regulations for commercial oil shale leasing as ``flawed'' and 
``premature.'' As Secretary of the Interior, would you seek to overturn 
or re-write those regulations?
    Answer. As I noted in response to a previous question, these 
regulations, and others, will be reviewed in detail once my team is in 
place. Once that review occurs I will determine the best path forward 
for these regulations.
    Question 52. As you know, there are currently five oil shale RD&D 
leases on public lands in Colorado's Pineance Basin. Would you support 
additional RD&D leasing in Colorado and other western states? Under 
what circumstances would you support a competitive commercial leasing 
program?
    Answer. We definitely need significantly more research and 
development related to the prospect of oil shale development. I am not 
prepared to say whether this would require additional R&D leasing. I 
believe we are years away from the conditions that would justify a 
commercial leasing program. Industry leaders themselves agree that 
conditions for ``commercial'' development are not on the immediate 
horizon.
    Question 53. As a Senator, you have indicated that you favor 
additional requirements designed to increase production from existing 
leases. What specifically do you support? Would you attempt to shorten 
the primary term of leases? Raise annual rents? Increase royalties on 
production?
    Answer. Certainly the ten year lease term for onshore oil and gas 
leases deserves close scrutiny. The fact that most leases issued are 
not explored or developed means that these resources are in fact tied 
up for a decade, and not available to other companies who might be 
willing to bring their resources into production. If confirmed, I 
intend to look at this matter closely, including looking at other 
potentially useful tools that might spur more production on these 
leases.
    Question 54. Do you believe that ``diligent development'' 
regulations should be promulgated?
    Answer. I can not say right now whether the need exists for 
regulations to govern this matter.
    Question 55. In Section 388 of the 2005 Energy Policy Act, Congress 
directed the Department of the Interior to issue leases, easements or 
rights of way for alternative energy projects on the Outer Continental 
Shelf. To date, however, the Minerals Management Service (MMS) has not 
issued its Final Rule on offshore energy production and no leases or 
other permits have been granted pursuant to this authority. When do you 
expect the MMS to have its offshore energy program up and running?
    Answer. I believe the offshore alternative energy program has great 
potential to help meet the Nation's energy needs. I intend to make sure 
this rule allows that program to move forward consistent with sound 
protection of the environment. The development of this program will be 
one of my highest priorities.
    Question 56. The offshore wind development in Nantucket Sound, 
commonly referred to as the ``Cape Wind'' project, has been under 
development since 2001. After extensive review pursuant to the National 
Environmental Policy Act, all that remains is for MMS to issue a Final 
Environmental Impact Statement (FEIS). However, some in Congress have 
publicly urged MMS to delay the issuance of the FEIS in order to allow 
the Coast Guard to develop a national set of navigational safety 
standards for offshore renewable facilities--even though there is 
nothing in the statute or in the regulations that requires such an 
undertaking. Can you commit to a time certain for a decision on the 
Cape Wind application? How quickly can additional offshore wind project 
applications be processed?
    Answer. I understand that Secretary Kempthorne recently released 
the Final Environmental Impact Statement on the Cape Wind project. I 
intend to review the EIS and then make appropriate decisions on how to 
proceed.
    Question 57. As you may know, there has been an ongoing dispute 
between MMS and the Federal Energy Regulatory Commission (FERC) 
regarding the development of hydrokinetic projects on the OCS. In 2007, 
MMS and FERC officials negotiated an interagency agreement to guide the 
development of these resources. Pursuant to that draft agreement, MMS 
would be responsible for leasing non-conventional hydropower projects 
on the OCS and conducting any necessary environmental studies. FERC 
would then be required to license the project at the back end of the 
process. That agreement was never finalized however and the 
jurisdictional issue remains unsolved. As the Secretary of the 
Interior, will you work with FERC on this issue to give the nascent 
hydrokinetic industry certainty or does Congress need to legislate this 
interagency dispute?
    Answer. I am aware of the broad outlines of this dispute. I agree 
that it needs to be resolved expeditiously so this promising technology 
can move ahead.
    Question 58. As members of this Committee's Public Lands and 
Forests Subcommittee, we share a frustration over the increased costs 
of Federal fire fighting and the impacts of these costs on other 
Federal resource programs.
    As Interior Secretary, will you make it a priority to decrease 
Federal fire fighting costs?
    Answer. I cannot commit that Federal fire-fighting costs will be 
decreased. I agree, however, that it is not appropriate that Federal 
firefighting costs be charged against unrelated program needs of our 
Federal agencies. We need to have adequate Federal resources to respond 
to wildfires that affect Federal lands.
    Question 59. We often talk only in terms of fire suppression costs 
and not the long-term costs of destroying large swaths of forests in 
these fires. Will you commit to this Committee to express the total 
costs of these fires, including the long-term modification of soils and 
water quality, when discussing the issue in the future?
    Answer. This is a very good question. The Department of the 
Interior, alongside its partners in land management at the U.S. 
Department of Agriculture and other agencies, is learning more about 
the costs of prevention and restoration, water and soil impacts. We 
will work closely with this Committee and the Congress as a whole to 
ascertain the costs and needs regarding the multiple impacts of 
catastrophic wildfire in the West.
    Question 60. As of July 2008, BLM had received over 150 unsolicited 
applications to produce solar power on its lands. These applications 
cover over 1 million acres of Federal lands, representing 70,000 MW in 
total capacity. While BLM had issued a moratorium on new applications 
in order to process its existing back-log of applications, intense 
Congressional interest led BLM to lift the moratorium just days after 
its announcement. Does Congress need to provide BLM with some 
legislative direction for processing the agency's voluminous solar 
applications?
    Answer. I believe development of alternative energy, including 
solar power, is a priority as we seek to reduce our dependence on 
unstable foreign sources of energy. I plan to work with the BLM to 
develop ways to process these applications to produce solar energy on 
public lands. If additional legislative authority is needed to 
accomplish this, I will not hesitate to notify the Congress.
    Question 61a. On December 19, 2008, a University of Utah student 
reportedly bid $1.8 million for 13 lease parcels near Arches and 
Canyonlands National Parks. During the auction in Salt Lake City, his 
actions may have driven up other bids by approximately $500,000. 
However, according to press reports, this student ``has no intention of 
paying the full $1.8 million for his lease parcels.'' Do you agree with 
me that allowing such game playing during BLM lease auctions could 
drive legitimate bidders away from the process, thus depriving the 
Federal government and states of the royalties they could expect?
    Answer. I don't approve of this kind of activity. If you bid for 
something, you should bid with the intention of paying the amount bid. 
However, there are numerous protests against this lease sale, which was 
rushed, and, as a result of this rushed process, the courts have 
applied a temporary restraining order against consummating the leases.
    Question 61b. Will you commit to finding an administrative means to 
discourage this mischief?
    Answer. I am will look into this issue and evaluate whether this 
type of activity needs to be addressed through an administrative 
process.
    Question 62. Alaska's fire season generally occurs in early-to-mid 
summer and there have been times when the State has had problems 
getting Federal fire fighting aviation assets transferred due to fires 
in other states. As you know, BLM has made a sizeable investment in 
fire fighting in Alaska. Will you commit to ensuring that Alaskan fire 
fighters receive equal consideration when requesting additional 
personnel and equipment when it is needed?
    Answer. I intend to work with the Secretary of Agriculture to 
examine our current fire-fighting policy and procedures including 
looking at the resources devoted to firefighting in Alaska.
    Question 63a. In 2006, there were more than 55 million recreational 
visitors to BLM-managed lands.
    As Secretary, do you plan to provide diverse recreational 
opportunities on BLM units?
    Question 63b. Would you support the additional funding necessary 
for increased recreational opportunities on BLM lands?
    Question 63c. What is your position on the responsible use of off-
highway vehicles on BLM lands?
    Answer. I believe much of the land that BLM manages has outstanding 
recreational opportunities and I support providing diverse recreational 
opportunities on those lands. I expect to take a serious look at BLM's 
funding needs. I believe off-highway vehicles have a place on Federal 
lands. Hunters, ranchers, and others use them for access. Most 
recreational ORV users are responsible and take pains to stay on trails 
and rights-of-way designated for their use. I will look closely at ways 
for BLM to expeditiously complete travel plans for the lands it 
manages, to make clear where ORV use is and is not appropriate, so that 
responsible ORV use can continue while protecting other values and uses 
of the lands.
    Question 64. As we seek to reduce greenhouse gas emissions, nuclear 
power has emerged as a reliable and affordable source of carbon-free 
power. While the United States currently imports 83 percent of the 
uranium needed to power our reactors, we have large reserves of this 
resource within our own borders. Uranium production, however, has 
become increasingly controversial, as evidenced by attempts in the 
110th Congress to unicamerally withdraw over a million acres from 
mining. If confirmed, will you ensure consultation with members of this 
Committee before undertaking Administrative actions related to hardrock 
mining?
    Answer. I agree that nuclear power has a place in our energy 
future. Nuclear power is not, however, constrained by lack of uranium, 
because supplies are plentiful and the two biggest sources of it, 
Australia and Canada, are friendly nations. Uranium is a locatable 
mineral governed by the Mining Law of 1872, which, as I said at my 
hearing, needs reform in part because it does not include modern 
environmental standards. I understand that the House Natural Resources 
Committee took action regarding potential uranium mining near the Grand 
Canyon due to concerns about possible contamination of the Colorado 
River from uranium mining. I intend to take a close look at this issue 
and I will consult with the Committee on it, as appropriate.
    Question 65. Under what circumstances, and at what point in time, 
do you believe the Federal government should be able to say ``no'' to 
the development of a hardrock mining operation on public lands?
    Answer. I believe that the Federal government should be able to say 
no to the development of a hardrock mining operation on public lands 
when that operation poses environmental threats that cannot be 
mitigated. As I said at my confirmation hearing, the Mining Law of 1872 
needs reform in part because of the confusion that surrounds this 
issue. I look forward to working with the Congress in pushing reform 
across the finish line.
    Question 66. Hardrock mines on Federal land currently pay no 
royalty on the minerals extracted. The 5th amendment to the 
Constitution prohibits the taking of property without just 
compensation, and policy considerations require a great deal of care be 
taken to account for assumptions made by those investing in the 
development of a mine. What do you believe is the most appropriate way 
to go about imposing a royalty, if the Congress should choose to do so? 
Who should it apply to, and when?
    Answer. As I said at my confirmation hearing, a major shortcoming 
of the Mining Law of 1872 is that, almost alone among all users of 
Federal land, patents are issued under that law without the payment of 
a rental or royalty or other fee. I have great respect for the Fifth 
Amendment and its protection of property rights, but it is relevant 
that the Supreme Court of the United States has repeatedly held, in 
decisions going back many decades, that mining claims create property 
rights good against the United States only if the claimant can show a 
discovery of a valuable mineral deposit. I also agree, of course, that 
it is appropriate for Congress to take into account whatever property 
rights that holders of valid mining claims may have when designing a 
royalty approach as part of Mining Law reform, and I look forward to 
working the Congress on this important matter.
    Question 67. There is a great deal of support for the development 
of a robust, domestic manufacturing base for batteries and other energy 
storage devices. Do you believe it is important that the raw materials 
needed for those batteries come from within the United States as well?
    Answer. Yes, if possible and economically feasible.
    Question 68. Liability concerns are among the most significant 
impediments to cleaning up abandoned mine lands. Will you support 
liability relief under the relevant environmental statutes for those 
Good Samaritans who voluntarily clean up abandoned mine sites? More 
importantly, what kinds of regulatory and legislative incentives would 
you create, or recommend creating, through the land management programs 
you would oversee as Secretary of the Interior in order to ensure the 
timely clean-up of abandoned mines?
    Answer. As you know, I have long been a proponent of Good Samaritan 
legislation, and I look forward to working with Congress to bring this 
across the finish line.
    Question 69. The Mineral Leasing Act provides for the deferred 
payment of bonus bids for Federal coal leases in equal installments. It 
has been suggested that this be changed to require the payment of the 
entire bonus bid at the time of sale. From 1996-2006, the average bonus 
bid for oil and gas leases was approximately $39,000, while the average 
bonus bid for a Federal coal lease was $60 million. Given these 
significant differences in capital requirements, and accounting for the 
worldwide credit crunch that we are experiencing, do you believe it is 
advisable to eliminate the practice of bonus bid deferrals?
    Answer. I look forward to being briefed on the subject and 
developing an approach that is fair and balanced. I understand the 
previous Administration supported changing the law with regard to the 
deferred payment of bonus bids for Federal coal leases. While the 
average bid for a Federal oil and gas lease may be low compared to 
coal, there are many thousands of oil and gas leases auctioned off, and 
only a handful of coal leases. Quite a few oil and gas leases attract 
bonus bids that equal or exceed the bonus bids of coal leases. I intend 
to look closely at this.
    Question 70. A great deal of the Department of the Interior's 
actions require the completion of environmental analyses. Do you 
believe that the consequences of global climate change should be 
considered in carrying out the requirements of the National 
Environmental Policy Act?
    Answer. The purpose of the NEPA process is to consider what the 
effects of proposed project may have on the environment. This can 
include what effect the project may have on global climate change. I 
recognize that these can be special challenges in evaluating the 
relationships between individual projects and climate change, and I 
will look for the Council on Environmental Quality, which administers 
NEPA, for its input on this issue.
    Question 71. It is a consistent refrain that permitting delays pose 
a risk of undermining our energy security, wasting taxpayer dollars, 
and undercutting the efficiency of government. If it is warranted, I 
think most of us would like to avoid doing the same work twice. As a 
general rule, what do you believe is an appropriate shelf-life for 
analyses conducted pursuant to the National Environmental Policy Act?
    Answer. I am always in favor of streamlining regulatory processes 
where the goals of the regulation can still be achieved I intend to try 
to achieve that objective wherever possible. I do not believe that 
there is a general rule with regards to the shelf life of an analysis 
conducted pursuant to NEPA. That depends on the nature of the analysis 
and the extent to which a situation has changed over time or 
environmental concerns or pressures have changed.
    Question 72. As Secretary, will you attempt to update or reform the 
Endangered Species Act? Do you believe that it is acceptable to use the 
ESA to address climate change?
    Answer. The Endangered Species Act has been successful in helping 
prevent hundreds of species from sliding into extinction, and it has 
promoted more sustainable management of vital natural resources across 
the country. It and other wildlife laws have been instrumental in 
preserving the whooping crane, manatees in Florida, sea otters in 
California, the bald eagle, the California condor, and the American 
alligator. Unfortunately, many reports have documented how ESA 
administration has suffered in recent years, undermining the confidence 
of the Congress and the public in the Department's scientific 
integrity. One of my top priorities is to ensure effective 
implementation of the ESA based on solid science and transparent 
processes, to restore scientific integrity to ESA decision-making and 
to clearly distinguish between policy choices and scientific judgments. 
The ESA has been most successful where the Federal government has 
worked with states, tribes, local governments and private landowners. 
As Secretary, I will reach out to and engage these partners to assure 
the protection and recovery of listed species, to best address the 
intersection between the ESA and climate change, and to proactively 
identify and protect vital habitats before the plight of species 
becomes so dire as to warrant action under the ESA.
    Question 73. The Department of the Interior recently published a 
final regulation related to Section 7 of the Endangered Species Act. 
The rule clarifies the consultation process that Federal agencies must 
follow for projects that could impact listed species or critical 
habitat. Do you agree with this new regulation, or will you review and 
possibly overturn it?
    Answer. During the campaign, President-Elect Obama expressed 
serious concerns about these changes as limiting the effectiveness of 
the consultation process, which is a lynchpin of the statute. I intend 
to take a close look at this matter, in consultation with the Secretary 
of Commerce (the regulations are a joint enterprise of the U.S. Fish 
and Wildlife Service and the National Marine Fisheries Service in 
Commerce), with members of Congress and with all affected stakeholders.
    Question 74. As the National Park Service's centennial year 
approaches, what do you see as priorities for the agency?
    Answer. Our national parks--as well as our refuges, forests, 
rivers, and seashores--are national treasures. As I look ahead to the 
park system's centennial in 2016, I want to ensure that we make the 
investments we need--historic investments--to make the system the best 
it has ever been.
    Question 75. In your opinion, which National Park Service projects 
should be included in the economic stimulus package now under 
development?
    Answer. The House and Senate are working on economic recovery 
packages that include significant funding for Department of the 
Interior programs. In this context, I cannot discuss funding for 
individual projects at this time, although I will note that there is a 
well-documented backlog of long-deferred projects in the National Parks 
which stimulus funding could and, I believe, should address.
    Question 76. Last year, you and I were among the members of this 
Committee who voted in favor of legislation to allow firearms in 
National Parks, as authorized by state law. Along with more than half 
of the Senate, we also signed onto a letter to Secretary Kempthorne on 
this topic. As Secretary, would you support the rule he issued to allow 
carry of firearms?
    Answer. I am a strong supporter of the Second Amendment. I plan to 
review all of the regulations that went into effect at the end of the 
previous Administration.
    Question 77. Will Interior lead actions to address public concerns 
about improper, inefficient, and restrictive recreation fees on Federal 
lands and waters? Will you seek consensus on fee policies and their 
implementation well in advance of the scheduled sunset of present fee 
authority in 2014?
    Answer. As you know, I was on record in the Senate as expressing 
concerns with the recreation fee program particularly with regard to 
certain fee requirements of the U.S. Forest Service and the Bureau of 
Land Management. As Secretary of the Interior, I plan to take a close 
look at the recreation fee program at Interior to ensure that it is 
implemented fairly and clearly.
    Question 78. Will you provide leadership and institutional support 
for seeking, managing, and recognizing volunteers on the lands and 
waters administered by Interior, whether through Take Pride in America 
or other programs? Will you encourage growth in ``voluntourism?''
    Answer. As President Obama said in his Inaugural Address, ``For 
everywhere we look, there is work to be done.'' Volunteerism is 
essential in Interior's management and conservation of the lands and 
water we administer. I am a strong supporter of volunteerism, and will 
look for opportunities to take advantage of our fellow citizens' 
willingness to give their time and energy to our natural and cultural 
resources.
    Question 79. Do you agree that concessioners are vital to providing 
quality experiences for park visitors? How can this partnership be 
strengthened?
    Answer. Yes, concessioners are vital to the experiences for many 
park visitors. As we move forward in this time of constrained budgets 
and economic uncertainty, partnerships are essential as we look to 
preserve and protect part resources.
    Question 80. Would you consider expanding the use of ``qualified 
public volunteers'' to cull overpopulated species on lands administered 
by the National Park Service, as a mechanism to control both wildlife 
populations and agency costs?
    Answer. Yes.
    Question 81. Please describe the role you see for the Bureau of 
Reclamation during this century.
    Answer. The Bureau of Reclamation has an important role to play, 
particularly in helping the Nation cope with the effects of climate 
change, better managing our rivers to protect aquatic habitats, and 
facilitating the settlement of Indian water rights, while still serving 
its historic role of providing water for agriculture, municipal and 
industrial uses. It has the expertise and talent to be of great 
assistance in these matters, working with state and local water 
agencies and other stakeholders.
    Question 82. As the Secretary of the Department of the Interior, 
what actions do you propose to address water shortages in the west, in 
particular water shortages caused by drought and climate variability?
    Answer. President Obama is committed to working to address these 
challenges and understands the important role of states in developing 
solutions to these challenges. As a lifetime resident of the rural 
West, I am thoroughly familiar with these issues. If this winter is 
relatively dry, some parts of the West may be hit with water supply 
disruptions--California is already in the grips of a multi-year 
drought--and large numbers of wildfires. These can implicate many 
Interior Department responsibilities, including dam operations, water 
deliveries to Federal projects customers, endangered species 
protection, and wildfire policy and the budget for firefighting. I 
intend to spend considerable time addressing these issues.
    Question 83. Please describe the methods you will incorporate to 
meet the Bureau's increasing operational, maintenance and 
rehabilitation obligations in light of decreasing budgets. Does one of 
the methods involve loan guarantees to Bureau customers? If so, how do 
you propose to implement the loan guarantee program?
    Answer. I recognize the seriousness of this issue, and will look 
forward to working with the Bureau on creative approaches for 
developing financing alternatives for Bureau of Reclamation customers.
    Question 84. How you would address the backlog of projects within 
the Title XVI water recycling program at Reclamation?
    Answer. As I stated above, these many projects are subject to 
funding constraints. We will carefully review the list of projects and 
work with this committee to develop a fair and sensible way of 
addressing these proposed projects.
    Question 85. Please describe the type of desalination research that 
should be undertaken by the USBR. Furthermore, please describe how you 
would coordinate the USBR research with that being undertaken by other 
Federal agencies.
    Answer. Reclamation has operated the Yuma desalination plan on an 
experimental basis and I understand that it has developed other ideas 
for experimentation and research in this area. I will ensure 
coordination with other agencies as part of the Administration's 
overall efforts to deal with this and related issues.
    Question 86. Please describe the Bureau's role in meeting rural 
water supply needs throughout the Western United States.
    Answer. As noted earlier, Reclamation provides large quantities for 
irrigation and other uses. We will work to improve efficiency and work 
with states, Indian tribes and local interest groups to ensure that 
rural water needs are met.
    Question 87. In your opinion, do we have an adequate understanding 
and knowledge of our water resources?
    Answer. We have a lot of knowledge, but we can always learn more. I 
look forward to learning about the USGS and Reclamation water census 
that is underway. I support the use of good science in this and all 
areas.
    Question 88. Please describe all of the un-adjudicated Indian water 
rights claims in the western United States that this Administration 
will be addressing over the next few years.
    Answer. I previously stated that water settlements are important to 
me. Once my team is in place, we will review these matters for priority 
and appropriate action.
    Question 89. Please describe how you will secure a commitment from 
OMB that a reasonable Federal contribution will be made available for 
Indian water rights settlements.
    Answer. As I have mentioned, Indian water rights settlements will 
be a priority for me, and I will work with OMB, the U.S. Department of 
Justice, and the Congress to secure appropriate Federal contributions 
toward these important settlements.
    Question 90. Our nation's hunters, anglers, and other sportsmen 
have had clear lines of communication with the Department under 
Secretaries Norton and Kempthorne. Will you adopt a similar approach, 
and ensure that these important groups have the ability to communicate 
with your administration?
    Answer. I hope to establish clear lines of communication with all 
stakeholders affected by the programs of the Department of the 
Interior. I certainly recognize the importance of the Department's 
programs to the hunters, anglers, and other sportsmen of this country.
    Question 91. Access to public lands is integral to the 
sustainability of hunting, fishing, and other recreational and 
subsistence activities. How will the needs, interests, and priorities 
of those who participate in these activities be addressed in the 
policies and land management plans developed by your Department?
    Answer. I believe that hunters and anglers are a very important 
constituency of the Department of the Interior and I intend to consult 
frequently with their representatives. Many of the lands administered 
by Interior are open to fishing and many, especially BLM lands, are 
also open to hunting, and provide tremendous opportunities for this 
pursuit. I will work to strengthen our wildlife programs to enhance 
wildlife species to improve such opportunities. I am also strongly in 
favor of adopting programs that encourage young people, and 
particularly city kids, to engage with the outdoors, including becoming 
anglers and hunters, whose ranks are, in a worrisome trend, 
diminishing.
    Question 92. State and local wildlife and habitat managers have 
told us that many Federal decisions, such as the designation of 
wilderness areas, have a negative impact on their ability to properly 
manage wildlife populations. If confirmed as Secretary, what steps 
would you take to help ensure that these non-Federal officials are able 
to fulfill their responsibilities?
    Answer. In managing Federal lands, the Secretary of the Interior 
needs to play close attention to the concerns of state and local 
officials with responsibility for wildlife. I will do that. Federal and 
state wildlife officials need to work closely together in many 
situations.
                            alaska-specific
    As you know, I'm committed to the construction of a natural gas 
pipeline that will bring Alaska's gas to market.
    Question 93a. Do you support additional Federal incentives for the 
Alaskan Natural Gas Pipeline?
    Answer. I know that there have been many State and Federal 
incentives offered in the recent past. I need to study the current 
situation and assess the various ways of proceeding.
    Question 93b. In the Energy Policy Act of 2005, Congress provided 
for 10-year lease extensions in the National Petroleum Reserve in 
Alaska (NPRA). However, because the Alaskan Natural Gas Pipeline has 
not yet been built, it has been impossible for companies to develop 
their leases within the 10-year time period. Do you support changes to 
the NPRA lease terms?
    Answer. The President and I both support construction of a pipeline 
to bring North Slope natural gas to market as a bridge to a future more 
heavily reliant on renewable, carbon-friendly energy sources. While 
many decisions have to be made by the industry and the state before the 
permitting and construction process can move forward, I understand 
there is broad support for such a pipeline, to parallel and follow the 
route of the Trans-Alaska Pipeline and the Alcan Highway. Interior 
would have a role to place in issuing appropriate rights-of-way for 
such a project. I will examine whether additional extensions of leases 
in the NPRA are appropriate.
    Question 94. An issue of tremendous importance to my home state, 
Alaska, is the 1002 Area of the Arctic National Wildlife Refuge. If 
confirmed, would you support the development of this area, its 
permanent designation as wilderness, or leaving its status as it is 
today?
    Answer. Both the President and I are on record opposing drilling in 
the Arctic National Wildlife Refuge.
    Question 95. This past November, the U.S. Geological Survey 
released its assessment of gas hydrates located beneath the North Slope 
of Alaska. The survey indicated that up to 85.4 trillion cubic feet of 
this clean-burning resource may be present, but that additional 
research would be necessary to demonstrate that it is economically 
viable and possible to produce. Do you support additional research 
related to gas hydrates?
    Answer. It seems appropriate to conduct additional research on this 
matter.
    Question 96. As the Interior Secretary, the environmental community 
will likely press you to designate even more Federal lands in Alaska, 
perhaps by creating de facto wilderness areas via the Antiquities Act. 
However, the aptly named ``no-more'' clause in the Alaska Lands Act 
bars the withdrawal of more than 5,000 acre tracts in Alaska for more 
than a year absent Congressional approval. What is your position on 
land withdrawals under the Antiquities Act?
    Answer. I have not considered whether use of the Antiquities Act in 
Alaska is consistent with the ``no more'' clause. If the issue arises, 
I will examine the matter.
    Question 97. The Alaskan delegation did not support Secretary 
Kempthorne's decision to list the polar bear as threatened under the 
Endangered Species Act--particularly since there is no current 
population data that demonstrates a decline in the Beaufort or Chukchi 
bear populations. In the ESA designation, however, the Administration 
included so-called ``4(d)'' provisions to lessen the threat to 
subsistence hunting and oil and gas development. If confirmed, will you 
maintain the 4(d) provisions from the polar bear listing?
    Answer. I have committed to examining all of the regulations 
promulgated at the end of the previous Administration.
    Question 98. The U.S. Fish and Wildlife Service is considering 
listing dozens of Alaskan species under the Endangered Species Act, 
such as Beluga whales, walruses and seals. The North Slope Science 
Initiative (NSSI) was established in Alaska to produce sound science 
upon which to base these important policy decisions but funding for the 
NSSI has been very limited. Will you support additional funding for the 
NSSI?
    Answer. I can not make budget commitments on behalf of the 
Administration but can tell you we will examine this program in the 
development of the 2010 and 2011 budgets.
    Question 99. As we celebrate the 50th anniversary of Alaska's 
statehood, we are still waiting for the Federal government to complete 
the land conveyance promised to the State in 1959. Four years ago, I 
sponsored the Alaska Statehood Lands Conveyance Act to complete the 
conveyances within one year. While enactment of that legislation did 
improve the pace somewhat, approximately 35 million acres of land must 
still be transferred. If confirmed, will you commit to completing these 
land transfers?
    Answer. I understand that these conveyances are a high priority for 
BLM's Alaska staff, the State, and the delegation. I will look into 
what is needed to complete these land transfers.
    Question 100. Included in the Committee's omnibus lands package 
that just passed the Senate is a land-exchange involving the Izembek 
Wildlife Refuge. This legislation provides for a one-lane gravel road, 
from Cold Bay to the King Cove airport, for medical emergency cases. 
What is your position on this legislation? As Interior Secretary, will 
you support the package if the House passes it and sends it to the 
President for his signature?
    Answer. I cannot speak to the Administration's formal position on 
that specific provision, or on other particular provisions in the 
omnibus lands package, but during my tenure as a member of this 
Committee I was a proponent of this important legislation.
    Question 101. BLM has done a good job in recent years in funding 
the cleanup of abandoned oil wells in northern Alaska--wells developed 
by the government in National Petroleum Reserve as part of its 
government-led exploration efforts in the early 1980s. As Secretary, 
will you support this continued funding in the Interior Department's 
budget?
    Answer. I can not make budget commitments on behalf of the 
Administration but can tell you we will examine this program in the 
development of the 2010 and 2011 budgets.
    Question 102. One-size-fits-all policies are rarely appropriate for 
the unique public lands issues faced in Alaska. In recognition of this 
fact, the Department has established the Alaska Office of the Secretary 
(IOS-AK) and incorporated a Senior Advisor for Alaska into the 
Immediate Office of the Secretary here in Washington. If confirmed, 
would you continue these practices to help ensure that Alaska's needs, 
preferences, and priorities are considered?
    Answer. I am not prepared to make commitments on particular 
positions or programs at this time, but I recognize the historic 
importance of having a personal representative for Alaska in the 
Secretary's Office.
    Question 103. Roughly 60 percent of the lands designated as 
wilderness in America are located in Alaska. In addition, lands in 
review status--known as wilderness study areas--are treated as de facto 
wilderness. As Secretary, what will be your policy with regard to 
further wilderness designations in Alaska?
    Answer. Ever since the Wilderness Act was adopted in 1964, Congress 
has had the final say on whether areas of Federal land should be 
designated as wilderness. I believe the Congress is the appropriate 
place to make final, permanent decisions regarding such tracts. In 
general, I believe that lands that could qualify for wilderness 
designation by Congress ought to be managed to preserve the 
congressional prerogative to make that decision wherever possible. I 
look forward to working with Congress on this matter.
    Question 104. As we face unprecedented budget deficits, it is clear 
that funding for many programs will be hard to come by. With regard to 
the Department of the Interior, how would your budgetary priorities 
differ from those of the current administration? Can you identify any 
areas where the government should increase investment, and any areas 
where you think it should be spending less money?
    Answer. The President has stressed the importance of changing our 
nation's direction on energy and climate issues, and the Interior 
Department will play a central role in this new direction. It is too 
early to say how we will change programs and budgets to reflect this 
Administration's priorities.
    Question 105. As Colorado's Attorney General, you worked diligently 
to reduce crime in local communities and you will likely call upon that 
experience as you face similar challenges in American Indian and Alaska 
Native communities. What is your plan for developing safe and secure 
Indian communities, particularly with regard to resources needed to 
address the terrible domestic and sexual violence facing Native women?
    Answer. I support efforts like the Violence Against Women Act, 
which has been important fighting crime against women in Indian country 
and elsewhere. President Obama has stressed his support for tribal 
justice programs and law enforcement within Indian country. I plan to 
work with Congress and Indian country to develop and fund ways to 
address the issues.
    Question 106. The United States has a trust responsibility for 
Indian trust assets and resources, but has not lived up to its 
responsibility, particularly in terms of asset management. The Cobell 
lawsuit has brought many administrative deficiencies to light, and 
while there have been improvements over the years, trust reform remains 
one of the biggest issues facing the Department. How will you ensure 
that the Department is properly managing and accounting for Indian 
trust assets and resources?
    Answer. This is also an issue that is important to me. We will 
continue to support improvement of the trust management system and 
assess what additional steps need to be taken as we move forward.
    Question 107. The national unemployment rate is now above 7.2%, but 
as you know, it is often significantly higher in Native communities. 
How will you boost economic development, particularly with regard to 
energy, in Native communities? Would you support the inclusion of any 
Native development provisions in the stimulus bill that Congress will 
soon consider?
    Answer. I believe that energy development on Indian lands, 
including the development of alternative energy sources, must be 
pursued to boost economic development in Indian Country. Also, as I 
mentioned in a previous response, the House and Senate are both working 
on economic recovery packages that include significant funding for 
tribal infrastructure needs.
    Question 108. The Assistant Secretary--Indian Affairs (AS-IA) is a 
very important position for both Indian country and the Department. 
Unfortunately, three individuals were confirmed by the Senate for this 
position in the last Administration, and two or three others informally 
carried out the duties of that office in the absence of a confirmed 
appointee. This ``revolving door'' negatively impacted BIA's ability to 
advocate for its priorities within the Department and the 
Administration, and it was, quite frankly, unacceptable. Will you 
require an upfront commitment from whoever is chosen to serve as AS-IA 
that he or she will remain in the post for the duration of the new 
Administration?
    Answer. I will stress the importance of the need for a long-term 
continuance in this position, and will expect that the individual 
chosen to serve in it is committed to serving in it for the long-term.
    Question 109. Will you urge the new Attorney General, and will you 
yourself commit, to agree to enter settlement negotiations to resolve 
the 19-year-old legal fight over unpaid Indian Self-Determination 
contract support costs in the Ramah class action now on appeal in the 
10th Circuit? These costs are vital to sustain program levels for 
education, law enforcement, health, and many other essential 
governmental trust services to Indian people.
    Answer. I will review these issues with the Solicitor's office and 
the Department of Justice.
        Responses of Ken Salazar to Questions From Senator Burr
    It is clear that nuclear energy will continue to play an increasing 
role in expanding affordable, reliable and clean baseload power for our 
country's growing electricity needs. While the U.S. currently imports 
83 percent of the uranium needed to power our reactors, we have large 
reserves of this resource within our own borders.
    Question 110. Do you believe that we need increased domestic 
uranium production to wean the U.S. off of reliance of foreign 
supplies?
    Answer. Uranium mining creates impacts that need to be considered 
and addressed, and there is a long legacy of uranium mining impacts 
that must be cleaned up, particularly on the Navajo Nation. The 
development of the nation's first new large-scale uranium enrichment 
facility in decades, in New Mexico, may create new uranium demand. I am 
committed to ensuring that any new uranium mining in the United States 
is carefully and sensitively pursued.
    Question 111. If confirmed, will you ensure consultation with 
members of this Committee before undertaking Administrative actions 
related to hard rock mining?
    Answer. The Bureau of Land Management undertakes many 
administrative actions related to hard rock mining under the 1872 
Mining Law and the FLPMA. As I previously stated, I plan to continue 
working with the Committee and its Members in a cooperative, bipartisan 
way and in a manner consistent with my responsibilities to the 
President.
    Question 112. North Carolina is home to many treasures, one of 
which is the Cape Hatteras National Seashore. The National Park Service 
has been remiss in their requirement to prepare an off-road vehicle 
management plan for the park, and now we are faced with a situation in 
which a court-sanctioned agreement is dictating the use of this area 
while the Park Service works on a rule-making process that may take 
three years to complete. I look at this situation as it pertains to the 
future use of all our national parks by the American people. The issue 
of access to our national treasures is at stake here. I plan on 
reintroducing a bill that would reinstate the interim management plan 
to allow off-road vehicle use.
    Senator Salazar, if confirmed, will you commit to working with me 
to ensure Americans have access to our national parks?
    Answer. I understand that the NPS is very close to bringing to a 
conclusion the negotiated rulemaking process with regard to Cape 
Hatteras. I am certainly willing to work with you on issues relating to 
access to our National Parks.
    Question 113. Given that DOI controls around one fifth of the total 
land in the U.S., it stands to reason that a large portion of new 
transmission lines will run across public land to get energy from 
remote areas to market.
    As Secretary, how do you intend to deal with siting issues on 
public lands?
    Answer. Interior can play a critical role in helping our nation 
move toward energy security and sustainability, and this will be a very 
significant initiative for me. First, I plan to work closely with 
Governors, state wildlife agencies, state land trusts, and private 
landowners to make sure we choose the most appropriate corridors for 
transmission. Second, I expect to move quickly where transmission is 
needed, solving problems and addressing concerns. Like other Americans, 
I want results. And third, if we identify changes to speed up siting in 
a responsible fashion, I will pursue them. I will also help the 
Administration address critical issues such as cost allocation and 
financing of these grid improvements.
    Question 114. There is a great deal of support for the development 
of a robust, domestic manufacturing base for batteries and other energy 
storage devices. Do you believe it is important that the raw materials 
needed for those batteries come from within the United States as well?
    Answer. Yes, if possible and economically feasible.
    Question 115. On Tuesday on this week, Secretary Kempthorne and 
Director Bomar announced the centennial projects that received funding 
for 2009. The list contained $27 million for 9 projects in 9 states and 
the District of Columbia. A full two-thirds of the money ($18 million) 
went to a single project while no projects were funded in the Southeast 
Region. It is my understanding that the goal of the Centennial 
Challenge is to prepare all national park units for the centennial in 
2016. Giving so much to a single park unit is not consistent with that 
goal.
    If confirmed, can you commit to me that you will take a close look 
at the centennial program and ensure that the distribution is more 
equitable in the future?
    Answer. I believe that preparing the National Park System for its 
next century is one of the most important challenges of this 
Administration. I look forward to becoming more involved in the 
Centennial Program and examining its priorities for distribution of 
centennial funding.
    Question 116. The national parks represent America's heritage, and 
it is important we protect this national inheritance and ensure that 
our society receives the full benefit of our national parks for 
generations to come. The current Administration recognized this 
responsibility and under the leadership of the First Lady and Secretary 
Kempthorne launched the Centennial Initiative, comprised of both 
advocating for increases in the Park Service's operating budget, and 
launching the Centennial Challenge, a program that leverages the 
support of the philanthropic community to carry out important projects 
and programs throughout the National Park System. During the campaign, 
President-elect Obama stated: ``I am committed to addressing the 
funding shortfall that the National Parks Service has experienced, and 
ensuring that by 2016, the National Parks Service centennial, the 
national park system has the resources it needs to meet its unmet 
maintenance and operational needs.''. The philanthropic connection was 
the most important facet of the centennial challenge last congress, but 
proposed legislation stalled because it included a requirement for 
mandatory spending.
    As Secretary-designee, how do you envision carrying forward the 
important work that has been done to date on the centennial initiative, 
and how do you intend to carry out the commitment by President-elect 
Obama?
    Answer. While I am not at liberty to discuss specific projects, I 
am already examining opportunities with the economic stimulus package 
for providing funding for projects within our National Parks that will 
not only address some of the unmet needs of the National Park System 
but will also provide jobs for Americans. I also plan to work with my 
team and the NPS through the budget process on these important issues.
    Question 117. If confirmed as Secretary DOI, would you work to 
ensure that any increases in spending for the National Park Centennial 
Challenge are fully paid for?
    Answer. I am looking for various opportunities to provide funding 
for this important initiative, both within vehicles that include 
offsets and those that do not.
       Responses of Ken Salazar to Questions From Senator DeMint
    The United States suffers from reliance on imported oil and 
increasingly on imported natural gas. As we saw this past summer, this 
reliance can bring dramatic price swings to the domestic energy market, 
causing great strain for American families and their budgets. As a 
result of these high prices, the Congressional and Executive Moratoria 
banning exploration and development of energy on the Outer Continental 
Shelf were lifted as of October 1, 2009, bringing Americans hope for 
reducing our energy dependence.
    You mentioned in your opening statement that you, too, are worried 
about our country's dependence on foreign oil.
    Question 118. As part of a broad plan for greater energy 
independence, do you oppose efforts to reinstate the moratoria?
    Answer. As I stated during my hearing, I will closely examine the 
question of the moratoria and, more generally, the issue of potential 
new offshore drilling activity, in the context of a comprehensive 
energy policy for our nation.
    Question 119. Currently the Mineral Management Service is writing a 
new 5-year plan, which would allow for the possibility of lease sales 
in the Outer Continental Shelf off the East Coast and Eastern Gulf of 
Mexico. As Secretary, will you allow this new 5-year plan to move 
forward?
    As part of a plan to create jobs, and to help reduce the cost, in 
any economic stimulus, would you consider supporting the expansion of 
leasing of Federal lands for the development of our domestic resources? 
Under what conditions would you support it?
    Answer. As the President has indicated, offshore oil and gas 
leasing in some of the so-called frontier areas previously subject to 
moratoria might be considered as part of an overall energy policy that 
the Administration wants to craft with Congress. Regarding the five 
year leasing plan, the current plan runs through 2012, and ordinarily 
steps would begin to prepare the next plan in 2010, so there is no need 
for great haste in reconsidering the current plan. This matter too can 
be considered as part of an overall energy policy. Expansion of leasing 
of Federal lands to develop domestic energy resources, especially 
renewable resources like solar, wind and geothermal, should definitely 
be considered as part of an overall energy policy. We should recognize, 
however, that issuing and developing leases takes considerable time so 
such measures do not fit well in a package to provide short-term 
stimulus to the economy.
    Question 120. The Energy Policy Act of 2005 established a national 
program to develop oil shale and oil sands, including a programmatic 
environmental impact assessment and other activities necessary for a 
full-scale leasing program.
    RD&D leases grant rights to develop oil shale resources on tracts 
not to exceed 160 acres of public land for lease. The initial term of 
the leases is 10 years, and also contains a preferential right to 
convert the RD&D acreage plus adjacent acreage up to 4,960 acres to a 
20-year commercial lease once commercial production levels have been 
achieved and all requirements have been met. The RD&D leases include a 
number of project-specific requirements for permitting, monitoring, and 
mitigation to reduce possible impacts to the environment.
    Would you support another round of RD&D leasing? Under what 
circumstance are you willing to support commercial competitive leasing?
    Answer. I am skeptical about the need for more RD&D leasing, given 
that six such leases have already been issued, which would seem to 
provide ample opportunity for the development of new technologies which 
are critical if oil shale is to play a future role in the nation's 
energy mix. I am willing, however, to listen to the case for more such 
leasing.
    Question 121. A company seeking to develop an offshore lease must 
have an array of state and Federal permits. These permits are required 
by laws put in place to protect the environment. While I represent a 
state that has beaches, swamps, and mountains, I support the idea 
behind these measures. However, experience has shown that offshore 
energy development can occur in an environmentally responsible manner. 
The industry has a remarkable safety record.
    In some instances over 30 permits from seven different agencies are 
required to drill one exploratory well. That is just one pre-production 
well. This is not a sustainable model. We must find a way to 
rationalize the process without short-circuiting environmental 
safeguards.
    What are your thoughts on expediting applications for permits to 
drill from the time the lease is approved to when the site reaches full 
production?
    Answer. I understand that it often takes years for offshore leases 
to be brought into development. There are many reasons for this lag 
time, including, but hardly limited to, the regulatory permitting 
process. I agree with you that protecting the environment is very 
important and deserves support, and that offshore energy development 
does have an excellent environmental safety record in the last several 
decades. As Secretary, I will always be open to ideas to streamline 
permitting processes without sacrificing the environmental and other 
interests that created the need for the permitting process in the first 
place.
    Question 122. In recent years, the Bureau of Land Management ran a 
successful pilot program to speed the permit delivery process by 
bringing all the permitting agencies together in a single office--one 
stop shopping, if you will.
    Would you support such regional permitting offices with all the 
Federal permitting agencies in a single office? Further, do you have 
any additional plans, or ideas, to make the processing of these permits 
more efficient?
    Answer. I intend as Secretary to take a close look at such efforts 
to streamline permitting without sacrificing environmental protection 
and, if they work, I will consider expanding them.
    Question 123. This Committee and Congress has become accustomed to 
routinely passing numerous authorization bills without funding or bills 
that violate private property rights. As Secretary of the Interior, do 
you support legislation that places U.S. government interests above 
individual property rights?
    Answer. The U.S. Constitution protects private property rights, but 
it has been recognized for centuries that such rights are not absolute; 
for example, a property owner cannot use his or her property in such a 
way as to cause a public nuisance. The U.S. Supreme Court has in 
countless decisions recognized the power of the government to protect 
the public interest by appropriate legislation, even if that curtails 
some uses of property. I firmly believe in respecting property rights 
but I also firmly believe in the responsibility of government to 
protect the public, and as Secretary I intend to work hard to strike 
the proper balance.
    Question 124. The sheer amount of land owned by the Federal 
government is breathtaking, and each year executive agencies right 
policies and Congress passes legislation that accumulates more land. Do 
you support the U.S. government owning ever increasing amounts of land. 
Do you believe we should offset new land acquisitions by relinquishing 
land in other areas of the U.S.?
    Answer. To paraphrase the President in his inaugural speech, the 
question is not whether the U.S. has too much or too little land; it is 
whether the U.S. has the right land that serves the national interest 
and belongs in national ownership. I am very wary of using mathematical 
formulae in determining what lands the Federal government should own. 
It is constantly making adjustments in its land base, both disposing 
and acquiring lands to fit individual circumstances, and I expect that 
process to continue on my watch as Secretary.
    Question 125. On January 12, 2009, a U.S. Fifth Circuit Court of 
Appeals panel unanimously affirmed a previous Federal District Court 
ruling in favor of Kerr-McGee Corporation concerning the appropriate 
application of royalty relief for leases issued under the Deep Water 
Royalty Relief Act of 1995. This is the fourth time a Federal court has 
rule in favor of Kerr-McGee and against the Department of Interior.
    How do you intend to proceed forward? Do you believe more legal 
action is warranted?
    Answer. I know that the Bush Administration regarded the Kerr-McGee 
position in this lawsuit--that it was entitled to escape paying 
royalties to the U.S., no matter how high the price of oil, and its 
profits, rose--was inconsistent with the statute Congress passed 
authorizing royalty relief in limited circumstances. I strongly believe 
the U.S. government (and its taxpayers), who own this resource, are 
entitled to fair compensation when it is extracted and sold for private 
profit. I intend to consult with my lawyers at Interior and at the 
Department of Justice and decide how to proceed.
      Responses of Ken Salazar to Questions From Senator Barrasso
    Question 126. What steps would you take in order to ensure that 
listing decisions under the Endangered Species Act are made `solely on 
the basis of the best scientific and commercial data available' as 
required by Section 4(b) of the ESA?
    Answer. As you know, in recent years there were numerous reports 
that the scientific underpinnings of listing and other decisions under 
the Endangered Species Act were inappropriately meddled with and 
rewritten by political appointees with an ideological agenda. I intend 
as Secretary to restore integrity to the Departmental decision-making 
processes, and to insure that science is given appropriate 
consideration and that statutory standards are followed.
    Question 127. Will your administration bring any new strategies to 
the management of wild horses to assure that horse numbers on the range 
are reduced to and maintained at currently approved management levels?
    Answer. I understand that wild horse overpopulation and management 
remain continuing problems in some areas of our public lands. I expect 
that there will need to be continued management of wild horses if we 
are to maintain balance on the public lands. I intend as Secretary to 
look at all reasonable options.
    Question 128. What steps will your administration take to meet the 
BLM's statutory obligations to conduct rangeland monitoring and to 
complete NEPA analysis on livestock grazing allotments in a timely 
manner?
    Will you support continuation of current appropriations language 
that assures timely renewal of grazing permits pending completion of 
required environmental analysis?
    Answer. I understand that BLM (and the Forest Service) have for 
many years had difficulty meeting their NEPA obligations in connections 
with grazing permit renewals, and that Congress has had to step in from 
time to time and providing legislative relief. I intend to look at ways 
to address the issue.
    Question 129. Will the Obama administration support or oppose 
legislation providing for broad Federal buyout of grazing permits?
    Answer. In the abstract, I find the idea of marketplace solutions 
to grazing conflicts--where private or public money is used to buy 
grazing permits from willing seller ranchers in order to retire the 
public land from grazing--has considerable appeal. It could provide, in 
some circumstances of longstanding conflicts, a fair solution that 
respects ranchers' investments and their decision to sell out. Whether 
public as opposed to private philanthropic funds should be used for 
such purposes raises a somewhat different set of questions. I intend to 
look further into this matter.
    Question 130. Would you support efforts to provide greater 
certainty to livestock grazing permits in return for a permittee's 
commitment to maintain associated private lands in agricultural 
production, thereby assuring protection of open space and wildlife 
habitat?
    Answer. Federal livestock grazing permits, which usually have a 
ten-year term, are almost always renewed so that, in practice, permit 
holders already have a great deal of certainty. I am, however, very 
interested in exploring ways to give ranchers and other private 
landowners more incentives to protect wildlife habitat and open space, 
and as Secretary I intend to do so.
    Question 131. As Federal policy makers, we often hear complaints 
from state game department officials that the designation of Federal 
lands as wilderness, for example, seriously impedes their ability to 
actively manage habitat in order to allow wildlife populations to 
flourish. As Interior Secretary, would you support efforts to ensure 
that these local wildlife and habitat management experts are allowed 
the latitude necessary to properly manage wildlife and habitat in a 
manner they deem appropriate?
    Answer. The Wilderness Act and the individual statutes by which 
Congress designates Federal lands as wilderness usually set out in 
considerable detail what kinds of activities can and cannot be done in 
wilderness areas. While the core idea of wilderness contemplates 
leaving nature alone, applicable wilderness legislation does allow for 
management in some circumstances. I look forward to continuing to work 
with Congress in this matter.
    Question 132. The nation's hunters, anglers, and target shooters 
cite access to public lands as one of their most important issues to 
sustain our nation's hunting and angling heritage. What will you do as 
Secretary of the Interior to address these concerns on lands 
administered by the Department of the Interior? Will the needs and 
interests of these recreationists be addressed in land management plans 
as are the needs and interests of other recreationists?
    Answer. I believe that hunters and anglers are one of the most 
important constituencies of the public land management, and I intend to 
make sure that their interests are addressed in Departmental decision-
making.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

   Statement of Chris Devers, Chairman of the Pauma Band of Mission 
     Indians and Chairman of the Council of Energy Resource Tribes
    Good morning Chairman Bingaman, Ranking Member Murkowski, and 
distinguished members of the Committee on Energy and Natural Resources. 
My name is Chris Devers and I am the Chairman of the Pauma Band of 
Mission Indians. I am also the Chairman of the Council of Energy 
Resource Tribes (``CERT'').
    I am very pleased to submit for the Committee's consideration this 
statement on President-elect Obama's nomination of Senator Ken Salazar 
to be the Secretary of the Interior.
    Founded in 1975 during what was then known as the ``Arab Oil 
Embargo'', CERT is headquartered in Denver, CO, and boasts 57 member 
Indian tribes. CERT's member tribes are actively engaged in the 
development and production of renewable and non-renewable sources of 
energy from coast to coast.
    CERT's mission is to support member tribes in the development of 
their management capabilities and the use of their energy resources to 
foster tribal economic development and political self-governance. CERT 
is governed by a Board of Directors comprised of the principal elected 
leadership of CERT's member Indian tribes.
    In the past several years, CERT has been very active on the 
legislative and policy front and was instrumental in the development 
and passage of the Indian Tribal Energy Development and Self 
Determination Act of 2005 as well as the passage of the Energy 
Independence and Security Act of 2007. CERT's policy objectives in the 
111th Congress include the furtherance of innovative energy development 
on tribal land, improvements in the management of Federal land 
management agencies, and much-needed reforms to the Indian tribal trust 
management apparatus.
    As this Committee knows, the entire U.S. Government has a Trust 
Responsibility to protect and ensure the benefit of Indian trust assets 
and resources. The Department of the Interior is the lead agency 
charged with implementing the Government-to-Government relationship 
between the United States and the 561 Federally-recognized Indian 
tribes in America.
    As such, the Interior Secretary is in a key position to determine 
how the special legal and political relationship will be carried out 
and how the priorities of the Indian tribal leaders will be addressed.
    CERT and its member tribes have had many positive experiences with 
Senator Salazar and fully support his candidacy to be the next 
Secretary of the Interior.
    Since the late 1960's, when the Policy of Indian Self Determination 
was first articulated by President Johnson and President Nixon, Indian 
tribes have made significant strides in enhancing the sophistication of 
their political institutions and the vitality of their economies.
    Nonetheless, much remains to be done by tribes in partnership with 
the Federal trustee when it comes to improving the management of trust 
lands, assets and resources, and improving the material standards of 
living of Indian people.
    Achieving these objectives requires a Secretary willing to engage 
Indian country, listen to and appreciate the wisdom and experience of 
Indian tribal leaders, and demanding that Indian tribal interests be 
foremost in his mind.
    Senator Salazar has demonstrated this kind of determined leadership 
in his years of public service in the State of Colorado and in the U.S. 
Congress.
    CERT and its member tribes are confident that Senator Salazar will 
be the kind of Secretary that will ensure the welfare of the Indian 
tribes and their members and we can commit to working with him on the 
many challenges that he and the Department will face in the years to 
come.
    I appreciate the opportunity to provide this statement for the 
record and look forward to working with the Committee in the coming 
months and years.
                                 ______
                                 
                                    The Nature Conservancy,
                                   Arlington, VA, January 13, 2009.
Hon. Jeff Bingaman,
Chairman, Committee of Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman and Senator Domenici: I am writing on behalf 
of the one-million members of The Nature Conservancy to urge 
confirmation of Senator Ken Salazar as Secretary of the U.S. Department 
of Interior. The Nature Conservancy is an international, nonprofit 
organization dedicated to the conservation of biological diversity. Our 
mission is to preserve the plants, animals and natural communities that 
represent the diversity of life on Earth by protecting the lands and 
waters they need to survive.
    Senator Ken Salazar has had a distinguished and successful career 
in land and water conservation and management and is highly qualified 
to lead the Department of Interior. His background as a water and 
property lawyer. Director of Colorado's Department of Natural 
Resources, Colorado Governor's Legal Counsel. Colorado's Attorney 
General and as Colorado Senator is ideal for the challenges that face 
our nation's natural resources.
    The Nature Conservancy is pleased that someone of Senator Salazar's 
depth of knowledge and expertise in water, public lands and minerals 
has been nominated for this crucial assignment. But. beyond that, time 
and time again over his long career in natural resources, Senator 
Salazar has brought people of diverse views together around difficult 
problems, and reached creative solutions that work for all.
    The Nature Conservancy has worked directly with Senator Salazar on 
a number of critically important natural resource issues. As head of 
the Colorado Department of Natural Resources in the early 1990's, he 
recognized the need for more public investment in conserving Colorado's 
lands and waters. and led the effort to create the Great Outdoors 
Colorado Trust Fund (GOCO). He then served as the first chairman of 
GOCO, helping make it one of the most successful land conservation 
efforts in the United States. As Colorado Attorney General and then 
Senator.. he led the effort to bring together community needs and 
natural resource protection in Colorado's San Luis Valley. The result 
was the establishment of the Great Sand Dunes National Park and the 
Baca National Wildlife Refuge--an unprecedented land and water 
protection project that enjoyed broad based bi-partisan support.
    We believe that as Secretary of the Interior. Ken Salazar will use 
his extensive knowledge, personal integrity, and collaborative approach 
to ensure the conservation and wise stewardship of this Nation's 
magnificent natural resources. The Nature Conservancy strongly urges 
you to support Senator Salazar's nomination.
            Sincerely yours,
                                            Mark R. Tercek.
                                 ______
                                 
                                    The Nature Conservancy,
                                   Arlington, VA, January 12, 2009.
Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
Hon. Pete V. Domenici,
Ranking Member, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Senator Bingaman and Senator Domenici: I am writing on behalf 
of the one-million members of The Nature Conservancy to urge 
confirmation of Senator Ken Salazar as Secretary of the U.S. Department 
of Interior. The Nature Conservancy is an international, nonprofit 
organization dedicated to the conservation of biological diversity. Our 
mission is to preserve the plants, animals and natural communities that 
represent the diversity of life on Earth by protecting the lands and 
waters they need to survive.
    Senator Ken Salazar has had a distinguished and successful career 
in land and water conservation and management and is highly qualified 
to lead the Department of Interior. His background as a water and 
property lawyer, Director of Colorado's Department of Natural 
Resources, Colorado Governor's Legal Counsel, Colorado's Attorney 
General and as Colorado Senator is ideal for the challenges that face 
our nation's natural resources.
    The Nature Conservancy is pleased that someone of Senator Salazar's 
depth of knowledge and expertise in water, public lands and minerals 
has been nominated for this crucial assignment. But, beyond that, time 
and time again over his long career in natural resources, Senator 
Salazar has brought people of diverse views together around difficult 
problems, and reached creative solutions that work for all. The Nature 
Conservancy has worked directly with Senator Salazar on a number of 
critically important natural resource issues. As head of the Colorado 
Department of Natural Resources in the early 1990's, he recognized the 
need for more public investment in conserving Colorado's lands and 
waters, and led the effort to create the Great Outdoors Colorado Trust 
Fund (GOCO). He then served as the first chairman of GOCO, helping make 
it one of the most successful land conservation efforts in the United 
States. As Colorado Attorney General and then Senator, he led the 
effort to bring together community needs and natural resource 
protection in Colorado's San Luis Valley. The result was the 
establishment of the Great Sand Dunes National Park and the Baca 
National Wildlife Refuge--an unprecedented land and water protection 
project that enjoyed broad based bi-partisan support.
    We believe that as Secretary of the Interior, Ken Salazar will use 
his extensive knowledge, personal integrity, and collaborative approach 
to ensure the conservation and wise stewardship of this Nation's 
magnificent natural resources. The Nature Conservancy strongly urges 
you to support Senator Salazar's nomination.
            Sincerely,
                                            Robert Bendick,
                               Director, U.S. Government Relations.
                                 ______
                                 
                        Southern Ute Indian Tribal Council,
                                     Ignacio, CO, January 14, 2009.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, Committee 
        Office, 304 Dirksen Senate Building, Washington, DC.
Re: Nomination of Senator Ken Salazar as Secretary of the Interior.

    Dear Chairman Bingaman: The Southern Ute Indian Tribe is proud to 
congratulate Senator Ken Salazar on his recent nomination as the next 
Secretary of the Interior and anticipates continuing what has been a 
long and positive relationship with Senator Salazar in his new post. 
Senator Salazar has always demonstrated respect and support for the 
Tribe. In his various positions in State government, and more recently 
as a U.S. Senator, he has approached the Tribe on a government-
togovernment basis and has consistently shown respect for that 
relationship. In his capacity as Senator, he has supported legislation 
to improve Indian health care and housing. He is keenly aware of the 
challenges facing the Department of the Interior as well as those 
facing Indian Country, including the ongoing silent retreat of the 
Bureau of Indian Affairs from its trust responsibility. Beyond his own 
integrity, thoughtfulness and respect, Senator Salazar has also held 
his staffing decisions to a standard of very high quality, which has 
ensured that key members of his staff share the Senator's commitment to 
responsive and effective public service.
    Based on our history with Senator Salazar, the Tribe looks forward 
to working with a new Department of the Interior under his leadership; 
one that will face the issues with reason, analysis and an open ear to 
those outside the Beltway. The Tribe anticipates more focused 
management of the Bureau of Indian Affairs and its sister agencies 
within Interior. Once confirmed, Secretary Salazar and the Departmental 
leadership he selects will move Interior and Indian policy forward in a 
thoughtful and respectful way.
    Given our experience with Senator Salazar, the Southern Ute Indian 
Tribe urges the Senate Committee on Energy and Natural Resources to 
support his nomination to the critical position as Secretary of the 
Interior in the new administration.
            Sincerely,
                                            Matthew J. Box,
                                                          Chairman.
                                 ______
                                 
                               Colorado Historical Society,
                                       Denver, CO, January 9, 2009.
Hon. Jeff Bingaman,
Chairman, U.S. Senate Committee on Energy and Natural Resources, 304 
        Dirksen Senate Building, Washington, DC.
    Dear Chairman Bingaman, I am writing on behalf of the Colorado 
Historical Society to express our strong support for Senator Ken 
Salazar's nomination to be the next Secretary of the U.S. Department of 
the Interior. The Colorado Historical Society is charged with 
collecting, preserving, and interpreting the history of Colorado for 
present and future generations. Additionally, in the areas of historic 
preservation and public land policy, the Society fulfills the roles of 
State Historic Preservation Office and the Office of Archaeology and 
Historic Preservation in Colorado. In all these roles, we have enjoyed 
a positive relationship with Senator Ken Salazar working jointly to 
ensure that historic preservation receives the appropriate attention 
and support based on proactive policies, collaborative partnerships, 
and critical grant programs from the federal government.
    The Colorado Historical Society is confident that under Senator 
Salazar's leadership, the US Department of Interior will continue to 
set a high standard in the pursuit of historical preservation policy 
results. His experience as outlined below demonstrates how lie will 
continue to enhance the interaction between the states and the federal 
government in the nationwide historic preservation program. For 
example:

  <bullet> In his role as a US Senator, Ken Salazar championed multiple 
        pieces of legislation creating historic designations throughout 
        the State of Colorado including the Sand Creek National 
        Historic Site and sponsored the designation of national 
        heritage areas such as the South Park National Heritage Area 
        and the Sangre De Cristo Heritage Area.
  <bullet> Also as a Senator, Ken Salazar worked tirelessly to support 
        the State of Colorado's role in being a national leader in the 
        implementation of Preserve America programs. On a national 
        level, he was instrumental as a co-leader in the establishment 
        of the National Landscape Conservation System Act.
  <bullet> As Executive Director of the Colorado Department of Natural 
        Resources, Senator Salazar established the Great Outdoors 
        Colorado (GOCO) open space and parks program. This has led to 
        the creation of significant Colorado open space resources for 
        the residents of the state.

    On a more personal note, I have had the great pleasure of working 
with Senator Ken Salazar, a fifth generation Coloradan, on the 
integration of the National Historic Preservation Act and to promote 
historic preservation and heritage tourism programs in both 
metropolitan and remote rural regions in the State of Colorado. Senator 
Salazar's demonstrated commitment to Colorado and the West with our 
vast resources in such agencies as the National Parks and the BLM, 
complemented by his dedication in preserving the cultural, natural and 
physical elements of the land, make him the ultimate nominee to serve 
our state and the nation as Secretary of the US Department of Interior.

                                         Edward C. Nichols,
                                                 President and CEO.
                                 ______
                                 
        Statement of William H. Meadows, The Wilderness Society
    Chairman Bingaman, Senator Murkowski and members of the Committee, 
thank you for the opportunity to offer the views of The Wilderness 
Society in support of the nomination of Senator Ken Salazar of Colorado 
for the position of Secretary of the Interior. My name is Bill Meadows, 
and I am President of the Wilderness Society, an organization founded 
in 1935 and committed to ensure that future generations of Americans 
will enjoy the clean air and water, wildlife, natural beauty, and 
opportunities for recreation and renewal that pristine forests, rivers, 
deserts, and mountains provide.
    Ken Salazar has been a bridge-building conservation leader in 
Colorado for over a decade, and was a personally committed land steward 
well before that. He understands the land, water, and people of the 
West and the intricate connections among those key features of our 
natural and social landscape. For our part, The Wilderness Society has 
developed an excellent working relationship with Sen. Salazar and his 
office, though we have not always agreed with the positions he has 
taken on every issue of concern to us. Nevertheless, in all instances 
we have appreciated the inclusive, thoughtful, and open-minded way in 
which he approaches those positions and discussions leading to them.
    Days after he was elected to the United States Senate, Mr. Salazar 
asked The Wilderness Society and others for our recommendations for 
public land preservation--new wilderness designations, new national 
parks, and such. We delivered our list, and he has successfully 
negotiated and translated two key portions of that list into wilderness 
legislation that is now poised for approval by Congress.
    During the detailed work on the Rocky Mountain National Park 
wilderness bill and on legislation creating the Dominguez-Escalante 
national conservation area and, within that, the Dominguez Canyon 
Wilderness, Mr. Salazar and his staff have be very responsive to our 
requests for strong and uncompromised protection, even as they were 
getting pressure from those who oppose those designations. In doing 
that, he has been able to use his style and his position to develop 
legislation that respects and accommodates a variety of interests, thus 
persuading many wilderness skeptics to support the measures.
    Similarly, Senator Salazar has taken a deliberate and thoughtful 
approach to national energy policy. While recognizing the need for 
reliable energy supplies and while working to ensure those supplies, he 
has recognized that energy development should not override other public 
land and environmental priorities. He recognizes that there are some 
places on the public lands where oil and gas development is 
inappropriate, and other places where energy production is appropriate, 
but must be subject to safeguards that ensure the long-term health and 
beauty of our natural heritage, as well as the health of citizens who 
live near the oil and gas fields. Few in Colorado, or in Congress, have 
been more committed champions of sustainable, renewable energy supplies 
and of energy conserving measures.
    This combination of perspectives--sensible energy production and 
other resource development with a sharp eye on the need to protect more 
enduring values and resources--hopefully will return our national 
public lands management to the true principles of multiple use and 
sustainable yield, and away from the one-sided and destructive 
production-above-all-else approach of recent years.
    Taking on the multitude of issues in the immense landscape that 
comprises America's publicly owned deserts, rivers, wetlands, 
mountains, forests, parks and wildlife refuges managed in trust by the 
Department of the Interior for all Americans is an enormous 
responsibility. However, our experience with Sen. Salazar suggests that 
he will take that responsibility on in a strong and effective way, 
bringing to the task at hand his practical policies of inclusiveness, 
open-mindedness, and fairness that have characterized his career as a 
public servant to date.
    This combination of perspectives--careful energy and other resource 
development with a sharp eye on and commitment to protection of the 
more enduring values and resources of our common natural heritage--will 
return our national public lands management to the true principles of 
multiple use and sustainable yield, and away from the one-sided and 
destructive production-above-all-else approach of recent years.
    We ask that you approve his nomination as soon as possible.
    Thank you.
                                 ______
                                 
        Statement of the National Conference of State Historic 
                         Preservation Officers
    The National Conference of State Historic Preservation Officers 
supports the confirmation of Ken Salazar as Secretary of the Interior 
by the United States Senate. Mr. Salazar's varied background provides 
the broad experience and perspective needed to address the many, 
diverse and conflicting missions of the Department of the Interior as a 
farmer, businessman, attorney, State elected official, attorney 
general, natural resources departmental secretary, and United States 
Senator. His track record shows a balanced approach to resource 
decisions considering both conservation and development in determining 
the public good.
    The National Conference offers these comments because our members, 
the State Historic Preservation Officers (SHPOs), balance conservation 
and development every day in carrying out the National Historic 
Preservation Act (16 U. S. C. 470) for the Secretary of the Interior. 
The State Historic Preservation Officers are the Secretary's ``regional 
field offices'' for historic preservation both on and off federal land. 
On behalf of the Secretary, the SHPOs identify of our nation's historic 
places, the designate significant places on the National Register of 
Historic Places, establish formal relationships with more than 2,000 
local governments historic preservation programs, support he generation 
of over $4 billion in private investment for historic rehabilitation, 
and hold conversations agencies and project sponsors and stakeholders 
about the tension of conservation/development/public benefit of every 
federal agency activity.
    All SHPOs work directly with the Cultural Resources Associateship 
in the National Park Service daily. Western SHPOs also have a very 
close relationship with the Bureau of Land Management. The BLM and the 
SHPOs work together on considering potential impacts of activity on BLM 
land on historic places, providing public education opportunities, and 
most especially on historic site survey to find historic places and on 
the digitization of that survey information in State inventories.
    Finally, the National Conference associates itself with the January 
2009, endorsement of Secretary-designate Salazar by Edward Nichols, 
State Historic Preservation Officer and Director, Colorado Historical 
Society, in a letter to Jeff Bingaman, Chairman, United States Senate 
Committee on Energy and Natural Resources.
                                 ______
                                 
                           American Farm Bureau Federation,
                                   Washington, DC, January 9, 2009.
Hon. Jeff Bingaman,
Chairman, Sen. Energy & Natural Resources Comm., 304 Dirksen Senate 
        Building, Washington, DC.
Hon. Mitch McConnell,
Senate Minority Leader, 361A Russell Senate Office Building, 1st & C 
        Streets, NE, Washington, DC.
Hon. Harry Reid,
Senate Majority Leader, 528 Hart Senate Office Building, 2nd & C 
        Streets, NE, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, 709 Hart Senate Office Building, 2nd & C Streets, NE, 
        Washington, DC.
    Dear Senators Bingaman, Reid, McConnell and Murkowski: The American 
Farm Bureau Federation, the nation's largest general agricultural 
organization, endorses the nomination of Ken Salazar to be secretary of 
the interior.
    Sen. Salazar comes from a farm and ranch background, and 
understands the many challenges our members face. Farmers, ranchers and 
rural communities are affected when conflicts arise over such issues as 
endangered species, wildlife protection and management of federal 
lands. Coming from a federal land state, he also understands the 
resource management issues that must be addressed by the Department of 
the Interior. He has demonstrated a willingness and ability to listen 
to all sides of an issue. This approach will benefit farmers and 
ranchers, as well as the environment.
    We hope to work closely with the incoming secretary on the many 
important public policy issues facing the agricultural and ranching 
communities, and would welcome the opportunity of doing so with Ken 
Salazar. We strongly encourage the committee to approve his nomination 
swiftly so that he may begin working on the many tasks facing the 
department.
            Sincerely,
                                              Bob Stallman.

                                    

      

</pre></body></html>
